<html>
<title> - HEARING TO REVIEW THE STATE OF THE RURAL ECONOMY</title>
<body><pre>[House Hearing, 113 Congress]
[From the U.S. Government Publishing Office]



 
            HEARING TO REVIEW THE STATE OF THE RURAL ECONOMY

=======================================================================

                                HEARING

                               BEFORE THE

                        COMMITTEE ON AGRICULTURE
                        HOUSE OF REPRESENTATIVES

                    ONE HUNDRED THIRTEENTH CONGRESS

                             SECOND SESSION

                               __________

                             APRIL 3, 2014

                               __________

                           Serial No. 113-11


          Printed for the use of the Committee on Agriculture
                         agriculture.house.gov


                                 ______

                   U.S. GOVERNMENT PRINTING OFFICE 
87-513                     WASHINGTON : 2014
____________________________________________________________________________ 
For sale by the Superintendent of Documents, U.S. Government Printing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center, U.S. Government Printing Office. Phone 202�09512�091800, or 866�09512�091800 (toll-free). E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="8cebfce3cceff9fff8e4e9e0fca2efe3e1a2">[email&#160;protected]</a>  


                        COMMITTEE ON AGRICULTURE

                   FRANK D. LUCAS, Oklahoma, Chairman

BOB GOODLATTE, Virginia,             COLLIN C. PETERSON, Minnesota, 
    Vice Chairman                    Ranking Minority Member
STEVE KING, Iowa                     MIKE McINTYRE, North Carolina
RANDY NEUGEBAUER, Texas              DAVID SCOTT, Georgia
MIKE ROGERS, Alabama                 JIM COSTA, California
K. MICHAEL CONAWAY, Texas            TIMOTHY J. WALZ, Minnesota
GLENN THOMPSON, Pennsylvania         KURT SCHRADER, Oregon
BOB GIBBS, Ohio                      MARCIA L. FUDGE, Ohio
AUSTIN SCOTT, Georgia                JAMES P. McGOVERN, Massachusetts
SCOTT R. TIPTON, Colorado            SUZAN K. DelBENE, Washington
ERIC A. ``RICK'' CRAWFORD, Arkansas  GLORIA NEGRETE McLEOD, California
SCOTT DesJARLAIS, Tennessee          FILEMON VELA, Texas
CHRISTOPHER P. GIBSON, New York      MICHELLE LUJAN GRISHAM, New Mexico
VICKY HARTZLER, Missouri             ANN M. KUSTER, New Hampshire
REID J. RIBBLE, Wisconsin            RICHARD M. NOLAN, Minnesota
KRISTI L. NOEM, South Dakota         PETE P. GALLEGO, Texas
DAN BENISHEK, Michigan               WILLIAM L. ENYART, Illinois
JEFF DENHAM, California              JUAN VARGAS, California
STEPHEN LEE FINCHER, Tennessee       CHERI BUSTOS, Illinois
DOUG LaMALFA, California             SEAN PATRICK MALONEY, New York
RICHARD HUDSON, North Carolina       JOE COURTNEY, Connecticut
RODNEY DAVIS, Illinois               JOHN GARAMENDI, California
CHRIS COLLINS, New York
TED S. YOHO, Florida
VANCE M. McALLISTER, Louisiana

                                 ______

                      Nicole Scott, Staff Director

                     Kevin J. Kramp, Chief Counsel

                 Tamara Hinton, Communications Director

                Robert L. Larew, Minority Staff Director

                                  (ii)


                             C O N T E N T S

                              ----------                              
                                                                   Page
Costa, Hon. Jim, a Representative in Congress from California, 
  submitted letter...............................................    61
Lucas, Hon. Frank D., a Representative in Congress from Oklahoma, 
  opening statement..............................................     1
McGovern, Hon. James P., a Representative in Congress from 
  Massachusetts, submitted memo..................................    61
Peterson, Hon. Collin C., a Representative in Congress from 
  Minnesota, opening statement...................................     9
    Prepared statement...........................................

                                Witness

Vilsack, Hon. Thomas ``Tom'' J., Secretary, U.S. Department of 
  Agriculture, Washington, D.C...................................     1
    Prepared statement...........................................     3
    Supplementary material.......................................    63
    Submitted questions..........................................    66


            HEARING TO REVIEW THE STATE OF THE RURAL ECONOMY

                              ----------                              


                        THURSDAY, APRIL 3, 2014

                          House of Representatives,
                                  Committee on Agriculture,
                                                   Washington, D.C.
    The Committee met, pursuant to call, at 9:31 a.m., in Room 
1300 of the Longworth House Office Building, Hon. Frank D. 
Lucas [Chairman of the Committee] presiding.
    Members present: Representatives Lucas, Goodlatte, King, 
Neugebauer, Conaway, Thompson, Gibbs, Austin Scott of Georgia, 
Tipton, Crawford, DesJarlais, Gibson, Hartzler, Noem, Benishek, 
Fincher, LaMalfa, Hudson, Davis, Collins, Yoho, McAllister, 
Peterson, McIntyre, David Scott of Georgia, Costa, Walz, 
Schrader, Fudge, McGovern, DelBene, Negrete McLeod, Vela, Lujan 
Grisham, Nolan, Enyart, Vargas, Maloney, and Courtney.
    Staff present: Bart Fischer, Brandon Lipps, Debbie Smith, 
John Goldberg, Josh Mathis, Matt Schertz, Nicole Scott, Pelham 
Straughn, Skylar Sowder, Tamara Hinton, Anne Simmons, Keith 
Jones, Lisa Shelton, Liz Friedlander, Mary Knigge, Robert L. 
Larew, Merrick Munday, and Riley Pagett.

 OPENING STATEMENT OF HON. FRANK D. LUCAS, A REPRESENTATIVE IN 
                     CONGRESS FROM OKLAHOMA

    The Chairman. This hearing of the Committee on Agriculture 
to review the state of the rural economy will come to order. By 
a gentlemen's agreement, the Ranking Member and I are foregoing 
opening statements in the spirit of allowing as much time for 
the Secretary--who has a schedule conflict later this morning. 
I would also note that we would request that other Members 
submit their opening statements for the record so the witness 
may begin his testimony, and ensure there is ample time for 
questions.
    With that, I would like to welcome our witness to the 
table, The Honorable Tom Vilsack, Secretary, U.S. Department of 
Agriculture, Washington, D.C. Secretary Vilsack, please begin 
when you are ready, sir.

 STATEMENT OF HON. THOMAS ``TOM'' J. VILSACK, SECRETARY, U.S. 
          DEPARTMENT OF AGRICULTURE, WASHINGTON, D.C.

    Secretary Vilsack. Mr. Chairman, thank you very much. And 
to the Members of the Committee, thank you for this opportunity 
to appear before you this morning. I will just take a few 
minutes to briefly review where we are relative to farm income 
and the rural economy, and then I know that there are--an 
opportunity for a number of questions on issues of concern to 
all of you.
    Last year we experienced a record farm income, and this 
year we are expecting and anticipated farm income will be above 
average, roughly $8 billion above the 10 year average. This is 
in part a result of record exports. We had a record year last 
year in agricultural exports. The first quarter of this year 
actually has surpassed the first quarter of last year by 
roughly eight percent, so we expect and anticipate again strong 
exports, records in beef, poultry, and pork, as well as a 40 
percent increase in volume in some of the bulk commodities that 
are now being traded.
    A record enrollment in conservation activities, nearly 
500,000 producers are benefitting from the conservation 
programs established by Congress, and a record expansion of 
local and regional markets gives opportunities for small and 
mid-sized operators to succeed. Debt to asset ratios, and debt 
to equity ratios, are the lowest they have been since 1954. 
There are concerns, obviously, and I am sure we will address 
many of them, but some of these concerns that we are focused on 
at USDA is the lack of predictability in workforce, and the 
need for comprehensive immigration reform, the impact of 
weather, specifically drought in the Western part of the United 
States, and, based on the recent Agricultural Census, a 
continued concern about the declining middle-sized farms within 
agriculture, and the aging nature of farmers.
    The rural economy, despite agriculture's record income, 
still continues to have its challenges with persistent poverty, 
with stagnant job growth, and with population loss for the 
first time in quite some time. I think the farm bill that you 
all worked so extensively on, and we thank you for the work in 
getting it passed, provides real hope for a brighter and better 
future in rural America. It not only provides a strong safety 
net for our producers, it also expands market opportunities 
both domestically and foreign. There will be creative use of 
our conservation programs that will open up new income 
opportunities for our producers, and it lays the cornerstones 
for a new natural resource economy, with production agriculture 
and exports, local and regional food system expansion, 
conservation and its opportunity to expand outdoor recreation 
and ecosystem market opportunities, and a new opportunity to 
bring manufacturing back to rural America through the bio-based 
product manufacturing sections of the farm bill, that will 
expand beyond fuel and energy to now include chemicals, 
polymers, and other fabrics.
    We are committed at USDA to a timely and transparent 
implementation of the farm bill that you passed. At your desks 
I believe there is a report that we issued today, indicating 
the steps that have already been taken, in terms of 
implementation. We are significantly ahead of where we were in 
implementing the 2008 Farm Bill. I would say we are absolutely 
on track to have the Livestock Disaster Assistance programs up 
and going, so producers can apply on April 15, and hopefully 
will receive resources shortly thereafter. Our focus in the 
spring and summer will be on getting the educational materials 
out about the new safety net programs, ensuring that we work 
diligently on the establishment of the regional conservation 
partnership effort outlined in the farm bill, and also 
establishing the Agricultural Foundation, which offers great 
hope and opportunity for us to leverage existing agricultural 
research dollars.
    Mr. Chairman, I look forward to the questions from the 
Committee, and again, appreciate the opportunity to be here, as 
well as, again, appreciate the good work of this Committee in 
getting the farm bill passed.
    [The prepared statement of Mr. Vilsack follows:]

 Prepared Statement of Hon. Thomas ``Tom'' J. Vilsack, Secretary, U.S. 
              Department of Agriculture, Washington, D.C.

    Mr. Chairman and Members of the Committee, I am pleased to have 
this opportunity to discuss the state of the rural economy. The U.S. 
Department of Agriculture (USDA), under President Obama's leadership, 
has helped to build a strong foundation for future economic growth in 
rural America. The potential in rural America is almost limitless. 
Expanded opportunities in the bio-economy and renewable energy, rural 
manufacturing, and emerging markets for agricultural products are 
providing new revenue opportunities for farmers, ranchers and 
foresters, expanding the potential for job creation in rural small 
businesses, and spurring economic growth across the country.
    The 2012 Census of Agriculture data, released in February, provide 
an important backdrop for this discussion. While the results reiterate 
what we have known for many years--that the farming population is 
aging--they also show growth in key areas. The number of young farmers 
has increased slightly. The number of minority farm and ranch principal 
operators increased dramatically, reflecting the changing face of 
America as a whole. The Census data also show that the number of small 
and very large farms held steady, but the middle--farms and ranches 
that are middle-sized and mid-income--has suffered in recent years.
    We can and we must do more to support those living and working in 
rural America now, including a focus on assisting the middle-sized 
farms, while creating the kind of jobs and opportunity that encourage 
young people to get into the business of farming, and attracting and 
retaining the next generation talent in rural America.
    Working with community and local government partners, our efforts 
have had a significant impact thus far. We have invested billions in 
critical infrastructure, essential nutrition assistance, and land and 
water conservation. For hardworking rural families who need additional 
help putting healthy food on the table, USDA's nutrition assistance 
programs are available as they return to work and rebuild in the wake 
of tough times. The unemployment rate in rural America fell to 6.8 
percent for the 4th quarter of 2013--down from 9.0 percent during the 
same period in 2009. Moving forward, we must step up our efforts to 
invest in areas with high potential for growth, including expanding 
marketing opportunities for farm and ranch products both at home and 
abroad; investing in the emerging bio-economy; advancing conservation 
efforts that preserve land and water resources; and supporting critical 
research that will prepare our farmers and ranchers to address modern 
challenges.
    I would like to take this opportunity to thank the Committee for 
your hard work in crafting the newly-signed 2014 Farm Bill. The new 
farm bill provides certainty that has been lacking for several years 
and allows USDA to now move forward confidently with the tools and 
resources we need to accomplish our mission of serving America's 
farmers, ranchers and rural communities.

Supporting Production Agriculture
    Farmers, ranchers and those working in supporting industries 
maintain an agriculture sector that has seen strong growth over the 
past 5 years. Agriculture accounts for about $746 billion in economic 
activity, supports one out of every twelve jobs in the economy, and 
helps to maintain vibrant, thriving rural communities. They are 
expanding into new markets around the world, spurring innovation, and 
creating jobs and opportunity on and off the farm, even in the face of 
uncertainty.
    The future of rural America depends on their continued leadership, 
and we must make sure they have the tools they need to continue to 
grow, and a strong safety net to support them during tough times. In 
the roughly 8 weeks since the farm bill was signed into law, USDA is 
working diligently to implement the programs to ensure the 
effectiveness of the farm safety net going forward.
    In the face of recent historic drought throughout the United 
States, USDA has provided assistance to farmers, ranchers and rural 
communities, including conservation assistance, and grants to help 
rural communities improve access to fresh drinking water. The new farm 
bill also reauthorizes disaster assistance programs that have not been 
operational since 2011, allowing USDA to provide additional, much-
needed relief to struggling farmers and ranchers. At the direction of 
the President, USDA has made the disaster programs our number one 
priority and expedited their implementation. Sign-up will begin on 
April 15, 2014.

Helping Farmers and Ranchers Access New Markets
    USDA is supporting America's farmers and ranchers as they build on 
record agricultural exports. In Calendar Year 2013, exports of U.S. 
food and agricultural products reached a record $144.1 billion \1\ and 
supported nearly one million American jobs. We are on track for another 
exceptional export year in FY 2014, with shipments of farm and food 
products forecasted to reach $142.6 billion.
---------------------------------------------------------------------------
    \1\ Figure reflects domestic exports and does not include re-
exports.
---------------------------------------------------------------------------
    USDA has helped secure new agreements with Panama, Colombia and 
South Korea. These agreements will generate new markets for U.S. 
farmers and ranchers to the tune of more than $2 billion per year in 
additional exports. USDA has also removed numerous barriers to trade. 
For example, since 2012, USDA, in partnership with the U.S. Trade 
Representative, has removed unwarranted restrictions to help farmers 
provide more U.S. apples to South Africa, beef to Japan, organic 
produce to the European Union, and more. For example, over the past 
year, USDA, working closely with the U.S. potato industry, expanded 
market access for U.S. potatoes in the Philippines, Taiwan and Korea. 
As a result of the removal of trade barriers, potato exports to these 
three markets rose 13 percent from the previous year, reaching nearly 
$21 million.
    The potential for agricultural exports is considerable, yet only a 
small percentage of American companies export, and, of those that 
export, 58% export to only one market. Recognizing the tremendous 
potential of U.S. exporters to reach additional markets, in February 
the Administration's White House Rural Council launched the Made in 
Rural America export and investment initiative, which brings together 
Federal resources to help rural businesses access new customers and 
markets abroad. Thanks to resources in the new farm bill, USDA is also 
able to continue funding for trade promotion and market expansion for 
U.S. agricultural products overseas. For example, through the Market 
Access Program we will be able to provide trade promotion and marketing 
funding to over 600 small companies annually.
    At the same time, USDA is helping create strong local and regional 
supply chains and the rural jobs that come with them. In 2008, USDA 
estimates valued local food sales at $5 billion nationally--a figure 
that industry estimates grew to approximately $7 billion in just 3 
years. Our research shows that money spent on local food often 
continues to circulate locally, creating demand for other businesses 
and services in rural communities. USDA's investments in local and 
regional supply chains help producers break into new markets and meet 
consumer demand in under-served communities. As such, this strategy is 
a critical piece of USDA's work to support rural economies more 
generally.
    USDA has invested in local food infrastructure--from cold storage 
facilities, to processing plants, to farmers markets, to food hubs that 
aggregate products from many farms and help smaller producers reach 
larger buyers. There are over 230 food hubs in operation nationwide 
today, and more than 8,100 farmers markets registered with the AMS 
National Farmers Market Directory. The 2014 Farm Bill builds on this 
progress by expanding funding eligibility through the Farmers Market 
and Local Food Promotion Program to include both direct-to-consumer 
opportunities like farmers markets, and supply chain projects like food 
hubs, which will allow USDA to invest up to $30 million annually in 
local and regional food systems.
    Schools, hospitals, retailers and other institutional and wholesale 
buyers are a rapidly expanding market opportunity for local producers 
and an investment into local economies, and USDA has helped to connect 
farmers and ranchers to local buyers. For example, USDA's Farm to 
School efforts are working directly with producers and schools to 
supply nearly $355 million in local food, reaching over 30 million 
students in school cafeterias and investing in the health of America's 
next generation.
    The 2012 Census of Agriculture data indicate there is tremendous 
growth potential for small and mid-sized producers, but many need 
additional support in order to become competitive.
    Accordingly, USDA has expanded efforts to connect small- and mid-
sized farmers and ranchers with tools and resources to help them access 
capital, get information about land management and conservation 
practices, manage risk, find local markets, and other educational 
resources that will help them grow their operations and expand into new 
markets. For example, the hoop house cost-share program, which began as 
a pilot in 2010 through the NRCS Environmental Quality Incentives 
Program, provides revenue opportunities by extending the growing season 
for high value crops, while also promoting conservation for small and 
mid-sized farmers. Since 2010, more than 10,000 hoop houses have been 
constructed, with projects in all 50 states.
    Since its launch in January 2013, the Microloan Program has issued 
more than 6,000 microloans totaling $116 million to beginning, small 
and mid-sized producers across the country. Housed within the FSA 
Direct Operating Loan program, the program allows farmers and ranchers 
to access of up to $50,000 to help launch startup farm businesses, 
provide needed resources, and increase equity so farmers can graduate 
to commercial credit and expand their operations. This tool is 
especially helpful for new farmers, including veterans and women, and 
socially-disadvantaged farmers, such as those operating in Strike Force 
regions, as they tend to be under-capitalized and smaller.

Investing in Critical Research and Innovative Technology
    Amazing scientific breakthroughs have helped our farmers, ranchers 
and growers increase production on the same amounts of land, using 
fewer inputs. Studies have shown that every dollar invested in 
agricultural research returns up to $20 to the economy.
    USDA continues to work with our Land-Grant University partners to 
deliver science-based knowledge and practical information to farmers, 
ranchers and forest landowners to support decision-making, innovation 
and economic opportunity in rural America. In the past 5 years alone, 
research by USDA scientists has led to nearly 400 patent applications 
covering a wide range of topics and discoveries. USDA also continues to 
aggressively partner with private companies, universities and others to 
transfer technology to the marketplace to benefit consumers and 
stakeholders. In 2013, for example, USDA entered into 1,924 cooperative 
research agreements, issued 23 licenses on patented technology, filed 
134 patents, and received 46 patents on a variety of innovations to 
boost American agricultural productivity.
    Looking ahead, we know that farmers, ranchers and foresters will be 
on the front lines when it comes to dealing with the impacts of a 
changing and shifting climate. That's why USDA has established a set of 
seven regional Climate Hubs and three subsidiary hubs. These hubs will 
help producers to get the latest information to help them mitigate the 
risks of climate change. The regional model ensures that the facts 
they're getting are geared toward what's happening in their part of the 
country. Each hub will serve as a repository for information on risks 
associated with climate change and deliver science-based, practical 
options for dealing with these challenges to farmers, ranchers, forest 
landowners and other stakeholders.
    USDA is also helping farmers and ranchers to use what is already 
grown and raised on our farms and ranches in innovative and unexpected 
ways. New opportunities in advanced bio-based products and renewable 
energy expand the potential to strengthen rural manufacturing, 
particularly of products made from renewable materials from our farms 
and forests. Rural America desperately needs those jobs, and every 
American benefits from our expanded competitiveness in this globally 
emerging market.
    For example, USDA is helping to create markets for advanced 
biofuels from non-food, non-feed sources--from the farm field to the 
end user. In 2010, USDA established a program to incentivize hundreds 
of growers and landowners farming nearly 60,000 acres of advanced 
biofuel feedstocks for energy conversion facilities. To ensure those 
feedstocks are put to use, USDA has invested in the work needed to 
create advanced biofuels refineries. Since 2009, USDA has invested in 
efforts to create nine new advanced refineries nationwide. We have also 
created six regional research centers across America to develop 
advanced bio-based energy technology that's appropriate to every 
region. With the nearly $900 million in mandatory money provided in the 
Energy Title of the farm bill, we can continue these efforts to expand 
the bio-based economy and support economic development opportunities in 
rural America.
    USDA scientists are also conducting research on the use of wood, 
helping companies meet green building design standards and creating 
jobs using forest products. Forest Service research into wood-based 
nanotechnology is leading the way to plant-based construction 
materials, body armor, and more. Earlier this month, USDA also 
announced a new $1 million partnership a nonprofit organization to 
educate architects, engineers and builders about the benefits of 
advanced wood building materials. We also have plans for a new prize 
competition to design and build high-rise wood demonstration projects, 
which we believe will help spur increased sustainability in 
construction and encourage builders to source materials from rural 
domestic manufacturers and domestic, sustainably-managed forests.

Expanding Opportunity in Rural America
    USDA has made strategic investments in infrastructure, housing and 
community facilities to help improve quality of life in rural America. 
Since 2009, USDA has helped more than 800,000 families buy, repair or 
refinance a home; extended new or improved broadband service for more 
than seven million Americans and 364,000 rural businesses; improved or 
constructed more than 90,000 miles of electric line; invested in 6,700 
water and wastewater projects for nearly 20 million Americans; and 
provided grants and loans to assist nearly 75,000 small and mid-sized 
businesses in rural America, creating or saving an estimated 377,000 
jobs. New tools provided in the 2014 Farm Bill will allow USDA to build 
on its investments in the prosperity of rural communities.
    Even as we make these investments, rural America continues to face 
a unique set of challenges when it comes to combating poverty. While 
poverty is not limited to rural America, nearly 85 percent of 
persistent poverty counties are located in rural areas. In fact, \1/3\ 
of rural counties have child poverty rates of over 30 percent, at a 
time when research increasingly demonstrates the negative effect of 
poverty on child development and educational attainment. The 
Administration believes that we must do more to create better futures 
for our children and families and those striving to reach the middle 
class.
    That is one reason USDA has established the StrikeForce initiative. 
StrikeForce represents a broad commitment to grow economies, increase 
investments and create opportunities in poverty-stricken rural 
communities through intensive outreach and stronger partnerships with 
community organizations. From increasing access to healthy, affordable 
food; to closing farm loans; to building housing, libraries, hospitals 
and clinics; to expanding the productivity of our farmers and ranchers, 
through StrikeForce, USDA is working in close partnership with 
communities to provide technical assistance and a hands-on approach to 
ensure that knowledge of USDA programs and assistance is accessible to 
anyone, regardless of education attainment, place of residence or local 
capacity.
    In 2010, USDA started StrikeForce as a pilot in persistent poverty 
counties in rural Arkansas, Georgia and Mississippi. As we saw this 
community partnership strategy working, we expanded our efforts. Now, 
through StrikeForce, USDA has partnered with more than 400 community 
organizations, businesses, foundations, universities and other groups 
across 770 rural counties, parishes, boroughs, Tribal reservations and 
Colonias in twenty states. Through these partnerships, USDA has 
supported 80,300 projects and ushered more than $9.7 billion in 
investments into poverty-stricken rural areas.

Conclusion
    In closing, I want to reiterate the importance of the passage of 
the new farm bill. The tools and resources provided by the farm bill 
will help USDA to carry out its mission, but there is more to be done 
to ensure the long-term viability of America's farms and ranches. It is 
critical that Congress move on immigration reform to maintain a stable, 
productive agricultural workforce. Agriculture needs the surety of a 
stable and adequate workforce, and that is possible only through a 
comprehensive set of rules that enact a pathway to citizenship for many 
of the workers who help to drive the productivity of our farms and 
ranches.
    Mr. Chairman and Members of the Committee, thank you for this 
opportunity to speak briefly about the state of the economy in rural 
America. I believe that rural America--and those who live, work and 
raise their families there--continues to remain strong. Thanks to their 
resilience and willingness to adapt and innovate, our farmers, ranchers 
and rural communities are prepared to take on the challenges that the 
coming years will bring and keep the rural economy moving forward.

                               Attachment

Progress on 2014 Farm Bill Implementation
Title I--Commodity Programs
  <bullet> Supplemental Agriculture Disaster Assistance: USDA will 
        publish a final rule to implement the disaster assistance 
        provisions and begin sign-up by April 15, 2014.

  <bullet> County and Regional Loan Rates: USDA issued a press release 
        on March 28, 2014 announcing county and regional loan rates.

  <bullet> Extension of Programs: On March 28, 2014 FSA published on 
        the Federal Register notices for the extension of the following 
        programs: (1) Marketing Assistance Loans; (2) Milk Income Loss 
        Contract; (3) Dairy Indemnity Payment Program; (4) Non-Insured 
        Crop Disaster Assistance Program; and (5) Sugar.

  <bullet> Dairy Forward Pricing Program: Final rule published on March 
        21, 2014, that re-established the Dairy Forward Pricing 
        Program.

Title II--Conservation
  <bullet> Conservation Programs: Applications are currently being 
        accepted for the Conservation Stewardship Program and 
        Environmental Quality Incentives Program.

Title III--Trade
  <bullet> Market Access Program (MAP): During the week of April 7, 
        2014, the Foreign Agricultural Service (FAS) will announce 2014 
        MAP funding.

  <bullet> Foreign Market Development Cooperator Program (FMD): During 
        the week of April 7, 2014, FAS will announce 2014 FMD funding.

Title IV--Nutrition Programs
  <bullet> Low-Income Home Energy Assistance Program (LIHEAP) Payments: 
        On March 5, 2014, the Food and Nutrition Service (FNS) released 
        an Implementation Memorandum to States on the elimination of 
        standard utility allowances in the Supplemental Nutrition 
        Assistance Program (SNAP) for LIHEAP payments less than $20.

  <bullet> SNAP-related Provisions: On March 21, 2014, FNS released an 
        Implementation Memorandum to States communicating major SNAP 
        related provisions of the Act.

  <bullet> Community Food Projects: On February 27, 2014, the National 
        Institute of Food and Agriculture (NIFA) released a Notice of 
        Funding Availability for the Community Food Projects 
        Competitive Grants Program, with $5 million available.

  <bullet> Commodity Supplemental Food Program (CSFP): On March 10, 
        2014, FNS released an Implementation Memorandum to States on 
        phasing out the eligibility of women, infants and children.

  <bullet> Multiagency Taskforce on Commodity Programs: On March 14, 
        2014, the Under Secretary of Food, Nutrition and Consumer 
        Services issued a memorandum to solicit names for a multi-
        agency task force to provide coordination and direction for 
        commodity programs.

Title V--Credit
  <bullet> Farm Loan Programs/Direct Farm Ownership: On February 7, 
        2014, FSA implemented changes in the interest rate on Direct 
        Farm Ownership loans that are made in conjunction with other 
        lenders.

  <bullet> Modifications to Farm Loan Programs: On March 24, 2014, FSA 
        issued a news release in announcing changes to Farm Loan 
        Programs as part of the Farm Bill.

  <bullet> Microloans: On March 26, 2014, FSA issued an agency 
        directive implementing non-discretionary microloan provisions.

Title VI--Rural Development
  <bullet> Value-Added Producer Grants (VAPG): On March 25, 2014, Rural 
        Development published a notice in the Federal Register 
        extending the application period for Fiscal Year 2013 and 2014 
        funding for VAPG, with up to $25.5 million available for these 
        grants.

  <bullet> Definition of Rural Housing: On March 13, 2014, Rural 
        Development issued guidance to State Directors, field staff and 
        stakeholders on implementing new eligibility requirements 
        regarding the definition of rural housing.

Title VII--Research and Related Matters
  <bullet> Organic Agriculture Research and Extension Initiative: On 
        March 17, 2014, NIFA released a Notice of Funding Availability 
        for the Organic Agriculture Research and Extension Initiative, 
        with $20 million available in FY 2014.

  <bullet> Specialty Crop Research Initiative: On March 17, 2014, NIFA 
        released a Notice of Funding Availability for the Specialty 
        Crop Research Initiative, with $76.8 million available in FY 
        2014.

  <bullet> Citrus Disease Subcommittee: A subcommittee has been 
        formally established within the National Agricultural Research, 
        Extension, Education, and Economics Advisory Board, under the 
        Specialty Crop Committee, and solicitation letters for 
        nominations were issued March 17, 2014.

  <bullet> Foundation for Food and Agriculture Research (FFAR): Letters 
        soliciting nominations to the FFAR Board were mailed to 
        interested parties and a Federal Register notice was submitted 
        for publication on March 31, 2014.

  <bullet> Budget Submission and Funding: On March 10, 2014, REE 
        submitted its first Budget Submission and Funding report to 
        Congress.

Title VIII--Forestry
  <bullet> Insect and Disease Infestation: On March 19, 2014, Forest 
        Service Chief Tom Tidwell sent a letter to all state governors 
        notifying them of the opportunity to submit requests for 
        designating their priority insect and disease areas for 
        treatment.

Title X--Horticulture
  <bullet> Plant Pest and Disease Management and Disaster Prevention: 
        On April 3, 2014 USDA announced $48.1 million in funding for 
        383 projects to help prevent the introduction or spread of plan 
        pests and diseases.

  <bullet> National Clean Plant Network: The Animal and Plant Health 
        Inspection Service announced a Request for Applications (RFA) 
        on March 24, 2014 for the National Clean Plant Network, with $5 
        million available.

  <bullet> Bulk Shipments of Apples to Canada: On April 3, 2014, AMS 
        will publish a final rule in the Federal Register amending 
        regulations under the Export Apple Act to allow bulk containers 
        to be shipped to Canada without U.S. inspection.

Title XI--Crop Insurance
  <bullet> Premium Amounts for Catastrophic Risk Protection (CAT): 
        During the first week of April, the Risk Management Agency 
        (RMA) will issue documents to revise the premium rates charged 
        for CAT coverage to be based on the average historical ``loss 
        ratio'' plus a reasonable reserve.

Title XII--Miscellaneous
  <bullet> Catfish Inspection: On March 14, 2014 the Food Safety and 
        Inspection Service (FSIS) submitted the first status report to 
        Congress on the development of the final rule establishing a 
        catfish inspection program.

    The Chairman. Thank you, Mr. Secretary. The chair would 
like to remind Members that they will be recognized for 
questioning in the order of seniority for Members who were here 
at the start of the hearing. After that, Members will be 
recognized in order of arrival, and I do appreciate the 
Members' understanding. And, with that, I recognized myself for 
5 minutes.
    Mr. Secretary, I would be remiss if I didn't note how 
greatly I appreciate the heavy lift that you now have in front 
of you in implementing the farm bill. And we certainly felt 
that weight on this side of the room in the process of getting 
it to your desk. And I also appreciate greatly the efforts of 
you and your team during the farm bill process generally, 
especially in those final days of negotiations. And you know 
what I speak of, but thank you for making that happen.
    Could you take a little more time and provide more of an 
overall view of the implementation efforts as they have 
occurred so far, and how you see them working through the rest 
of the summer and the fall, and if there are difficulties that 
you are encountering that would be appropriate to share with 
us, so perhaps we can help address those? I would be interested 
in that too, Mr. Secretary.
    Secretary Vilsack. Mr. Chairman, we actually began 
preparing for the passage of the farm bill before the bill was 
actually passed and signed by the President. We established 
individual committees within each title of the farm bill, and 
asked them to identify the steps that would have to be taken in 
order to implement it fully, whether it would be a rural 
guidance policy directive, a notice in the Federal Register, 
whatever it would be. We identified roughly 450 additional 
steps--significant steps would have to be taken within the 
overall farm bill. We have a convening group that has re-
prioritized the priorities within each title to determine what 
needs to be done immediately.
    Obviously our focus was on getting the disaster assistance 
programs up and going. We recognize that we have an equal set 
of pressure and stress on making sure that there is educational 
materials prepared and given to producers so that they can 
begin the process of understanding the various elections that 
they have to make, both in crop insurance, and in the safety 
net programs. We want these producers to be prepared to make 
those decisions in an informed way sometime in the fall, late 
fall, early winter of this year, so that they are in good shape 
for the 2015 crop year.
    So we anticipate livestock applications on or before April 
15, resources provided thereafter--shortly thereafter. 
Educational materials, we are in the process now of deciding 
how to allocate the $3 million that you all provided to 
establish the educational outreach, and the $3 million that 
will create the education pools that will be used by folks to 
make decisions. We also understand the significance of what you 
have done in conservation, and we know there is great interest 
in these regional partnerships, so we are focused on making 
sure that we get those in order in a relatively quick way. We 
are in the process right now of making conservation programs 
available, Environmental Quality Incentives Program (EQIP), 
Conservation Stewardship Program (CSP). There are sign-up 
opportunities at this point in time, and we anticipate 
obligations being completed on the regular programs sometime 
this summer.
    In terms of the Foundation, we have a number of steps 
legally that we have to take, which we expect and anticipate 
taking very, very shortly. There will be a meeting of the ex 
officio Board members, the interim Board. We will, this week, 
have provided a notice to the world to submit applications and 
nominations for folks who can serve on the Board. We will vet 
those folks, and hopefully sometime late spring we will be in a 
position to have a full Board appointed.
    We expect and anticipate a lot of activity in 2014. And, at 
this point in time, we think we have what we need, but we 
appreciate the offer that if we are in need of assistance, we 
will certainly let you know.
    The Chairman. Thank you, Mr. Secretary. I yield back, and 
turn to the Ranking Member, and recognize him for 5 minutes for 
any questions he may have.

OPENING STATEMENT OF HON. COLLIN C. PETERSON, A REPRESENTATIVE 
                   IN CONGRESS FROM MINNESOTA

    Mr. Peterson. Thank you, Mr. Chairman. Secretary, I 
appreciate you being here. And currently you guys have decided 
not to do a general sign-up in CRP in 2014, or until the fall, 
I guess, is that the decision?
    Secretary Vilsack. I am not sure that that decision has 
been final. As you well know, the amount of acreage available 
in CRP has been somewhat contained and restricted by 
Congressional action, so we are in the process of taking a look 
at precisely where we are relative to continuous sign-up, 
which, obviously, continues. What I do know about CRP is that, 
because of limitations, in the future we are going to have to 
be quite targeted and quite focused. We think we have some 
flexibility in the continuous programs, but at this point I 
wouldn't say that we have finally made a decision relative to a 
general sign-up.
    Mr. Peterson. Well, I would encourage you to take a look at 
it, because I think there is--from what I can tell, there are 
1\1/2\ million to 2 million acres left in there, even with the 
24 million acre cap, so I am concerned that, given what is 
going on with commodity prices and so forth, I think things are 
going to change. I mean, we have been having people tear up 
their CRP because of the high rents and so forth, but I think 
that may change. The continuous sign-up is not going to solve 
all the problems that I am interested in. We need big track CRP 
to maintain these wildlife populations. That is what has 
brought back pheasants, and deer, and some of this other stuff. 
And so the continuous by itself isn't going to get it, in terms 
of wildlife, in my opinion.
    Secretary Vilsack. I don't disagree, and, as you know, we 
have had a number of general sign-ups since I have been 
Secretary.
    Mr. Peterson. Well, thank you, and I would just encourage--
because if you wait until fall, we are going to miss the year 
up in our part of the country. The way this winter is going, we 
may not, or we may have snow in July. I was reading in a story 
someplace the last couple days about the bee pollinator 
situation, and it was reported that there is apparently some 
kind of Federal program or something to encourage people to 
plant alfalfa and clover. Do you know what they are talking 
about?
    Secretary Vilsack. We provided $3 million to encourage 
better habitat for pollinators, given the challenges and 
concerns we have seen.
    Mr. Peterson. How does that work? How does the $3 million--
what does it do?
    Secretary Vilsack. Well, it is essentially focused on the 
upper-Midwest area, in an effort to try to see whether or not 
incentives will work to encourage the planting of grasses, et 
cetera, that will be attractive to pollinators. And it is part 
of an overall effort that involves the establishment of a 
pollinator working group at USDA, and it is something that the 
White House is also quite interested in. The science--John 
Holdren is involved in this as well. And we are doing 
additional research, in terms of trying to establish precisely 
what the threats are, what the challenges are for pollinators. 
It is complicated, and it is not--it doesn't lend itself to a 
simple answer.
    Mr. Peterson. Yes, I am aware of that, and we appreciate 
your efforts, but I guess--is it like a cost-share? Is that 
what you are looking at? So if you are going to plant--say you 
have some land that is a general crop: corn, or soybeans, then 
you are going to put it down into alfalfa and clover, how would 
this--would it be like a cost-share that----
    Secretary Vilsack. Well, I think it helps to defray the 
expenses if you make that decision.
    Mr. Peterson. To plant it?
    Secretary Vilsack. Yes, sir.
    Mr. Peterson. Yes. Okay. So it would be like the cost-share 
that you get for planting CRP, or some of these other things?
    Secretary Vilsack. Yes, sir.
    Mr. Peterson. On the dairy front, I know you are moving 
rapidly on that. One provision in the bill was to allow 
California to come into the Federal Order System, and I 
understand there have been meetings with California processors 
and so forth. So can you kind of update me on--or do you know 
where that is at, and how that is progressing?
    Secretary Vilsack. There have been three or four specific 
trips by our Agricultural Marketing Service (AMS) personnel to 
California. I think we have probably addressed nearly 80 
percent of the producers, manufacturers, and trade 
organizations, as well as the California Department of Food and 
Agriculture.
    We would expect and anticipate that the formal proposal 
that is required to trigger this will be submitted sometime 
this spring. Once that industry submits the proposal, we may 
have to go through, as you know, one or more formal rulemaking 
hearings, and then, obviously, there has to be approval by the 
producers. So the process is moving, and we are prepared to 
cooperate, should the producers want to be part of this. We 
basically have ten of these, representing roughly 60 percent of 
the dairy industry in the country today.
    Mr. Peterson. Yes. Thank you. Thank you, Mr. Chairman.
    The Chairman. The chair now recognizes the gentleman from 
Texas, Mr. Neugebauer, for 5 minutes.
    Mr. Neugebauer. Thanks, Mr. Chairman. Secretary, thank you 
for being here. Just a couple of things. I guess one of the 
things that was--wasn't really resolved in the farm bill was 
the actively engaged rules, and that was left up to your agency 
to determine. And, obviously, a lot of the producers in my 
district are very interested in this process. Can you elaborate 
a little bit of kind of how you see this process being 
developed, and what kind of input that you might seek from 
producers and producer groups?
    Secretary Vilsack. This is, obviously, an issue that raised 
a lot of concerns and interest, as you indicated. I would say 
first and foremost, we are dealing in a very narrow band, in 
terms of what Congress has directed us to do. As you well know, 
there is a family farm provision, as it relates to the actively 
engaged, which will probably address a large percentage of 
operations in the United States, so that obviously won't be 
part of our review or conversation. It will be primarily 
focused on general and limited partnerships. It is not likely 
to be focused in great--to a great extent on corporate 
structures because of the nature of liabilities.
    So we will be looking at the universe of folks that we are 
dealing with. We will propose an interim rule process so that 
folks will be given the opportunity to weigh in, to have 
comment, to express concerns. This is a very difficult issue to 
provide the kind of clarity and certainty that everybody would 
like to have. We are working on it. I had a meeting just 
yesterday with my staff on this, so we are very--we understand 
our role. We understand the narrow focus. We understand where 
the attention needs to be placed, and we understand the process 
has to be transparent, and has to give people an opportunity to 
weigh in and comment on whatever we ultimately decide.
    Mr. Neugebauer. Thank you, Mr. Secretary. The other thing 
is that recently Fish and Wildlife, last week, listed the 
Prairie Chicken as threatened. I am on the record saying that I 
don't believe that was necessary. But one of the things I do 
understand is that supposedly Fish and Wildlife did consult 
with USDA about this issue. And what I was wondering is did 
they ask, or did you furnish them any information that would 
lead them to have information of the economic impact of listing 
this species, and the hardship or burden that it might place on 
producers?
    Secretary Vilsack. Congressman, our primary conversations 
with Fish and Wildlife Service on this particular issue was how 
we might be able to provide the same kind of regulatory 
certainty for Lesser Prairie Chicken that we have provided for 
Sage Grouse. So we have been able to enter into an arrangement 
with Fish and Wildlife for the benefit of landowners and 
producers in which we lay out specific conservation practices 
that, if farmers, pursuant to Natural Resources Conservation 
Service (NRCS), working with NRCS, adopt these conservation 
practices, then they don't have to worry about incidental 
takings, relative to conservation practices, or relative to 
their operation for a period of 30 years. So our focus has been 
primarily on trying to figure out ways in which we can mitigate 
the impact on farming operations.
    I will have to check with my staff as to whether or not 
economic information was provided, but I know that I did direct 
the staff to look at ways in which we could create more 
regulatory certainty for folks who may be impacted by this 
decision.
    [The information referred to is located on p. 63.]
    Mr. Neugebauer. Thank you, and I would appreciate it if you 
would follow up about the economic, which kind of leads me to 
the next question on COOL labeling. One of the things that was 
a part of the farm bill was that, within 180 days of enactment, 
that the agency would furnish a study of the economic impact on 
COOL labeling. And I can tell you firsthand it has had an 
economic impact on my district, and it hasn't been in a 
positive way. For example, they closed a packing plant, Cargil 
did, in Plainview, Texas, lost 2,000 jobs. And when you talk to 
local leaders, and leadership at Cargil, they will tell you 
that the COOL regulations had a substantial part to do with 
that. And so I am very anxious to hear your progress, and kind 
of see how you think that is playing out, and when can we 
expect that report?
    Secretary Vilsack. Well, the report will be furnished in a 
timely way. We obviously will--are in a situation where 
Congress has directed us, pursuant to statute, to establish a 
labeling responsibility. The World Trade Organization (WTO) has 
given us direction and guidance as to what those labels 
require. We are obviously in a current litigation situation, if 
you want to call it that, with Canada and Mexico. We anticipate 
and expect some indication of what the WTO panel is considering 
sometime in the June or July time period of this year.
    Mr. Neugebauer. One last question. You know, with the new 
farm bill, and a fairly different farm bill, a new safety net, 
a lot of different moving parts, lot of choices, which is a 
good thing. One of the things that concerned me a little bit 
is, in the President's budget, we are seeing that--proposing 
closing more FSA offices. And I am wondering about, in the time 
where we need to be educating our producers, new programs, new 
procedures, does that make sense?
    Secretary Vilsack. Well, first of all. Congressman, we are 
not anticipating--expecting the closure of any offices in 2014, 
so the current state--and system will stay in place. However, 
FSA's budget, in terms of salaries and expenses, has resulted 
in a 20 percent reduction in workforce over the last several 
years. Technology is going to change the way in which work is 
being done at FSA offices.
    We know that we have roughly 130 to 140 offices that either 
have no full time employee working at them, or have a single 
full time employee working at them. We believe that there is an 
opportunity for us to take this year and look at where the work 
is actually being done, and essentially reorganize and 
restructure the FSA system so that the people are where the 
work is, and create, basically, a three-tiered system, with 
central offices with supervisory personnel and more than three 
employees, branch offices with three employees, but no 
supervisory personnel, satellite offices where people will be 
able to obtain, by appointment, an opportunity to meet face to 
face.
    With the technology changes, we are hopeful that within the 
next year to 2, many of our producers won't even actually have 
to access an FSA office, but if they do, they will be able to 
access all of their records in all of the counties where they 
may have land in a single office. So that is going to change 
significantly the way in which FSA offices operate.
    Our view is that there is a new opportunity for FSA offices 
to be a one stop shop for information about not just their own 
programs, but all the other programs that may potentially 
impact and affect a farming operation, and provide additional 
income opportunities. We want them to be a greater guide and 
greater counselor to producers. So we are taking a look at how 
we might be able to modernize the system, but for 2014, we 
don't anticipate any significant change.
    The Chairman. The gentleman's time has expired. The chair 
now recognizes the gentleman from North Carolina for 5 minutes, 
Mr. McIntyre.
    Mr. McIntyre. Thank you, and thank you, Mr. Secretary, for 
your strong work on behalf of agriculture, and your very good 
work for rural economic development. Following up on the last 
question, we too are hearing from farmers about the FSA field 
offices being understaffed with the new regulations in place, 
and you were just talking about a three-tiered system, and the 
concern of about a 20 percent reduction in workforce. What kind 
of timetable for this year, with the change in the--obviously 
with the farm bill are you looking at in being able to have 
adequate staffing to be able to meet these needs as farmers 
come in with questions?
    Secretary Vilsack. Well, the farm bill provided $100 
million of additional resources, and we are using those 
resources now to begin the process of ramping up temporary help 
at many of these offices. I emphasize temporary because we 
clearly don't have the permanent budget capacity to support 
additional permanent help. I would point out that, when and if 
there is consolidation of offices in 2015, it is not about 
saving money. It is really about redirecting those resources to 
strengthen the remaining offices that will be in existence.
    We have over 2,100 offices today, and so there shouldn't be 
any change this year. We are ramping up temporary help to 
provide assistance and help as we implement the farm bill. So I 
don't think there needs to be as much concern as there might 
be, if one understands precisely what we are doing, relative to 
the FSA offices. No impact on 2014, temporary help in 2014.
    Mr. McIntyre. Thank you. And you mentioned about the next 
year or 2, you were just saying a moment ago in your answer to 
my colleague about technology improvements, with regard to 
updated software so that those FSA temporary employees and 
permanent employees can do their job, how soon do you expect 
that updated software so that they will be able to implement 
what needs to be done to help the farmers with the new farm 
bill?
    Secretary Vilsack. Well, we are in a position, we believe, 
to be able to provide producers information that would allow 
them to take a look at their operations sometime late summer, 
early fall, make adjustments to their production history, and 
then provide additional information over the fall, so that when 
they have to make the election in the latter part of this year, 
whether it is Agricultural Risk Coverage (ARC) or Price Loss 
Coverage (PLC), whether they opt for supplemental coverage 
under their crop insurance opportunities or not, that they will 
have adequate and sufficient information to be able to make 
that informed decision.
    So we are going to have everything in place during the 
summer and fall so folks can access information, so that 
conferences can be held, so that land-grant universities and 
extension, the minority serving institutions will be able to 
provide information to folks who have questions. And so that is 
our plan.
    Mr. McIntyre. Thank you. And, in addition to talking about 
by this fall in earlier testimony today to the Chairman, you 
say that late fall, early winter you mentioned, is that the 
ultimate goal for full implementation of all aspects of the 
farm bill?
    Secretary Vilsack. I wouldn't say that that is a fair 
statement, Representative. I think that there are issues that 
will bleed into 2015. What we have attempted to do is to try to 
establish the highest priority areas, the things that people 
have the greatest concerns about, and the need to get it done 
this year, and that is what we are focused on. We think if we 
get the dairy program up and going, as we are required to do, 
if we have the Stacked Income Protection Plan (STAX), and the 
supplemental crop insurance option available, if we have the 
ARC and PLC programs in place, and the disaster assistance and 
the conservation process in place, that we will have gone a 
long way.
    But there are still issues relative to crop insurance 
changes that may take a little bit longer than that, the 
conservation compliance issue, for example. That may bleed into 
2015, and the reason that is not as high a priority is because, 
in a sense, we already have that responsibility now. If you are 
participating in a disaster program, or any other safety net 
program, you have conservation----
    Mr. McIntyre. Yes.
    Secretary Vilsack.--responsibilities. So it will take a 
while. I would be happy to show you the 450 additional steps 
that have to be taken. It is not--it is a complicated thing.
    Mr. McIntyre. Thank you. And in my remaining few seconds, I 
want to thank you for your help with this final year of the 
tobacco buyout to honor the contracts entered into a decade 
ago. What is the timeline for the transfers and successors of 
producers and quota holders to receive their final payment? 
When can those payments, pending from last year, and those due 
to a deceased holder, expect to be made?
    Secretary Vilsack. Well, we have--we paid out over 90 
percent of the resources to producers in February. We would 
expect and anticipate the remaining payments to be made 
sometime late spring.
    Mr. McIntyre. Thank you again for your help with that. I 
know how important that has been, and we appreciate your 
helping us to resolve that over the last 10 years, it being a 
project that has now come to fruition. With that, I yield back 
my time, and thank you, Mr. Chairman.
    The Chairman. The gentleman yields back. The chair 
recognizes the gentleman from Iowa, Mr. King, for 5 minutes.
    Mr. King. Thank you, Mr. Chairman. I appreciate this 
hearing, and, Mr. Secretary, I appreciate your service in 
coming here to testify this morning. Let us start with one that 
is going to be good news, and that is, do you have some 
information on the appreciation of the value of ag lands, say, 
in the Corn Belt over the period of time that you have been 
Secretary, and perhaps before?
    Secretary Vilsack. Well, Congressman, the best way for me 
to put it would be to point out that our debt to asset and debt 
to equity ratios are the lowest they have been since 1954. So, 
obviously, there has been an appreciation of land. There has 
also been land acquisition, but not as it was in the 1970s and 
1980s, based on debt, but based on the capacity of people to 
pay cash for land. So that is--I think we are in a very solid 
position at this point.
    Mr. King. It is much different than it was going into the 
1980s: very much higher leverage. Now, I wanted to make that 
point, because I think we have made a lot of progress in that 
situation. And then in the farm bill that has most recently 
become law, there were three provisions I would have liked to 
have seen that would have treated the livestock producers a lot 
better, and that is GIPSA language of Mr. Conaway's, which I 
won't go very far into, expecting he may. The other is the COOL 
language, which you have spoken to, and mentioned that we are 
in a current litigation situation regarding WTO agreements. Had 
that COOL language--just for the record, had that COOL language 
that was in our version of the bill, had that been--gone into 
law, if we had made it either voluntary or repealed it, can you 
tell the Committee where the litigation might be now?
    Secretary Vilsack. Obviously, if it had been repealed, it 
may very well have rendered the current issue moot. I am not 
sure that--necessarily that a change in the law directing us to 
label it any particular way would have necessarily resolved the 
concerns of the Canadians and Mexicans. I just don't know.
    Mr. King. But perhaps moot?
    Secretary Vilsack. Moot if you repeal it, because then it 
is--then there is not an issue here, other than they might 
contend that they have been damaged in some way, and, frankly, 
we are a bit skeptical of those damage claims.
    Mr. King. And I think that is--it is my position to repeal 
it, and it is the position of this Committee, and it was one of 
my disappointments out of the farm bill. Then I would like to 
go over to the RFS, and ask you, have you been asked to consult 
on the EPA's reconsideration of the Renewable Fuel Standard?
    Secretary Vilsack. Well, we have a responsibility to always 
indicate to EPA our views on the Renewable Fuel Standard, and 
we have done that. What I have attempted to do is to focus on 
the areas that I have specific control over, and that is the 
ability to potentially look for additional market opportunities 
overseas. We think there is an export opportunity that needs to 
be explored. And, with the blessing of corn growers, and others 
in the industry, we are going to expand our trade mission to 
China to include representatives from the biofuel industry. We 
also are continuing to look at ways in which we can use the 
resources that we have, notwithstanding the restrictions that 
are in the farm bill, on the Renewable Energy for America 
Program (REAP) to see if there are ways in which we might be 
able to encourage more distribution of higher blends.
    Mr. King. I appreciate those extra opportunities out there. 
But as far as advice to EPA, as you consult with them on the 
basis of the law on the Renewable Fuel Standard, as you look at 
that language, what is your recommendation to them as they 
reconsider?
    Secretary Vilsack. Well, I would say a couple things, 
Congressman. I mean, first of all, I am a strong believer in 
the Renewable Fuel Standard. And I know it is controversial 
even in this Committee, but I believe it is important to have 
for jobs, for stabilizing farm income, for reducing our 
reliance on foreign oil, and for providing consumers choice, 
and less expensive gas.
    Mr. King. With regard to the language in the----
    Secretary Vilsack. Right.
    Mr. King.--Act itself----
    Secretary Vilsack. I think we need it. I think that the EPA 
has a very interesting situation, where the basis of that 
standard was established on the belief that we would, as a 
country, continue to use more and more gasoline. With more fuel 
efficient vehicles, and with a difficult economy at times, that 
has not been the case. But since the EPA rendered its initial 
projections, gasoline use has increased, and we wanted to make 
sure that EPA was aware of that, because we think that could 
have an impact on what they ultimately decide.
    Mr. King. Well, let me just borrow a little bit of our 
time, and make my recommendation to the EPA, then, and that is 
that they review the data with current numbers, rather than 
2011 numbers, and go back and carefully read the law and the 
directive that Congress delivered on that. And I would like to, 
then, just stop quickly at one more piece here, and that is the 
amendment that I had, called the Protect Interstate Commerce 
Amendment. And you predicted that if it stayed in the bill, 
that there would be a lot of litigation because the bill is--
the amendment is not well drafted.
    I don't find other lawyers that read that that way, but I 
would ask if you could briefly comment on what you think the 
impact will be on the egg supply, especially in California, if 
the people who do litigate, and have started now, originating 
in Missouri, are not successful?
    The Chairman. The gentleman's time has expired, but the 
witness may answer the question.
    Secretary Vilsack. Well, Congressman, you and I obviously 
have a disagreement about the clarity of the provision. I think 
it would have led to a lot of confusion. I think, frankly, we 
are going to have to see what courts ultimately decide on this 
issue to provide clarity. You know, it may have an impact. It 
could be a positive impact in some producing areas. It may have 
a negative impact in other producing areas. I think the market, 
ultimately, is going to decide, and the market is going to 
decide how many eggs we consume.
    Let me just, if I could, Mr. Chairman, 30 seconds on the 
RFS, this needs to be perhaps noted in this Committee's 
history. Congressman, you and I agree, so mark that down. I 
think they should look at the current gas usage, and they 
obviously need to read the law very, very carefully.
    The Chairman. And I would note to both of you I am very 
sensitive about the Renewable Fuel Standard. The gentleman's 
time has expired.
    Mr. King. I do acknowledge the Secretary's statement, Mr. 
Chairman. I yield back.
    The Chairman. The gentleman from Georgia, Mr. David Scott, 
is recognized for 5 minutes.
    Mr. David Scott of Georgia. Thank you very much, Mr. 
Chairman, and welcome, Mr. Secretary. Mr. Secretary, given 
Congress's clear intent to limit the Federal jurisdiction of 
navigable waters, and also given the Supreme Court's 
interpretation the same way, to limit navigational waters, how 
do you justify the EPA's proposed rule to extend, not limit, 
but to extend Federal jurisdiction so much beyond navigable 
waters that flies directly in the face of what Congress 
intended, and directly in the face of what the Supreme Court 
interpreted?
    Secretary Vilsack. Congressman, this is a law that Congress 
wrote. It is a law that the Supreme Court has interpreted, and 
it is a law that the EPA has responsibility for implementation. 
My role, I believe, is to make sure that EPA is fully aware of 
the potential impact that it could have on farming and ranching 
and land ownership, as it relates to rural lands, and we have 
done that. My role is to make sure that there is greater 
clarity in terms of what this rule does and does not do. And I 
think, by virtue of our input, we have clarified and reaffirmed 
that normal traditional agricultural activity is not impacted. 
We have reaffirmed that agricultural storm water discharge is 
not impacted. We have reaffirmed the maintenance of drainage 
ditches are exempt.
    We have also cleared up that groundwater, tile drains, the 
regulation of ditches are not going to be expanded. In fact, we 
have now clarity in terms of precisely what is involved here. 
It doesn't involve waste water treatment systems. It doesn't 
involve artificial lakes or ponds for rice. And we went one 
step further in pointing out to the EPA that when people do 
conservation practices, it is really about improving water 
quality, which is why they have identified 56 specific areas 
that will not require permitting. I think our responsibility is 
to do what we did, which is to provide clarity and certainty.
    Mr. David Scott of Georgia. Well, Mr. Secretary, I do hope 
that you will be able to do more, because we need a strong 
advocate. Our farmers are struggling with this issue. They 
cannot run their farms in an efficient way, not knowing from 
one day or next what interpretation is of navigable waters. 
Sometimes it could be even, like, a puddle. I mean, when you 
have that kind of discrepancy--our farmers are faced with so 
many obstacles that I just urge you to do that.
    But let me ask you, is it true that farmers only qualify 
for a Clean Water Act Section 404 exemption if the farmer 
follows the NRCS standards?
    Secretary Vilsack. We have worked with the EPA to ensure 
that when folks follow the rules that are established by NRCS--
--
    Mr. David Scott of Georgia. Yes.
    Secretary Vilsack.--in concert with the land owner, as they 
put together the conservation plan, and as they decide what 
needs to be done, that, if they follow through, and it is in 
one of those 56 activities, that they don't have to worry about 
getting a permit, or notifying anyone.
    Mr. David Scott of Georgia. Okay.
    Secretary Vilsack. There is an ongoing conversation that 
will take place as a result of an Memorandum of Understanding 
(MOU), so that, as further information is forthcoming, or 
issues arise that would fall into this bucket, that number may 
be 58, may be 63, may be 75 a year from now.
    Mr. David Scott of Georgia. Okay. Thank you very much, 
Secretary, and I just urge you to help our farmers as much as 
you can on that. I get a lot of complaints from our farmers in 
Georgia about the navigable waters issue.
    But there are two other points, and my time is running out, 
that I think that are facing--really the greatest challenges 
facing agriculture and farming now. One of them is the age of 
our farmers is getting higher, and higher, and higher. The 
average age of our farmers now is almost 60. I think that this 
is a great threat to the future of agriculture, and we need to 
do more to get our younger people engaged in farming. Next 
month I am going to give the commencement address at the 
University of Georgia's School of Agriculture, and I want to 
say something to these students, and give them some hope on 
that. And I would like for you to tell me what the USDA is 
doing to help to bring down the barriers.
    I mean, it is one thing to say to a young person going to 
business selling shoes, you just open up a store, get on the 
corner, and do that. But when you are talking about going into 
farming, in this day's climate, there is land acquisition, 
there are a lot of things there. One of the things that I want 
to propose is that we look at how we can give students loan 
forgiveness, scholarships. Perhaps we can use a combination of 
1860s and 1890s to work collaboratively together, change the 
language and the law so that we can give students scholarships, 
and so that we can maybe give loan forgiveness.
    Whereas, if we don't do something to get some incentives 
for our young people to get into farming, and bring that age 
down, we are--the future of this nation, and quite honestly the 
world, is at stake. As the world grows, farmers are getting 
older, we have to face this dilemma. Could you----
    The Chairman. The gentleman's time has expired, but the 
witness may answer the question.
    Secretary Vilsack. Thank you, Mr. Chairman. Congressman, 
there are a number of steps that we are taking, and will be 
taking. Increased resources in the Beginning Farmers and 
Ranchers Development Program, the establishment of the 
microloan program, which this Congress has now increased the 
limit, new opportunities in terms of less expensive crop 
insurance for beginning farmers, which they didn't have before, 
the ability to get advance payments on conservation for 
beginning farmers, a more flexible definition of beginning 
farmer, lower credit costs for beginning farmers, and 
additional premium assistance in terms of crop insurance for 
beginning farmers.
    And we are also working with a program called AGree to take 
a look at ways in which we could potentially create a Food 
Corps, which would be similar to the Peace Corps, Vista, or 
AmeriCorps, which is akin to your idea. It wasn't so much a 
scholarship as it would be the capacity to pay for someone to 
be mentored on a farm. That, with the CRP transition program, 
there may be ways in which we can get young people involved. 
The fact that we have expanded local and regional food system 
market opportunities allows smaller operators and producers 
access to farming, which is why we have seen a slight increase 
in people farming under the age of 35. So the trend line, you 
are correct, we have a challenge, but we are beginning to see a 
little brighter future in that respect.
    Mr. David Scott of Georgia. Thank you. Thank you for the 
time, Mr. Chairman, I appreciate that.
    The Chairman. The gentleman's time has expired. I recognize 
myself for 5 minutes. Mr. Secretary, I thank you for being 
here. I want to thank in advance all those hard working FSA, 
NRCS folks across this country going to be implementing the 
farm bill, once the base decisions are made here in D.C. They 
have a great team in place, so they have--they are challenged, 
and they have a lot of hard work ahead of them to communicate 
these changes to the folks. So please express our appreciation 
for what they are currently doing, they are about to do, in 
that regard.
    I want to talk about cotton a little bit, China has, by 
some reports, a 57 million bale strategic reserve, something on 
the order of four to five times U.S. production. We are not 
real sure what they are going to do with it and why, and it has 
a big overhang on the market that is having some impact. Can 
you talk to us about what you and the USDA have done to 
communicate, either directly to the Chinese or to the WTO, our 
concerns about what they might or might not be doing with 
respect to their cotton policy, and the high subsidies they are 
paying?
    Secretary Vilsack. Congressman, I appreciate you bringing 
this issue to--bringing it up. You know, our conversations with 
China in the last several years have been focused primarily on 
their regulatory system and process, and trying to get it 
better synchronized with ours, in terms of regulatory 
approvals. If I can ask for your permission, I would be happy 
to get you a more detailed conversation on what the 
communications have been relative to cotton in China.
    I can tell you that we have established a China-American 
business group in China, the purpose of which is to allow us to 
not only inform the Chinese through official circles, but also 
to engage Chinese officials and Chinese business leaders in 
these conversations. But let me get you more information on 
cotton.
    [The information referred to is located on p. 63.]
    The Chairman. Well, I appreciate that. Please include in 
there--there is some indication that 2014 they are going to 
make some changes to whatever their policy is, or has been, so 
fold in their prospects of what they are going to do as a part 
of that conversation. And I appreciate you getting back to us 
on that.
    Let us talk a little bit about the SNAP program, and the 
able bodied adults of age--under the age of 50 with no 
dependents. Now that unemployment nationwide has come down to 
6.7 percent, can you talk to us a bit about what your plans are 
to continue granting waivers to states who have asked for those 
waivers for folks in that category to stay on food stamps 
beyond the normal 3 month category?
    Secretary Vilsack. Mr. Chairman, there is a real 
opportunity in this area, and, for that matter, the entire SNAP 
population, to do a better job of connecting work opportunities 
with folks on SNAP who are interested in working, and who are 
capable of working. That is why we are excited about the 
portion of the farm bill that creates the opportunity for us to 
have up to ten pilots with states to do a better job of 
connecting. The fact that we have these pilots is going to send 
a strong message about the important work that states must do a 
better job of using the education and training money that they 
have to actually do a better job of getting folks better 
connected.
    We think there is a disconnect between economic development 
and workforce development offices at the state level and human 
services offices. These folks know where the jobs are. These 
folks know who is looking for a job. For whatever reason, they 
are not doing a particularly good job of talking. We provide 
several hundred million dollars to encourage that kind of 
conversation. We need to do a better job of compelling that 
conversation.
    We will be happy to take a look at the waiver issue. I 
think there are circumstances, unfortunately, in some states 
where the unemployment rate overall may be low, but there may 
be particular areas within that state where the unemployment 
rate is unacceptably high, and so there may be the need for 
some kind of flexibility as it relates to those areas.
    [The information referred to is located on p. 64.]
    The Chairman. So you are saying that you can target those 
waivers to specific counties, versus the entire state?
    Secretary Vilsack. Well, I think that there are 
opportunities to do that, and opportunities, again, to work 
with states to compel them to do a better job. We are seeing a 
plateauing, and now a slight decline, of the number of people 
in need of SNAP, which reflects the unemployment circumstance, 
but there is still work to be done here. And I am very focused 
on making sure these pilots actually give us information that 
will allow us to develop better policies in the future.
    The Chairman. Well, I hope we can see the--if you will 
communicate that with us, once you begin to see some results 
out of those pilots, that you will share that with Congress as 
well as we deal with 80 percent of the spending in the farm 
bill that is related to nutrition programs. With that, I yield 
back. Now recognize Mr. Costa----
    Mr. Costa. Yes.
    The Chairman.--for 5 minutes.
    Mr. Costa. Thank you very much, Mr. Chairman. I want to 
thank the Secretary for his good work, and his staff. Speaking 
of which, I want to acknowledge that one of your staff members 
who is departing used to work for many of us here in the House 
Agriculture Committee, and that is Ann MacMillan, and we wish 
her the very best in her future endeavors, Mr. Secretary.
    Your opening statement talked about the good, and the bad, 
and the challenges American agriculture faces. On the plus 
side, you noted that record profits, due in large result to 
trade activity, has been occurring throughout American 
agriculture. Have you done any evaluations, the Department, on 
what the benefits would be if the TTIP, the trade negotiations 
between ourselves, and the Europeans, and the TPA, were to be 
successfully negotiated?
    Secretary Vilsack. Well, we are confident that it would 
substantially increase trade activities, Congressman. I can get 
you the specific dollar amounts.
    [The information referred to is located on p. 64.]
    Mr. Costa. I think that would be helpful.
    Secretary Vilsack. But there is no question--that is why we 
are engaged in these conversations, because we realize that 
there is terrific opportunity for----
    Mr. Costa. And your efforts with the most difficult non-
trade barriers, non-tariff barriers, which are the 
phytosanitary standards, obviously would be appreciated as 
well.
    Secretary Vilsack. Well, I can tell you that we have 
eliminated or knocked down roughly 1,500 of those barriers 
since I have been Secretary. The challenge with both of those 
negotiations, on the TTIP negotiation, it is all about Europe's 
willingness to understand the importance of biotechnology, and 
Europe's willingness to understand that some of these 
geographic indicators that they are so insistent on have become 
so generic that it really is unfair.
    Mr. Costa. Like Parmesan and Burgundy.
    Secretary Vilsack. Right. And it is a challenge, especially 
for the dairy industry, and it is one that we need to be 
talking more about, so that folks understand what is at stake. 
On Trans-Pacific Partnership (TPP), it is all about market 
access, and the ability of the Japanese and Canadians to be 
more realistic about what kind of market access they are 
willing to provide.
    Mr. Costa. Yes. I want to switch over here, because I don't 
have a lot of time. We also appreciate your visit to 
California. You mentioned the drought problems facing the West, 
and particularly California, and many of us represent the part 
of the San Joaquin Valley which is ground zero for the drought 
impacts that we are facing. You and the President's visit was 
appreciated, but I am concerned about the follow through.
    Mr. Chairman, I would like to read for the record, and 
submit it, a letter that Bishop Ochoa provided for many of us, 
and I will read excerpts of it. ``Dear President Obama, the 
lack of water is impacting everyone, farmers, ranchers, 
dairymen, their employees, faith communities, and the 
businesses that serve them. The situation is quickly 
deteriorating into a humanitarian crisis. Businesses are 
shutting their doors, and others are laying off employees. 
Access for children, families, to clean, drinkable water is 
uncertain. Lines at food banks and human service agencies have 
doubled due to this issue, and, in fact, our Catholic Charities 
services went from 87,000 units in 2012 to 137,000 units in 
2013, and we believe this year the number will double. We are 
reminded, at this time of drought, our dependence on the 
Creator, but our human dignity relies on access to water.'' I 
will submit the rest of that, with unanimous consent.
    The Chairman. Unanimous consent.
    [The information referred to is located on p. 61.]
    Mr. Costa. What can a rancher do in my district, Mr. 
Secretary? I know you only have a partial responsibility to 
save his 1,000 head herd, as he doesn't have feed available 
now. The livestock disaster programs are set to begin 
enrollments on April 15, but what about today? Where are we? 
There was a commitment to provide additional financial support. 
I am terribly worried about this.
    Secretary Vilsack. Well, that producer has access to 
additional EQIP money that can be used for improvements to 
grazing, or crop land, or water utilization. That producer can 
also, if he is an organic producer, as a variance to the 
organic grazing requirements, that producer could take 
advantage of the conservation innovation grants that we are 
making available to create new and creative ways to deal and 
cope with less water.
    Mr. Costa. Okay, why don't we follow up on that? I 
appreciate that, Mr. Secretary. How about the food banks that 
are going to face increased----
    Secretary Vilsack. I am sorry----
    Mr. Costa.--demands?
    Secretary Vilsack.--how about what?
    Mr. Costa. Food banks.
    Secretary Vilsack. Well, the food banks received an 
additional $60 million of assistance, the President announced, 
and that resource has been available, and it will continue to 
be available.
    Mr. Costa. I have a list of other questions, but time 
doesn't allow me. I will submit them for the record, Mr. 
Secretary, you can get back to me. Quickly, on two other areas, 
why would the Administration be proposing dramatic cuts in 
self-help housing, the 502 direct mortgage programs that have 
been proven to work, at a small cost to the government?
    Secretary Vilsack. If you understand the budget of USDA, 50 
percent of our budget is in four areas. It is in fire 
suppression, it is in----
    Mr. Costa. Which we need.
    Secretary Vilsack. It is in rental assistance, and it is in 
food safety. When sequester is established, when additional 
cuts are put on top of sequester, as has been the case for 
USDA, that 50 percent has actually seen increases, it means the 
other 50 percent get impacted, and so something has to give. 
And our challenge is, obviously, to make sure that we continue 
to provide a link to direct housing loans, to guaranteed loans, 
which we are attempting to do in record amounts.
    About 800,000 folks have had home ownership since I have 
been Secretary because of the work of USDA, but you have a 
situation here where part of the budget continually gets 
increased, and the other part has to bear its burden, and the 
other 50 percent's burden of cuts.
    Mr. Costa. Thank you, Mr. Secretary. Thank you, Mr. 
Chairman, and I will submit the rest of my questions to be 
responded to in a timely manner.
    The Chairman. The gentleman's time has expired. Mr. 
Secretary, would you remind the Committee, I believe you have 
an obligation later this morning that you have to leave, what 
your departure time will be, for our time purposes up here?
    Secretary Vilsack. It is 12:15, Mr. Chairman.
    The Chairman. It is 12:15. Thank you, Mr. Secretary, and I 
know my colleagues will work in an expedited fashion to give 
everyone an opportunity. With that, I recognize the gentleman 
from Ohio, Mr. Gibbs, for 5 minutes.
    Mr. Gibbs. Thank you, Mr. Chairman. Thank you, Secretary, 
for coming in today. As you are aware, last week the U.S. Army 
Corps of Engineers and U.S. EPA put out a rule supposedly to 
clarify the ``waters of the United States.'' And yesterday, in 
my committee, the Water Resources Subcommittee of T&I, we had 
Secretary Darcy. During the hearing I told her that, for a rule 
that is supposed to have been out for more clarification, it 
was more muddier.
    And if you look back at the 2006 Supreme Court decision, 
the Rapanos decision, eponymous doctrine, that there are limits 
to the Federal role under the Clean Water Act, and they need to 
pull back, and she could not give any examples of where there 
would be some pullback. And I almost have to come to the 
conclusion that they currently view that they have all the 
authority they need now, and so that--I just want to make that 
message clear to you.
    But I know in your shop, dealing with the NRCS, first 
question, currently, would you agree that, under normal farming 
practices, that agriculture is exempt from 404 permits under 
the Clean Water Act?
    Secretary Vilsack. Yes.
    Mr. Gibbs. Okay. So when they are talking about dredge and 
fill, and all practices, and they are exempt, so this would--in 
regard to Mr. Scott's questions, this would be--this rule would 
be an expansion of the Federal Government's role in the Clean 
Water Act, because it is currently, as you just agreed, that 
normal farming practices--agriculture is exempt. It doesn't 
matter if they are working with NRCS or not, correct?
    Secretary Vilsack. Well, I just want to make sure that I am 
clear about this, Congressman. Normal farming activities, 
plowing, seeding, cultivating, drainage, harvesting for 
production, upland soil and water conservation practices, 
agricultural storm and water discharges, return flows from 
irrigated agriculture, the construction and maintenance of farm 
and stock ponds, maintenance of draining ditches, all of that 
is currently exempt.
    Mr. Gibbs. That is correct. But with your--USDA's MOU that 
you are developing with the U.S. EPA, the way I read it is that 
they have to be under NRCS standards.
    Secretary Vilsack. No, what----
    Mr. Gibbs. Under the rule.
    Secretary Vilsack. No. It is important for everyone to 
understand, the--normal agricultural activities are exempt, 
have been exempt, and continue to be exempt. In addition, they 
provide a clarity that groundwater, tile drains, regulations of 
ditches, artificial lakes and ponds, this proposed rule is not 
designed to touch those. But in an effort to be quite clear 
about this, because the uncertainty was, well, what if I am 
engaged in certain conservation practices, we began the process 
of identifying specific conservation practices so there would 
be no misunderstanding and no confusion.
    If you are doing one of these 56 conservation practices, 
working with the NRCS, you don't have to worry about notifying 
anybody, you don't have to worry about getting a permit. The 
purpose of this is really to provide clarity and certainty for 
producers. It is not to provide----
    Mr. Gibbs. So your belief is that the rule--nothing can 
come under section 404 permits for agriculture--for pollution 
permits for weed control activities, fertilizer application and 
all that would be currently exempt?
    Secretary Vilsack. That----
    Mr. Gibbs. There would be no----
    Secretary Vilsack. If it is within normal farming 
activities, as I understand it, that is exempt.
    Mr. Gibbs. Okay. Because, I mean, I have a lot of concerns, 
and I know the agricultural organizations out there, I spoke to 
them all, are really concerned about the definition, how they 
are doing this. Now, Secretary Darcy said yesterday that 
significant nexus, and case by case scenarios, and so the door 
is open for them to move forward, so we have to be really 
careful on the USDA's role, and your role, to make sure that 
normal farming practices, if not even--if they are not even 
partnering with NRCS, will still be exempt from all permits, 
other than CWA.
    Secretary Vilsack. Right. And that is why we established 
this MOU, to have an ongoing continuing conversation between 
the three of us, the Corps of Engineers, USDA, and EPA, so as 
issues come up in the field, they can be addressed and dealt 
with. That list of conservation practices may be expanded, and 
we may be able to provide greater certainty for the EPA as 
well.
    Mr. Gibbs. So if the producers out there that are working 
with NRCS, and doing conservation practices, would it be NRCS 
that would do the inspection to make sure the practices are 
being followed, or the EPA?
    Secretary Vilsack. Yes.
    Mr. Gibbs. NRCS----
    Secretary Vilsack. Yes.
    Mr. Gibbs.--correct? Because that is a sticking point of 
concern, is that----
    Secretary Vilsack. NRCS.
    Mr. Gibbs. Because we want to make sure that we have good 
programs out in the countryside, especially Soil and Water 
Conservation Service, to work in agriculture, doing the right 
thing, and that is a good partnership. We want to make sure 
that partnership goes on. So, my time has expired, I yield 
back. Thank you.
    The Chairman. The gentleman yields back the balance of his 
time. The chair now recognizes the gentleman from Minnesota, 
Mr. Walz, for 5 minutes.
    Mr. Walz. Thank you, Mr. Chairman, and, Mr. Secretary, I 
want to thank you and your staff for the work you have done. I 
also want to especially thank you for that visionary and strong 
shouldered support of American clean energy and the RFS. I 
associate myself with my colleague from the Deep South, Mr. 
King, on his support of the RFS, created great jobs out in 
Middle America. It has made us less dependent on foreign oil. 
It is visionary, we are moving forward, and after basically a 
decade, we have become so much more efficient, so don't change 
the goalposts now. Give our entrepreneurs the chance to 
succeed.
    I am also very proud of what we did in the energy title of 
this piece of legislation. As the Ranking Member on that 
Subcommittee, we have $881 million in mandatory funding, key 
programs like REAP, Bio-Finance Assistance Program, BCAP, and 
Bio-Preferred. My question to you, Mr. Secretary, is how are 
you going to quickly translate those funds into real projects 
that create jobs and energy on the ground out there?
    Secretary Vilsack. We would anticipate the ability to 
expand section 9003 funding to chemical processing and 
manufacturing this year. We think that there--it may require a 
slight tweaking of our rules and regulations in order to expand 
it to polymers, and some of the other fabrics and fibers that 
you all were considering. But we expect and anticipate to be 
able to hit the ground running on this immediately.
    Mr. Walz. Great. Well, we are appreciative of it, and it is 
some exciting stuff happening out there. I also wanted to 
associate myself with Mr. Scott's comments that were very 
pointed, and I appreciate your response on that, this issue of 
beginning farmers and ranchers. Mr. Fortenberry, myself, the 
Chairman, and the Ranking Member put together a good package on 
that, but Mr. Scott's hitting on a real key issue of those 
barriers, of giving them the opportunity. It is not opportunity 
of outcomes. It is opportunity to get in the business, and then 
let them go. So, again, I stress, anything we can do to move 
those programs forward, and get our young folks on the land is 
critical.
    And one other association Mr. Costa brought up, and, again, 
my friend from Iowa, and my colleague to the West, Mrs. Noem, 
and I, this issue of water is not isolated to California. And I 
have one of our largest meat packing plants, in JBS Swift, in 
Worthington can't expand because we don't have water, and it is 
not because we don't have a plan. We have a project.
    The states and the local communities have not only paid for 
it, they have paid ahead. Federal Government has been promising 
them, for the better part of the last decade and a half, that 
we would get our obligation done. We have not done it, so you 
have a half built water project on Lewis and Clark rural water 
that is holding back economic growth. I have citizens in 2014 
in the United States catching rainwater in cisterns for 
drinking water, and the only reason it is not done, we are not 
more competitive, we are not creating more jobs, is because we 
are not fulfilling our promise. So I know this isn't directly 
your wheelhouse, but it is your folks, your producers, my 
friends and neighbors across the Midwest.
    This is a smart project that, the longer we wait, just 
costs more. So anything you can do, Mr. Secretary, to add your 
voice. This is wrong, and, in all fairness, it has crossed 
several Administrations, who have been equally bad on it, and 
it is just not the right thing. So this water issue is 
critical. If you could add your voice, I would be grateful. And 
with that, I yield back, Mr. Chairman.
    The Chairman. The gentleman yields back. The chair now 
recognizes the gentleman from Colorado, Mr. Tipton, for 5 
minutes.
    Mr. Tipton. Thank you, Mr. Chairman, and I appreciate my 
colleague, Mr. Walz, bringing up water, absolutely critical for 
the western United States. An issue, Mr. Secretary, that we 
have had an opportunity to be able to visit on before. Noting 
some of your comments when we are talking about some of the new 
EPA regulations coming forward being able to create certainty 
for our farm and ranch community, we have no certainty in the 
West for our farm and ranch community when it comes to being 
able to protect a private property right, be it for our ski 
areas, or for our farm and ranch communities as well.
    As you are well aware, through your department, they put 
forward rules that were struck down by the court because the 
Department did not follow its own rules, but are still now 
continuing to pursue a rule. I would just be curious, how much 
of your resources are you going to be putting in to develop 
taking a 5th Amendment right in the West, when it comes to the 
private property rights of water?
    Secretary Vilsack. Representative Tipton, you certainly are 
correct, in terms of the litigation, and we understood the 
court ruling, and we basically pulled that rule, and we started 
a different process, a more collaborative process. And the 
directive that we are working on now is not designed to take 
private property rights at all. It is simply designed to make 
sure that we continue to have adequate resources for the ski 
areas that are important, and are located in and around our 
National Forests.
    Mr. Tipton. I appreciate that comment, and--for the ski 
areas. This is a broader issue also for our farm and ranch 
community. We do have BLM grazing permits, water rights that 
have been developed there as well. That being said, we keep 
hearing about this vague rule that you are mentioning about to 
be able to create some certainty. However, the Loon Mountain 
ski area in New Hampshire, are you familiar with that?
    Secretary Vilsack. I am not familiar with the specific----
    Mr. Tipton. Okay.
    Secretary Vilsack.--ski area, but----
    Mr. Tipton. Through your Department, as a conditional use 
permit, they are requiring them to a forced transfer of their 
water rights. This is after all of our discussion. So what kind 
of certainty are we really getting in the West, when we are 
told that a rule is being developed, and now we have the Loon 
Mountain Ski Resort in New Hampshire, and it is going to 
require them to sign over their water rights?
    Secretary Vilsack. Well, again, I think that there has been 
a collaborative process. There have been hearings and public 
input on this directive, and I am fairly confident, based on 
the court ruling, and based on what our Forest Service folks 
understand, that this is not going to be about private water 
rights. It is going to be about just maintaining and making 
sure that we can continue to have the snow and the water that 
we need to make sure those businesses do well, and that the 
forests are properly maintained.
    We have 166 million visitors that come to our National 
Forests every year. We obviously want to make sure that they 
have adequate----
    Mr. Tipton. Absolutely, and I know you are well aware. 
Chief Tidwell gave us testimony and comments that not once has 
water been sold off by a ski area, not once. So there is no 
need for a rule, but, again, I will remind you, you need to 
take a look at this Loon Mountain. This is contradicting what 
you are saying you are trying to do right now.
    Let us move on to some of the Forest Service issues. Is it 
more expensive to fight a fire than to go in and treat an area?
    Secretary Vilsack. Most of the time I would say that is 
probably accurate, yes.
    Mr. Tipton. Okay. As you are aware, the Forest Service 
right now, we have made an amendment to the farm bill, which 
was accepted under Section 8305, for the leasing of air 
tankers. Can you give us an update, now that the farm bill has 
been law for, what, 8 weeks, what kind of progress you have 
made for the leasing of those air tankers?
    Secretary Vilsack. We have had some additional planes that 
have been accepted into our forests. We are working through an 
appeal process on one tanker issue, which we have to continue 
to work through. We obviously attempted to do this in a quick 
and speedy way. Concerns were raised about it. We are now in 
the process of deciding what the next steps are. We have, and 
will have, additional aircraft on site this year. We will have 
additional aircraft on site next year because of the transfer 
of Department of Defense and Coast Guard aircraft to the Forest 
Service.
    Mr. Tipton. Right. I appreciate that, and I would like to 
be able to touch on these climate hubs. How much are you going 
to spend on the climate hub in Colorado?
    Secretary Vilsack. Well, that is already in the budget. It 
is not a question of additional----
    Mr. Tipton. I know. How much is that?
    Secretary Vilsack. Well, I don't know how much it----
    Mr. Tipton. Okay. Just out of curiosity, we have something 
called NOAA. Is this a duplicative process?
    Secretary Vilsack. No, not at all. This is really designed 
to identify--to work with producers and land owners in each 
region of the country to identify specifically what they are 
seeing on the ground to determine what challenges they are 
confronting, relative to production, and develop technologies 
and strategies, and disseminate best practice information to 
them so that they can adapt and mitigate to whatever climate 
challenges they are facing, whether it is drought----
    Mr. Tipton. None of that is done by NOAA?
    Secretary Vilsack. No. Well, NOAA is about forecasting, and 
that obviously is part of it, but NOAA is not in the business 
of telling farmers that, if you plant cover crops, you are 
going to be able to retain additional water. Or if you plant a 
certain type of cover crop, or if you harvest at a certain 
time, or if you take certain steps relative to livestock, or 
you use certain forage. They are not in that business. We are 
in that business.
    And so this is designed to basically make sure that we are 
analyzing and assessing the vulnerabilities of agriculture, as 
it relates to climate, and providing our producers with the 
very best and latest information on how best to mitigate it 
that is specific to their location, as opposed to some general 
concept.
    Mr. Tipton. This is something that we would like to be able 
to review with you a little bit more, because it is 
duplicative, and our farm and ranch community probably has a 
pretty good idea, in terms of cover crops, and being able to 
deal with it to begin with.
    The Chairman. The gentleman's time has expired.
    Mr. Tipton. I yield back. Thank you.
    The Chairman. The chair now recognizes the gentlelady from 
Ohio, Ms. Fudge, for 5 minutes.
    Ms. Fudge. Thank you very much, Mr. Chairman, and thank 
you, Mr. Secretary, for being here today. Mr. Secretary, the 
Healthy Food Financing Initiative in the farm bill seeks to 
provide a model solution for access to fresh food outlets. It 
builds upon successful initiatives at HHS and Treasury. I am 
excited to see this program developed at the national scale at 
USDA through the authorization of a national fund manager.
    In Ohio, we have a very successful community development 
corporation called Burten, Bell, Carr Development that is 
leveraging an HFFI grant, along with partner contributors, to 
serve families in one of our poorest neighborhoods. BBC has 
developed a number of food access related projects, including 
Bridgeport Mobile Market, which allows residents of our East 
Side to purchase fresh, wholesome, and nutritious fruits and 
vegetables from a refrigerated truck. Many of these residents 
lack reliable transportation to grocery stores.
    This project, like other HFFI projects, increases access to 
healthy, affordable foods for families who lack options. At the 
same time, it fosters economic development, and creates full 
time jobs. How is USDA planning to support the Healthy Food 
Financing Initiative, and how might it complement other 
programs aimed at providing low income families increased 
access to healthy food?
    Secretary Vilsack. Congresswoman, we have asked, in the 
2015 budget, for resources to be appropriated into the Healthy 
Food Financing Initiative. As you know, it is authorized, but 
not--there is no appropriated resource, so we have asked for 
funding. It complements value-added producer grants, farmers' 
market promotion grants, that business and industry set aside 
for local and regional food systems in a way that provides us 
opportunities and tools, depending upon the community and the 
circumstance, whether it is a mobile unit would be more 
appropriate, as is the case with ones we financed in Chicago, 
or would it be better for us to actually work on a full scale 
grocery store, as we are in some rural areas? So it provides 
flexibility. It provides also the ability to partner with the 
Treasury Department, and their new market tax credit system, 
and HHS, and their grant program.
    Ms. Fudge. Thank you. Several of my colleagues have 
mentioned over the last few weeks loopholes in the SNAP program 
that will diminish the effects of the cuts planned by the farm 
bill. Can you please compare for us the savings in the farm 
bill due to SNAP changes versus the proposed reforms and 
changes to the commodity program?
    Secretary Vilsack. Well, these savings are all projections. 
It was projected to be $8 billion in terms of the SNAP reforms, 
and if memory serves me correct, it was somewhere in the 
neighborhood of $13, $14 billion relative to the commodity 
programs. But the reality is all of those are projections. It 
may very well be that we save a lot less in commodity depending 
upon commodity prices. It may be that we save a lot less in 
SNAP because if our pilots are working and people are getting 
jobs, and they are getting better paying jobs, they don't need 
SNAP. So it is a little bit uncertain at this point. That is 
why they are called projections.
    Bottom line, from my perspective, the most important thing 
we can do in SNAP is to make sure that these pilots that you 
all have authorized work, and to make sure that we do a better 
job of working with our states partners to have them do a 
better job of connecting the jobs they know they have in their 
economy with the people who are looking for work who are 
currently receiving SNAP. That is, in my view, the best way to 
reduce the SNAP rolls.
    Ms. Fudge. Thank you. In your testimony you mentioned that 
nearly 85 percent of persistent poverty counties are located in 
rural areas. While I don't represent a rural district, 
obviously, I understand the issues at hand because food 
insecurity and poverty are concerns for my constituents as 
well.
    Rural communities face a number of challenges of which my 
district can identify, including low wage employment and 
underemployment, less access to services, such as affordable 
child care, and public transportation, and higher food costs. 
What can USDA do to address the issues of poverty and ease the 
burden of rural hunger in a more targeted fashion?
    Secretary Vilsack. Well, a couple things. Number one, our 
Community Facility program is designed to provide and improve 
schools, hospitals, public facilities, libraries. We have 
funded over 6,200 projects. Those are also job creators. I 
think the most important thing to understand about the rural 
economy is that, because agriculture has become extraordinarily 
efficient and productive, using fewer and fewer farmers than we 
did 10 years ago, 20 years ago, 40 years ago, what we did not 
do, and what we are now trying to do is to overlay a 
complimentary economy that will help create other opportunities 
for folks that are natural resource based. That is why local 
and regional food systems, which are job creators. It is why 
ecosystem markets and conservation is a job creator. It is why 
what you put in the farm bill for bio-processing, 
manufacturing, is a job creator.
    So if we do a good job of implementing those provisions, we 
should see increased job opportunities, and better paying job 
opportunities, and the capacity to encourage young people that 
they don't necessarily have to leave. They can stay in the town 
that they lived in, or a town similar to what they lived in.
    Ms. Fudge. Thank you very much. I yield back.
    The Chairman. The gentlelady yields back. The chair 
recognizes the gentleman from Arkansas, Mr. Crawford, for 5 
minutes.
    Mr. Crawford. Thank you, Mr. Chairman. Mr. Secretary, thank 
you for being here. Just one quick question about the catfish 
program. The 2008 Farm Bill contained a requirement for USDA to 
provide mandatory inspection for catfish processing, and it has 
yet to be implemented. There was some clarification of that in 
the 2014 bill, I understand that--expecting that to be 
finalized by December. Since the complaint that the definition 
of a catfish in the 2008 bill was too broad, that was all 
pretty well addressed in the 2014 bill, so I am just wondering 
why it would take so long, why it would be December before that 
is finalized and implemented?
    Secretary Vilsack. Well, the first step in the process is 
to make sure that we have a good relationship and understanding 
about the responsibilities of Food and Drug Administration 
(FDA) and USDA. We are completing that MOU that is required. We 
craft the rule, and now that the broader definition has been 
confirmed by Congress, which was very, very important, because 
there are varieties and species of catfish that may not have 
been included but for that language, it allows us now to 
finalize and put this thing in a process where people can then 
comment on what we ultimately come up with. It is really the 
administrative rules process that requires time and requires 
input, notice, response to what we have. I anticipate that we 
will get this done before December. How soon before December 
depends on how many comments we get, but we are working through 
the process.
    Mr. Crawford. Okay.
    Secretary Vilsack. It is going to get done.
    Mr. Crawford. Thank you. We have talked a little bit about 
trade. As you know, the U.S.-Korea Free Trade Agreement 
entirely excluded rice, and I am worried that that is--
potentially could set a bad precedent for TPP and TTIP. How is 
the Department working with USTR to make sure that we are 
providing additional access to rice--additional market access 
to rice, and can you assure the Committee that you will 
continue to press that issue?
    Secretary Vilsack. We are pressing market access very, very 
hard in our discussions in TPP. It is right now focused 
primarily on Japan and Canada, and specific protections that 
they have in their rules. We have the most open market of any 
country in the world. What we want is a high standard 
agreement, but we also want a fair agreement. So we are 
continuing to press this, and we have to see increased market 
access, or there may not be a deal, or Japan may not be part of 
a deal.
    Mr. Crawford. Thank you. I obviously have concerns about 
rice, but--one of those issues that continues to pop for the 
rice industry, but also peanuts. I know that there are some 
trade barriers to accessing China for U.S. peanut producers, 
peanut butter as well. Can you speak to that?
    Secretary Vilsack. Well, we continue to work with our 
Chinese friends on a variety of issues in agriculture. We have 
a very aggressive presence over there, multiple offices. I 
mentioned earlier the China-American ag business forum that is 
creating opportunities for us to have additional conversations 
through informal channels. We have an ag symposium that we have 
with the Chinese. We had the first one in Des Moines 2 years 
ago. One is scheduled this year in China. That is an 
opportunity for us to talk specifically about issues, minister 
to minister. And I am sure that all of the issues that have 
been raised, and will be raised on China, will be raised at 
that symposium, so there is ongoing conversation.
    They are our number one customer for a wide variety of 
agricultural products, and they are one of the principal 
reasons, obviously, why we have seen record exports. So it is a 
delicate balance between making sure that markets continue to 
be open, but also preserving the opportunities that we 
currently have.
    Mr. Crawford. Thank you. And, finally, H.R. 933, Continuing 
Appropriations Act of 2013, was signed over a year ago. Had 
some language in it, Section 742, that required USDA to rescind 
sections of the original GIPSA rule, having to do with the 
suspension of delivery of birds, and with making the rule 
applicable to live poultry. The Department was required to 
rescind those within 60 days, and it is my understanding that 
hasn't occurred yet. Can you give me an idea when that is going 
to be completed?
    Secretary Vilsack. I will have to get back to you on that, 
Congressman. I don't know.
    [The information referred to is located on p. 65.]
    Mr. Crawford. Okay. Thank you, Mr. Secretary. I yield back.
    The Chairman. The gentleman yields back. The chair 
recognizes the gentleman from Massachusetts, Mr. McGovern, for 
5 minutes.
    Mr. McGovern. Thank you, Mr. Chairman, and thank you, Mr. 
Secretary, for testifying here today. And as you stated, the 
state of the rural economy for many is still very, very 
difficult, and there is significant hunger in rural America. 
And, in fact, according to USDA data, households in rural areas 
are more likely to be food insecure or hungry than in urban or 
suburban areas.
    And one of the things that really bothered me about the way 
we considered the farm bill in this Congress was that the 
voices of those who are most desperate, who are most 
vulnerable, the voices of the poor, weren't heard adequately. 
In fact, I don't believe they were heard at all during the 
consideration of the farm bill. The gentleman from Texas, Mr. 
Conaway, raised concerns about state waivers. And, correct me 
if I am wrong, states don't have to take waivers. States 
request waivers from the Administration, am I right on that?
    Secretary Vilsack. That is correct.
    Mr. McGovern. And that is because these governors, 
Democrats and Republicans, understand that there are still 
people struggling in their states. And I should also point out 
that a majority of those who are able to work who are on SNAP, 
work. And the sad reality is that they are working at wages 
that are so low that they still qualify for this benefit. We 
should get serious about increasing the minimum wage so that 
work in this country actually pays. I think if you work for a 
living, you ought not to be stuck in poverty.
    But what really concerns me is what I see is this kind of 
chipping away at the SNAP benefit. In November we saw an $11 
billion cut to SNAP as a result of the recovery monies not 
being renewed. That resulted in an average decrease of $30 per 
month for a family of three on SNAP dollars. And before that 
even went into effect, talking to food banks, and food 
pantries, and churches, and synagogues, or mosques all over the 
country, what has been made clear to me is that the benefit 
even before that cut wasn't adequate to last a family for an 
entire month, so people were going to these charities, and 
going to these food banks.
    And then we had the farm bill, which added, in my opinion, 
to the misery of some of these people with the cuts in the so-
called Heat and Eat Program. And that supposedly resulted in a 
savings of $8.5 billion from SNAP. I guess maybe we should be 
thankful that those cuts only targeted a small percentage of 
poor families. But tell that to a family of three that is going 
to see another $90 cut from their SNAP benefit each month. That 
means in the Heat and Eat States a family of three could see an 
average of $120 per month cut in their SNAP benefit, which is 
just unconscionable.
    Now, thankfully, and I want to publicly thank the 
governors, and praise these governors who have taken action for 
preventing these cuts from taking effect. These are Democrats 
and Republican governors, and this is something that it was 
clear in the bill that states had to come up with at least $20 
worth of money in order to help increase the SNAP benefit for 
some of these poor families. The states have done that. And, 
Mr. Chairman, because there has been a lot of complaining by 
some Members of your party about this move, including the 
Speaker of the House, who called it fraud, and abuse of the 
program, this is very much consistent with the law. And, in 
fact, it actually doesn't impact the so-called savings.
    And I want to put in the record the majority Committee 
staff memo that says the press reports assume that the change 
of behavior of these states eliminates the savings estimated 
from the reforms included in Section 4006. This is false, and 
fails to recognize CBO considerations included in the savings 
estimate. So it doesn't impact the savings, but I want to 
praise these governors for not turning their backs on the most 
desperate people in their communities.
    [The information referred to is located on p. 61.]
    Mr. McGovern. Which kind of brings me to my question, and 
that is, Congressman Ryan submitted his budget, which includes 
about $120+ billion in SNAP cuts. I think that is immoral, 
quite frankly, what that budget does to this program. I would 
be interested in your response to Congressman Ryan's proposed 
cuts in this program, and how it would affect people not only 
in rural America, but all across America.
    Secretary Vilsack. Well, it is safe to say, Congressman, 
that a cut of that magnitude would be devastating to the 
families that would be impacted. But it is also safe to say 
that an increase in the minimum wage would potentially move 
people out of the need for SNAP, or out of the need for as much 
SNAP as they are currently getting. I think there is some 
indication that it could save billions of dollars. But I am 
going to deal with the world that I live in, and the world that 
I have today, which is really focusing on trying to find more 
job opportunities for those folks who are genuinely interested 
in working.
    You mentioned the fact that more folks in SNAP are working, 
and that is absolutely correct: 42 percent of households 
receiving SNAP actually have somebody working. I would also 
point out that nearly double the number of families have either 
no gross income, or no net income. We have seen a dramatic 
increase in the number of families that have no income at all 
that are receiving SNAP. So these people obviously need help, 
and the concern I would have is that the Ryan Budget would do 
great harm to those families.
    The Chairman. The gentleman's time has expired. I would 
yield myself 10 seconds, at the toleration of my colleagues, 
simply to note that the actions of the governors, and the 
public discussion, no doubt mean that this issue will not go 
away, and whether it is in appropriations this year or next 
year, or perhaps in 2017, I have a feeling we will revisit my 
friend from Massachusetts's and myself's favorite subject 
several more times. With that, the gentleman's time has 
expired, and I turn to the gentleman from Tennessee, Mr. 
DesJarlais, and recognize him for 5 minutes.
    Mr. DesJarlais. Thank you, Mr. Chairman. Thank you, 
Secretary, for being here today. As you know, on the way in I 
mentioned that I was going to talk to you about a subject that 
I think you are aware of regarding the black vulture problem 
that is plaguing the Southeast. I had received a letter from 
Representative Mike Sparks from Rutherford County just a couple 
of days ago. He was getting many calls from his constituents 
that the vultures were attacking livestock there. I have a 
letter from the Tennessee Cattlemen's Association, Charles 
Hord, who was addressing this issue, as well as many other 
constituents from around my district, and around Tennessee, 
that have had a problem with this. As you said, you are aware 
of it. Let me give you a few details, and then maybe what I 
would like to ask of you in response.
    The black vultures continue to be an issue with the cattle 
and sheep producers in Tennessee, as well as many other states, 
and they actually will attack newborn animals by poking out 
their eyes and then consuming them. They also will attack the 
backside of cows, causing damage, and sometimes death of these. 
In Tennessee last year it was estimated about a $4 million 
loss, and other states, such as Kentucky, Alabama, Georgia, 
Mississippi, Florida, Louisiana, South Carolina, North Carolina 
all had similar such problems. And right now, to combat this 
problem, they are required to go through the U.S. Department of 
Agriculture, Wildlife Services to get permits for this problem.
    The permits cost $100, they take about 2 to 4 weeks to get, 
and they expire on March 31 of the next year, so oftentimes the 
calving season is over before they are able to get a permit, 
which allow them to kill up to 10 to 15 of these birds, who are 
protected under the Migratory Bird Act. And they have tried 
fireworks, shooting in the air. They are a pretty adaptable 
bird. It scares them away temporarily, but they come back. So 
what I guess we are asking would be your help in finding a 
better permitting process.
    The Tennessee Cattlemen Association would like to recommend 
that the U.S. Fish and Wildlife Service begin an online permit 
process that would permit--so that the permit would be good for 
a 3 year period, and that would save producers both time and 
money of applying for the permit each year, and help with the 
issue of producers having to wait before they can take action 
against the black vultures. And the Cattlemen's Association 
also recommends the Department of Interior begin studying why 
there has been such an increase in black vulture attacks, and 
consider issuing a Depredation Order that would allow for the 
reduction of black vulture populations, similar to those issued 
for blackbirds and Canadian geese.
    And also there is a suggestion, why should there be a $100 
fee for this application? Is there anything that you could do 
to help in this issue, or would you be willing to work with us 
if we reached out?
    Secretary Vilsack. Congressman, I will be happy to convey 
the concerns that you have expressed about the Interior 
Department's Fish and Wildlife Service operation of the 
permitting. The online suggestion is a good one, and that is 
something I will certainly convey to Secretary Jewell. I will 
say that our Wildlife Services portion of Animal and Plant 
Health Inspection Services (APHIS) is working with producers to 
try to give them tips on ways to address this predator issue, 
providing technical assistance to help them control the 
problem, as well as assisting them in the filling out of and 
accessing these permits. We will obviously continue to do that, 
but we will certainly convey the concerns that you expressed 
here today.
    Mr. DesJarlais. All right. I appreciate your time. Thanks 
for listening. I yield back.
    The Chairman. The gentleman yields back his time. The chair 
turns to the gentlelady from Washington State for her 5 
minutes.
    Ms. DelBene. Thank you, Mr. Chairman, and thank you, Mr. 
Secretary for being here, and all the work from you and your 
staff implementing the farm bill as quickly as possible. We 
really appreciate it. I also wanted to take a moment to 
recognize the efforts of Forest Service employees in 
Darrington, Washington. As you may know, a massive landslide 
took place in my district, near Oso, Washington, wiping out an 
entire neighborhood with very heartbreaking and devastating 
results. As of this morning, at least 30 people are confirmed 
dead, and 15 are still missing.
    And immediately after the tragedy, Forest Service employees 
in the area devoted their time and resources as volunteers. 
They did so without pay, and by taking annual leave, and have 
done everything they can to help. And having spent much of the 
last week in the area myself, their efforts, and the efforts of 
all first responders has been truly inspiring, and they should 
be commended for their work.
    Secretary Vilsack. Thank you.
    Ms. DelBene. We talked a little bit earlier about Farm 
Service Agency offices, and I know you proposed closing 250, 
and you said that none would be closed here in 2014. I wondered 
if you could give us a timeline for when you will make the 
decision, going forward? We have three offices in my district. 
They are incredibly important to our counties, which has 
growing agricultural communities, and wanted to know when you 
might be releasing a proposal.
    Secretary Vilsack. We are going to--we learned a good 
lesson from the last effort at reducing these offices, that we 
really did need to do a better job of focusing on where the 
work is actually being done, and making sure that we have 
adequate staff members, commensurate with the workload. So we 
are in the process now of doing an evaluation where work is 
actually being performed, so that we can essentially rearrange, 
if you will, staffing, and then making sure that offices are 
adequately staffed to provide the help and assistance that 
folks need.
    That process, we anticipate, is going to take a good part 
of 2014, calendar year 2014. So I don't anticipate making 
decisions relative to any potential closures until that is 
completed, and until we have a chance to also look at how it 
relates to the Congressional directive, vis-a-vis 20 mile 
limits. You all basically designated that we need to consider 
how close another office is, and so forth, and there is a 
process by which we provide notification to Congress, and have 
a series of hearings in any county that is impacted by this.
    I think it is absolutely essential to reiterate the fact 
that our salaries and expense line item for the FSA has been 
reduced to the point where we have 20 percent fewer full-time 
equivalents (FTEs), or full time employees, than we did just 
several years ago. You cannot absorb all of that reduction 
without having some impact on the staffing. And we think it is 
important to note that there are offices today that literally 
do not have a single person in them, that they are a location, 
but they are not staffed. And there are those that are within a 
few miles of another office that have a number of employees 
where there is only one employee.
    So when you take that, when you take into consideration the 
technology changes that are taking place that is going to 
change the way in which people react and interact with FSA 
offices, we think the time is right for us to ask the question, 
if we were going to produce this system today, would we produce 
it in exactly the same way that it is today? And the answer is, 
no, we wouldn't. We would make some changes, we would modernize 
it.
    But I want to emphasize it is not about saving money. It is 
about taking those resources that would be saved and 
reinvesting them in modernizing these offices, the remaining 
offices, and making sure that their responsibilities not only 
are focused on their programs, but having at least a cross-
train opportunity on other programs. So we think this is an 
improvement. And there may be fewer offices, but we think they 
will be much, much better offices.
    Ms. DelBene. Thank you. We look forward to seeing your 
proposal. You also mentioned the SNAP Employment and Training 
Program. That was based on a very successful program we have 
had in Washington State. I introduced legislation based on that 
program that has led to the program that is in the farm bill, 
something I am proud of, and is going to be very, very 
important going forward. Is the timeline on creation of these 
pilots on target to meet the 180 day window on developing the 
processes for a state to apply for these pilots?
    Secretary Vilsack. It is. Under Secretary Concannon has 
actually traveled to a number of states that have had success, 
I believe he has also been in your state, so it is on track. We 
have also had conversations with sister agencies, Department of 
Labor, Veterans' Affairs. Seven percent of folks on SNAP are 
veterans, so we are deeply concerned about that. And so there 
has been a series of conversations that are taking place. I am 
confident we are going to be on track to get this thing to a 
point where we will see some pilots in place, certainly at the 
beginning of next fiscal year. The way the money is allocated, 
it is $10 million this year, and the balance in 2015. I think 
the expectation is that most of the actual work will be done in 
Fiscal Year 2015, but we are on target.
    Ms. DelBene. Thank you, and I look forward to information 
as that rolls out too. Thank you for your time again, and I 
yield back.
    The Chairman. The gentlelady's time has expired. The chair 
now recognizes the gentleman from New York, Mr. Gibson, for 5 
minutes.
    Mr. Gibson. Thanks, Mr. Chairman, and I want to begin by 
thanking you and the Ranking Member, really, for your 
leadership throughout the process of the farm bill. I mean, 
certainly a challenging environment, and the way that you guys 
worked together was exemplary, and something the whole Congress 
can gain inspiration by. And I also want to thank the staff, 
the entire staff, for all the work that they did in the long 
couple of years that was the farm bill process.
    Secretary, thanks for being here today. I am encouraged by 
your testimony. I appreciate your remarks with regard to many 
things, but with regard to the beginning farmer program. I do 
think it is going to make a difference, and it is going to help 
in my area. It is going to help facilitate a trend that we are 
already noticing in the marketplace, which is an uptick in the 
number of young folks hearing the calling of farming. The 
program is going to be complementary and helpful. I also noted, 
with interest, your points on exports being up. I think that is 
also good for us, conservation programs.
    What I would like to do is--I have several areas I would 
like to have you respond to. We will see how far we go, in 
terms of the timing here, but number one has to do with an 
initiative that myself, Mr. Courtney, Mr. Welch, Mr. Schrader, 
and other brought forward for the bill, had to do with the 
school lunch program, and a pilot that, monies for schools 
that, instead of going towards canned goods, commodities, that 
they could be used for community supported agriculture, CSAs. I 
think this will be not only helpful in terms of nutrition, but 
also could be beneficial, in terms of inspiring a new 
generation to come to the farm. I was wondering where we are, 
in terms of thinking through implementation of that. And 
certainly my staff looks forward to working with your team on 
that score.
    Secretary Vilsack. We have had some involvement with that 
in a couple of states, and we are excited about that 
opportunity as well. And one of the things that we are 
attempting to do is utilize our Farm to School program to make 
sure the word gets out about those opportunities, as well as 
just generally the opportunity to buy local, and to provide 
assistance and help to local producers. We currently have 71 
projects in 42 states under the Farm to School program as well, 
impacting hundreds of schools. So we think this is an 
opportunity, and you will see progress on this for the next 
school year.
    Mr. Gibson. Well, thanks. And we are going to want to be 
competitive. We will work with your team on that. And I am glad 
you mentioned the next school year, because that is the sort of 
the horizon that we are working with too, hoping to finalize 
some of the applications by the summer so that, with the coming 
school year, that we could be involved in the program.
    And the second area has to do with broadband. Thanks for 
your work, and for your team's work on this, and it is very 
important to rural areas. And I was interested in an update, in 
terms of efficacy in the program, and service for unserved 
areas.
    Secretary Vilsack. Well, we have 225 projects that were a 
result of the Recovery Act funding. Over 58,000 miles of fiber 
have been laid. Over 1,100 wireless points have been 
established, and that is providing help and assistance to 
140,000 new subscribers, which includes almost 6,000 
businesses, and close to 700 anchor institutions, like 
universities and school, National Guard armories, and things of 
that nature. Many of these projects are still in the process of 
being completed, so those numbers will increase. In addition, 
there have been roughly 400 distance learning and telemedicine 
activities and grants that we have put forward.
    And we are working with the Federal Communications 
Commission (FCC) because, at the end of the day, the real issue 
here is not so much what we can do, as, we obviously have an 
important role, but the private sector is the one that 
obviously has to carry the ball, and so that is why we have 
asked them to take a look at their most recent ruling relative 
to the Universal Service Fee. Maybe create a little more 
flexibility in terms of waivers, a little more understanding 
about the challenges of implementing these changes, and so 
repaying loans that have been taken out in the past, based on 
the old system, to expand service. And maybe look at that 
Connect America Fund, in creating a little bit more of an 
incentive for others to participate.
    Mr. Gibson. And I agree with all on that score. Last point, 
and you may have to respond for the record, let us see how the 
time goes, has to do with a public health scourge that we have 
in the Northeast, and, actually, it is reaching across the 
country, tick-borne diseases, in particular Lyme Disease. And 
in the farm bill we put some emphasis for research, given 
changing weather patterns, impact in terms of tick-borne 
diseases. We have some experts in the Hudson River Valley who 
had been competitive, in the past, and we reach out to you, and 
just look forward to working with you. We think this is another 
avenue of attack that we can make on this important public 
health issue.
    Secretary Vilsack. Congressman, I want to make sure the 
announcement we are making today relative to the disbursement 
of roughly $48 million, which is really focused on better pest 
and disease management, whether that impacted the specific 
issue you raised. I am told it doesn't, but we, obviously, are 
very sensitive to these issues, and we will be happy to work 
with you.
    The Chairman. The gentleman's time has expired. The chair 
would like to note to my colleagues that, based on the 
Secretary's hard leave time of 12:15, I have enough time for 14 
more Members to ask questions. I have 22 Members, therefore, 
any Member has the right to object, but I am going to ask by 
unanimous consent that we agree to continue questioning for 4 
minutes at a time. Is there any objection to going to 4 minute 
questioning period for the remainder of the witness's 
testimony? Any objection?
    Seeing none, the gentlelady from California is recognized 
for 4 minutes.
    Mrs. Negrete McLeod. Thank you, Mr. Chairman. Thank you, 
Mr. Secretary, for being here. This is a California-specific 
question. There have been several of us from the California 
delegation who have been hearing from the grocery stores in our 
districts, specifically on the California WIC moratorium for 
new vendor licenses. Is it on track? Is it subject to change? 
What are the factors involved one way or the other? Is the 
timeline published for the public to see?
    Secretary Vilsack. We are working on trying to address this 
issue, Congresswoman. It is a very serious issue in California, 
and we are working with the California folks to get it 
resolved. I think we are close. I am not sure we are totally 
there yet, but we are very close to making sure that we have 
the controls in place so that the WIC program is not abused as 
it was being abused by a number of stores.
    Mrs. Negrete McLeod. And we understand that, however, is it 
possible to provide some level of certainty, at least what time 
the publishing date as the start date for the review of the 
applications through a vendor alert? And, given the timeline, 
would you consider adding additional exemption criteria to it?
    Secretary Vilsack. Well, the best thing for me to do is 
make sure that our folks from Food and Nutrition Service get in 
touch with you to give you a more detailed briefing. I just 
know that we are on track. We are working with the state, and 
we are hopeful in getting this resolved quickly. Honestly, I am 
not quite sure about all the details that you are asking for. 
So, with your permission, perhaps we can get someone to visit 
with you and your staff precisely about what the circumstances 
are.
    Mrs. Negrete McLeod. Okay. As you know, whenever there are 
bad actors, not only do the bad actors get punished, but then 
everybody else that is in the system----
    Secretary Vilsack. Right.
    Mrs. Negrete McLeod.--also gets punished.
    Secretary Vilsack. Right, but this was a horrendous thing 
that was taking place, so----
    Mrs. Negrete McLeod. We understand. Okay. Your Department 
would contact me, and that way we can move on, and see where we 
are with this issue? Thank you so much.
    The Chairman. The gentlelady is wonderful, and yields back 
the balance of her time. The chair recognizes the gentleman 
from Tennessee, Mr. Fincher, for 4 minutes.
    Mr. Fincher. Thank you, Mr. Chairman, and Secretary, for 
being here today. Let me just take just a few minutes to say 
how much I appreciate the Chairman and the Ranking Member 
working on the farm bill for month, after month, after month to 
get this finished and completed for the country.
    Over the last, I guess, probably 4, 5, 6 weeks, we have 
done a variety of farm bill meetings. My district is the 
western part of Tennessee, so I border Kentucky, Mississippi, 
and Missouri, and we did probably 15 farm bill meetings in my 
state, and the surrounding states. Probably 2,000 to 3,000 
attended all of these meetings. My background is I am a farmer.
    But something that we were running into, Mr. Secretary, is 
I guess our FSA offices are very concerned because they have 
been cut, they are understaffed. RMA is concerned about getting 
all of this information out there to them in a timely fashion. 
Do you see, or do you think we may get into a position in the 
summer of extending our certification deadlines later in the 
year because FSA will not be ready? Can you give me your 
thoughts on that?
    Secretary Vilsack. I don't anticipate that that is going to 
be the case as of today, Congressman. I mean, we are hiring 
additional staff with the money that has been provided on a 
temporary basis, and we are working very quickly to get the 
educational materials and the web-based materials prepared and 
disseminated. So I don't anticipate and expect that we are 
going to have an inability to get people educated and put in a 
position that they can make appropriate elections later in the 
year.
    Mr. Fincher. Okay. Something else too, in a variety of 
counties in our area, I did one meeting down in Mississippi, 
and this is the Delta, I mean, big row crop farm land, 
commodity farm land, and a lot of these counties do not have 
directors in the counties. And these are areas where there is a 
lot of work to be done by FSA. And I told one of the directors 
I talked to that I would pass along just how important it is 
allowing us to move our stuff to control counties, and letting 
us put everything in one county, maybe the county that we live 
in, even though we may farm in several different counties. Will 
help, definitely, but these directors are just very concerned. 
They know the extra money is there, but concerned that they 
will be able to handle the burden of all of this, but it was a 
lot of information. I know it is a new program, but I said I 
would pass that along.
    And just moving along, to not eat up as much time as I can, 
we work with NRCS very often, and I was with some of my local 
guys over the past 2 or 3 weeks, laying some structures out on 
some of our land, and it seems that morale is down in our NRCS 
offices. And these are guys that had been there for years and 
years, who I am friends with, who take pride in their work, 
pride in what they do for not only the agency, but for the 
farmers. And I am just passing this along, Mr. Secretary. I 
know you are at the top, but they just said that, look, it is 
like they don't care. It is like the Administration doesn't 
care, we are just a number, it is not important anymore, the 
job that we do, and what we are trying to do.
    And I said, well, look, we do care. It is a big process, 
all of the changes, and all of the different things that have 
happened over the past 15 or 20 years. It is a very different 
time. But they just seem to be very frustrated. And these are 
guys on the ground, guys that we deal with on a day to day 
basis. So I am passing that along.
    And the last thing, to Mr. Scott's statement a few minutes 
ago about young farmers, and trying to get young farmers into 
the business, I have two sons. They love farming. One is at 
Mississippi State now, getting an Ag Business Degree. We have a 
deeper problem in the country, and I think we see it in 
Congress, when we have to spend 3 years trying to pass a farm 
bill that should be bipartisan.
    It was bipartisan, but we must make sure that we continue 
to look at the issues that face our country. And there are many 
of us up here, myself, including other Members on this 
Committee, that came here to do things, not just make political 
statements. And our problem is deeper than just trying to get 
young farmers in. We need, as a body in this city, to do what 
we can for the farmer all over the country.
    So, with that, Mr. Secretary, I appreciate it, and I yield 
back, Mr. Chairman.
    Secretary Vilsack. Mr. Chairman, may I just have 10 
seconds? Congressman, on the morale issue, that is obviously 
something we take very seriously, and, in fact, we have 
instituted a process of focusing on the viewpoint survey that 
is done for all USDA employees. And we have created a process 
by which we are working with our various levels of leadership 
to do a better job of reaching out to people and communicating 
with people. We are having listening sessions across the 
country, including at NRCS, so it is something we take very, 
very seriously.
    I will tell you that it has been a difficult time to be a 
Federal employee, because oftentimes they are criticized 
publicly in sort of a broad brush approach, which is unfair. We 
went through a sequester, we went through a shutdown, budgets 
have been cut. It is not an easy time. However, there is just 
extraordinary work being done, and we have expressed, and I 
have expressed on numerous occasions, my admiration for the 
folks at NRCS as extraordinary problem solvers.
    Mr. Fincher. I agree also. Thank you.
    The Chairman. The gentleman's time has expired. The chair 
now recognize the gentleman from Connecticut, Mr. Courtney, for 
4 minutes.
    Mr. Courtney. Thank you, Mr. Chairman, and thank you, Mr. 
Secretary, for being here. I want to note your opening 
comments, your reference to the need for immigration reform in 
rural America. As far as I am concerned, that is the elephant 
in the room. Any event that I go to with the producers, we had 
the New England Dairy Council in my district a couple weeks 
ago, come ready to talk about the farm bill. Obviously a 
historic year, in terms of dairy risk insurance. The 
conversation pivoted to immigration reform within minutes. They 
demanded to know when we are going to move forward in this 
Congress, in terms of getting it done.
    I want you to know that, for the folks in that room, the 
fact that USDA is going to run the H-2A program and the Blue 
Card program by itself, even without referencing the details of 
the wait times and record checks, and such, just the fact that 
USDA is going to be the vehicle for running the--that alone 
sold the entire room. The trust factor that people have for 
USDA, despite all the challenges, which my colleague mentioned 
a moment ago, that is what people are really yearning for, and 
we have to get this done. CBO has told us it will cut the 
deficit, it will grow the economy, but particularly in rural 
America, it is going to unlock the obstacles for having a 
viable workforce.
    I wanted to also raise another issue from Connecticut, 
which, this past year, the Connecticut Legislature passed, by a 
margin of 134 to 3 and 34 to 1, a GMO labeling bill. I know you 
have been in the middle of that debate for some time. I am not 
here to ask about your own thoughts or position on it. I am the 
eternal optimist. I think transparency is inevitable. That is 
my own opinion. There are probably more tweets that have 
already gone out just in this room in the last 2 hours. We live 
in a world of transparency.
    What I think is needed, and your department has, I believe, 
begun this process with the AC-21 process, is a need to get a 
higher level of understanding and engagement of agricultural 
biology and research. At some point, the whole issue will find 
an equilibrium, in terms of public acceptance, or public 
rejection, or public choice regarding this issue.
    Could you talk about whether or not the Department is going 
to sort of continue a process, being an arbiter for 
information, as this debate is inevitably going to continue?
    Secretary Vilsack. We are. I would say that one of the 
great opportunities that America has is to embrace diversity. 
And by diversity I mean diversity in its largest context, 
diversity of size of operations, diversity of production 
methods, diversity of operators. This is the future of 
agriculture, and it is a hopeful future.
    There is, obviously, a stress in agriculture, in terms of 
this conflict between production systems. Honestly, it is 
unfortunate, because agriculture needs to do a better job of 
communicating to the broader audience of Americans the benefits 
that we get from agriculture, the extraordinary affordability 
and accessibility of food, the freedom it gives the rest of us 
to be able to pursue other calls of life because we have 
delegated the responsibility of feeding our families to someone 
else, and they are doing an amazing job.
    We are very committed to this. We are implementing the 
recommendations of the AC-21 committee. We are engaging the FDA 
in conversations about this issue of labeling. The concern, 
obviously, is if you label that you are sending, potentially, a 
message of lack of safety about these products, unsafe 
products. That is not the case, in my view. It is not the case 
of the 600 some science reviews I have seen on this issue. GMO 
is not a safety issue. There is room for everyone, and I think 
we have to have a more collaborative conversation than a 
conflicting conversation.
    The Chairman. The gentleman's time has expired. The chair 
now turns to the gentleman from North Carolina, Mr. Hudson, for 
4 minutes.
    Mr. Hudson. Thank you, Mr. Chairman, Mr. Secretary. First I 
would like to echo the comments of my colleagues to thank you 
and your staff for your hard work implementing the farm bill. I 
know it is a huge undertaking, but I appreciate that very much, 
and thank you for being here with us today so we can talk about 
some important issues.
    I would also like to acknowledge a special guest I have 
here with me today, Linda Andrews, from the North Carolina Farm 
Bureau. Linda and her boss, Larry Wooten, are valuable assets 
to our farmers in North Carolina, work very closely with my 
office, and appreciate her being here today.
    My question to you, Mr. Secretary, is regarding the 
Uwharrie Forest, which as you, I am sure, are aware is located 
primarily in Montgomery Country, but also extends into Randolph 
and Davidson Counties in North Carolina, in my district. I 
understand from our folks on the ground that the forest roads 
had sustained a lot of very serious damage due to heavy rains 
and flooding over the last few months. In some cases these 
roads are completely impassable to our residents, tourists, and 
first responders. Needless to say, this is a very serious 
concern of mine, and I want to find a resolution as quickly as 
possible.
    I know that quick fixes in Washington sometimes can seem 
like an oxymoron, but I believe we can find ways to prioritize 
spending within the Forest Service to accomplish these type of 
tasks. We simply must fix these roads, Mr. Secretary. It is 
more than a headache for our residents. It is really a safety 
issue of having access.
    Mr. Secretary, can you explain to me briefly how the 
funding stream works through the forest regions when it comes 
to road projects like this that may be of an emergency nature?
    Secretary Vilsack. Well, we trust the folks on the ground 
to make decisions about prioritization of resources. I can tell 
you, with reference to this particular forest, that gravel is 
going to be applied soon to the roads that you mentioned, and 
many of the areas. Public safety is obviously a primary 
concern. Access for the public, and for our Forest Service 
personnel to maintain the forests is obviously a priority, and 
that there will likely be grading that is going to be done on 
those roads at some point in time later in the spring. So there 
will be an addressing of that specific issue.
    But, Congressman, honestly, the big challenge for us is 
that in the past 13 percent of the Forest Service budget went 
to fire suppression. Today it is 40 percent. And the reality 
is, unless we have a different way of funding forest fires as 
we do tornadoes, floods, hurricanes, and other natural 
disasters, we are going to continue to have uncertainty in all 
other aspects of the maintenance, restoration, and resiliency 
budgets of the Forest Service.
    That is why we have proposed a different way of funding 
fires that would give us greater certainty in those key 
restoration, maintenance budgets, so that we can continue to do 
a better job of maintaining the services that allow 166 million 
Americans to visit our National Forests every single year.
    Mr. Hudson. Yes, sir, thank you for that, and I am 
committed to working with you on this issue. I know how 
important it is. My staff reached out to Chief Tidwell of the 
Forest Service. We appreciate his cooperation with this. I 
appreciate your commitment to get that gravel spread out, and 
get those roads active again. On behalf of my constituents, I 
thank you.
    And, Mr. Chairman, with that, I yield back.
    The Chairman. The gentleman yields back. The chair now 
recognizes the gentleman from New York, Mr. Maloney, for 4 
minutes.
    Mr. Maloney. Thank you, Mr. Chairman. Thank you, Mr. 
Secretary, for being here. I want to thank you and your staff 
for working so well with my staff. I really appreciate all your 
folks have done, I want to say that. One of the things we 
worked very hard on in the farm bill were the crop insurance 
provisions, and particularly in my part of the world, which is 
the Hudson Valley of New York, just above New York City, where 
we have a lot of specialty crop farmers.
    One of the things that I worked hard to include was the 
CROP Act, which allows for the better development of specialty 
crop insurance policies, whole farm insurance, weather-based 
event insurance. If you can give us an update on that, I would 
sure appreciate it.
    Secretary Vilsack. Sure. One of the things that has 
occurred in the last couple years is more policies being 
written that are connected and directed to specialty crop 
production. The whole farm policy is one that we are working 
on. We think that there is an opportunity at some point in time 
this summer to begin the process of putting one of these 
together, and having the Board take a look at it, making sure 
that it is actuarially sound, and that it will work. And so we 
are expecting and hopeful that we will have that available for 
2015 crop year, potentially on a pilot basis. See how it works, 
see what we learn from that.
    Second, it is important for us to continue to also improve 
the non-insured crop assistance program. We are in the process 
of proposing changes and improvements to that as well.
    Mr. Maloney. And are you also interested in having RMA do 
more of its own development of these policies, which it can do 
now under the new legislation?
    Secretary Vilsack. Well, I think we will continue to use 
that opportunity. I think these are very sophisticated and 
complicated actuarial decisions that have to be made. You have 
to have adequate data to be able to make decisions. So I have 
trust and faith that they will make the decision as to when 
they feel competent, and when they need outside assistance and 
help.
    Mr. Maloney. I appreciate that. If you could commit to 
briefing my staff on that, I would appreciate it, because we 
worked hard to get these policies in action in time to do some 
good. You know, the folks in my region are still struggling to 
recover from Hurricane Irene, which had a terrible effect on 
Central Orange County, and their losses simply weren't covered 
by the kinds of insurance they had, so this is an urgent matter 
so we don't get another storm. I know you know that, sir.
    Can I also draw your attention to the special provisions on 
muck soil? Now, I know it is coming up on reunion time at 
Hamilton College, and you are probably planning a visit to 
Central New York, and I would just point out to you, sir, that 
on your way you will find some of the best agricultural soil 
anywhere, what we call the muck soil region of New York. If I 
could get you up there, it would be great.
    There is a provision in the farm bill that encourages you 
very strongly to work specifically with muck soil farmers on 
the special issues they have. It would be great to show you the 
region and get your commitment to giving some life to that 
provision so that we can really give these guys the assistance 
they need.
    Secretary Vilsack. I traveled 120 miles to and from law 
school every day on Route 20, so I am pretty familiar with the 
landscape of Upstate New York, but I always am willing to 
learn, Congressman.
    Mr. Maloney. That is right, and your distinguished record 
of public service certainly befits someone with a New York 
education, sir. And the final provision I would like to draw 
your attention to is, or at least the issue I would like to 
draw your attention to, and I will bring this in on time, I 
promise--we really benefit from the Hudson Valley Research 
Lab--which is facing extraordinary cuts from all sorts of 
sources. And if your Department can continue to work to find 
the funding necessary for the kind of research that goes on 
there? I don't need to tell you how important it is to the 
farmers in my region, especially crop farmers, who really 
depend on it.
    Secretary Vilsack. We have taken a look at our entire 
internal inspection system, our ARS system. We have prioritized 
the labs that are doing the highest priority work, and the labs 
that are in the best physical shape. We have identified labs 
that are in difficult shape, but doing primary--in other words, 
we have a capital improvement plan. The challenge for us, 
obviously, is to find the resources.
    We are suggesting that perhaps Congress would consider the 
possibility of allowing us to retain some of the unspent money 
from year to year to put into a capital account that help us 
modernize those Agricultural Research Service (ARS) facilities. 
Eight hundred different projects right now in the last 5 years, 
218 patents, have been approved. This is an innovative center, 
that we obviously want to continue to----
    The Chairman. The gentleman's time has expired.
    Mr. Maloney. Thank you, sir.
    The Chairman. The chair recognizes the gentleman from 
Florida, Mr. Yoho, for 4 minutes.
    Mr. Yoho. Thank you, Mr. Secretary, and Mr. Chairman. I 
want to just also reiterate a heartfelt thank you for the work 
you guys have done, not only with the Department of 
Agriculture, but with the Committee here. It has just been a 
great feeling to be a part of that, to get this bill passed. 
And I also want to thank you, as somebody else did, about the 
tobacco farmers of Florida, in honoring the buyout program. We 
thank you for that, because we had gotten a lot of calls about 
that.
    And I want to talk to you about the citrus industry, and 
you know well that Florida is number one in citrus, and you 
know our plight down there with the greening. You know, the 
citrus industry accounts for about $1.4 billion in sales, 
approximately $8.9 billion economic impact, and with the citrus 
greening going on, 80 to 90 percent of the citrus trees are 
affected. And, of course, Florida without citrus is like peanut 
without butter. They kind of go hand in hand, we need that 
together. And so I was real happy, and I know the citrus 
producers are real happy in our area, to see the money that was 
put into that.
    And I commend the Committee, and you, and I hope that gets 
allocated as quickly as we can, so that we can bring this under 
control. And if there is anything that we can do to help you 
with that, please let us know. We are looking for a speedy 
resolution of that.
    Secretary Vilsack. Congressman, we put together a multi-
agency approach to this, which is involving local, state, and 
Federal folks, to have a coordinated response to this. We 
funded it initially with a million dollars, and the $20 million 
this year, and then $125 that you have put into the farm bill 
will be allocated. We think there are opportunities for us to 
deal with the vector issue, with this tiny wasp. There is an 
opportunity for us to look at the pH content of the land 
surrounding----
    Mr. Yoho. Right.
    Secretary Vilsack.--trees. That might be an opportunity. 
And thermal, using heat on the top of these trees may work. We 
are going to continue to fund those projects, look at 
additional suggestions, and then make sure we fund the ones 
that are working the best----
    Mr. Yoho. Right.
    Secretary Vilsack.--and ramping them up.
    Mr. Yoho. I appreciate that, and I know they do too. And I 
want to talk to you about the peanut program, by the way. The 
crop insurance industry has introduced the revenue crop 
insurance program, but yet it hasn't been, I guess, approved 
for the peanut program, and we are hoping that we can get that 
implemented just as quick as we can. Are you familiar with 
that?
    Secretary Vilsack. I am familiar with it. I believe that it 
is----
    Mr. Yoho. It is the--crop insurance----
    Secretary Vilsack. Rights. It is a policy that would 
require Board approval. And if the Board approves it, we will, 
obviously, move forward with it.
    Mr. Yoho. And you brought up that China was a big importer 
of our peanuts. Is that because the South American market took 
a hit on peanut production, and so, for the last 2 years, they 
have been buying more of our peanuts? And if so, do you see 
that continuing?
    Secretary Vilsack. I would like to say it is because we 
have a better product at a better----
    Mr. Yoho. I would like----
    Secretary Vilsack.--price.
    Mr. Yoho.--to think that too. My concern is, due to the 
incentives, and some of the language, especially with the 
reference price of $5.35, that we are seeing an increase in 
peanut production already nationwide by 29 percent: 53 percent 
in Georgia, 35 percent in Mississippi, and seven percent in 
Florida. With this large increase in production, I can't help 
but think it is going to drive the price of the peanut down, 
and it could affect a lot of things that we talked about here 
today, one of them being the young farmers.
    These guys have just gone into the business in the last 5 
to 10 years. These are the very people that we are trying to 
help. And if there is an oversupply of the product, and the 
price drops, it could be devastating to that whole market, the 
very market that we are trying to preserve. Do you have any 
thoughts on that?
    Secretary Vilsack. Well, that is obviously a challenge. I 
think some of the changes in the farm bill relative to 
eliminating the term limit on guaranteed loans might provide 
some assistance. If somebody has been finding it difficult, 
they have to refinance their loan at a time when they are term 
limited coming back to FSA, now they won't have to worry about 
that. That may be of some benefit. And we are obviously going 
to work with producers with forbearance, trying to make sure 
that we give them every opportunity to succeed.
    Mr. Yoho. My time has expired.
    The Chairman. The gentleman's time has expired. I turn to 
the gentleman from Minnesota next for 4 minutes.
    Ms. Kuster. Thank you very much, and I apologize for coming 
in late, but thank you, Secretary Vilsack, for your testimony 
here today. Who was next?
    The Chairman. The gentlelady may continue.
    Ms. Kuster. No.
    The Chairman. One of my dear friends needs to use the 4 
minutes.
    Mr. Nolan. And Secretary Vilsack, welcome. I had the good 
fortune to be in Mount Pleasant the day you announced your 
candidacy for the Presidency of the United States, and, having 
been in politics for the better part of 50 years, it was the 
purest, best, most wholesome outpouring of community support 
for one of their favorite sons that I have ever witnessed in 
politics. The----
    Secretary Vilsack. It was also short-lived.
    Mr. Nolan.--are still vivid in my memory. I trust they are 
yours as well. I have a couple of quick questions here, and if 
they have been asked--I had to step out for another meeting. 
Did anybody ask about the sugar program, and the lawsuits that 
have been recently brought? And they have been hurting badly, 
and I know a number of us, myself included, were heard, hoping 
that you would be supportive of the American sugar producers in 
the suit that they brought to the International Trade 
Commission.
    Secretary Vilsack. I have to be candid with you, 
Representative, from my perspective, it is a bit ill timed. I 
am not suggesting there isn't an issue. There is, and the 
Mexicans have identified willingness to work on this by 
redirecting 700,000 tons of sugar that they would have put into 
the United States into an export opportunity elsewhere.
    We are at a very delicate circumstance and situation with 
Mexico on a variety of issues, and I am sure that they don't 
see this as a particularly friendly gesture. So, in a perfect 
world, I would have liked to have seen this perhaps not occur, 
or not occur at this time. But I recognize----
    Mr. Nolan. Well, thank you for your thoughts on that, and 
they would like not to have had this occur at this time, but 
the circumstances were such they felt that they didn't have any 
alternative. So please continue to take a good hard look at 
that. They need our help.
    The Payment in Lieu of Taxes (PILT) program, we had that 
attached to the farm bill. Did anybody ask about that at all?
    Secretary Vilsack. No, sir.
    Mr. Nolan. Okay. Could you share with us your thoughts on 
that?
    Secretary Vilsack. Well, we are obviously going to follow 
the direction of Congress. I think the challenge for us is to 
come up with a long term strategy to work with state and local 
folks to make sure that, over time, if Congress makes a 
decision not to continue to re-up this on an annual basis, or 
provide long term certainty that there is a replacement 
economy--it is one of the reasons why we have been working 
really hard to try to address new wood opportunities.
    We recently had a conference at the USDA where we created a 
prize to look at using wood not just as a framing opportunity 
in construction, but as structural members in construction. 
Europeans are now doing this. There are now multi-story 
buildings being built out of a new cross-laminated timber. We 
think it is a new opportunity. Wood to energy, a new 
opportunity. So we are trying to figure out ways in which we 
can stimulate--we are treating more wood, as we promised we 
would, but we need to do more. And I think that is----
    Mr. Nolan. Is that part of your biofuels----
    Secretary Vilsack. Part of it is biofuels, but it is also 
new products, bio-products. You can take wood nanotechnology, 
you can take wood fibers, and you can make optical materials 
that can be used in computers, and other sensitive technology. 
You can use it to create new armor for police and fire. There 
is a whole new opportunity here to use bio-based products, 
which is what this farm bill that you all worked so hard on and 
passed, it is going to provide us that opportunity to bring 
those kinds of industries to small towns, which may, over time, 
allow you to navigate away from the payment in lieu of taxes 
and secure rural schools issues.
    Mr. Nolan. Good. Well, thank you, Mr. Secretary. I mean, it 
was so apparent that the people who knew you best in Mount 
Pleasant had great faith and trust in you, and you raised a lot 
of important issues in that campaign. I want you to know that 
there are a lot of people here in Washington, all over the 
country, that have an equal amount of faith and trust in you, 
and we thank you for the great job that you are doing there. 
Keep up the good work.
    The Chairman. With that, the gentleman's time has expired. 
I turn to the gentleman from Georgia, Austin Scott, for 4 
minutes.
    Mr. Austin Scott of Georgia. Thank you, Mr. Chairman, and I 
will try to be brief. Secretary Vilsack, the timeframe for the 
USDA's review of biotech products improved, still beyond 180 
days. What do you attribute these delays to, and what can we 
do, as Members of Congress, to help remove these impediments? 
Does it take legislation, and would you support that 
legislation?
    Secretary Vilsack. Congressman, we have cut quite a bit of 
time off the regulatory process, and I think there is more. 
Part of the challenge is that we are using a new system, but we 
are still having to work with some of the holdover that we had 
from the previous Administration, working through that----
    Mr. Austin Scott of Georgia. Yes.
    Secretary Vilsack.--under the old system. But as this new 
system is fully embraced, you are going to see significant time 
reductions, again, above what has already been done. We have 
knocked off at least a year.
    Mr. Austin Scott of Georgia. Sure.
    Secretary Vilsack. But you can't prevent people from 
questioning whether or not we have done the right assessment, 
whether we have done the right environmental review, and that 
is oftentimes what slows the process down. We are trying to 
short circuit this without sacrificing the quality of the 
inspection, and making sure we are doing our job to assess 
whether there is a risk or not.
    Mr. Austin Scott of Georgia. Okay. And I agree that it has 
moved in the right direction significantly, but you don't 
believe that it needs additional legislation to help?
    Secretary Vilsack. I am not sure how you would craft it. I 
would be open to any suggestions that you have, but you would 
find it difficult to craft it in a way that would get a 
majority of the House and Senate.
    Mr. Austin Scott of Georgia. Well----
    Secretary Vilsack. Of course, that may be----
    Mr. Austin Scott of Georgia.--might be just as difficult 
these days.
    Secretary Vilsack. That is true.
    Mr. Austin Scott of Georgia. Reducing those delays just 
helps the rural community so much, and agriculture is the 
foundation of our economy, and these new products are extremely 
important to us. They are extremely important to the nation, 
and the world, with regard to food supplies. So thank you for 
your service, and with that, Mr. Chairman, I would yield the 
remainder of my time.
    The Chairman. The gentleman yields back, and I am proud of 
him. And continuing down the list, I turn to the very patient 
gentleman from Texas for his 4 minutes.
    Mr. Gallego. Thank you, Mr. Chairman. Mr. Secretary, when I 
took office in January of last year, one of the first things 
that I heard about was an issue with the cattle crossing in 
Presidio, which at one time was the number one port.
    I have worked with your office, I have had several 
conversations with your Under Secretary, Mr. Avalos. I have had 
conversations with the Administration, Mr. Shea of APHIS, and 
all I have asked is tell me why you have closed that inspection 
station over on the Mexican side, Ojinaga, which is the city on 
the Mexican side, doesn't have any travel advisories. And I 
have worked with the State Department, who told me that it is 
all clear. Having been a former prosecutor out there, I went 
with the law enforcement community, both Federal and state, who 
tells me that there is not a problem.
    And yet, when I deal with the USDA--and I am told we are 
having a meeting, and we will call you next week, and we are 
having a meeting, and we will call you next week, and I never 
get a return phone call. With all due respect, I am getting the 
impression that there is some national security--and I am happy 
to reserve a secure room so that we can have a conversation 
about what is going on over at USDA, because I am, in all 
honesty, pretty frustrated that I can't even get an answer. If 
it is unsafe, I want to know that. I would like to know why. It 
would seem that the State Department, and all your sister 
agencies, would disagree with your assessment of the situation 
on the ground.
    Secretary Vilsack. Congressman, first of all, to the extent 
that you are not getting return phone calls, I sincerely 
apologize. That is not the way we should be doing business with 
you, or any other Member of Congress, and we will make sure 
that that doesn't happen, and I apologize for that.
    Second, you are entitled, and should have an answer 
directly to the question that you are raising. It is my 
understanding that our folks do have a disagreement with the 
State Department as it relates to the ability of our folks to 
travel through a section of town to get to that facility that 
they believe, our folks believe, raises a serious security 
threat to our personnel, which is why we established, on the 
other side of the border, an inspection process. And I think 
that is the fundamental issue.
    And I have asked our team to sit down with the State 
Department and see whether or not they are right, and we are 
wrong, or we are right, and they are wrong, so that there is a 
consistent message provided to you. I can understand that it is 
frustrating, especially when one Department says one thing, 
another Department says something differently. All I can do is 
trust, in terms of what I do, I am obviously, first and 
foremost, concerned about the public safety of my employees. If 
they have concerns, then I have to take them seriously. But 
they have to be justified, and they have to be reasonable.
    Mr. Gallego. And I will tell you that I certainly don't 
disagree with that. My frustration is that you would think that 
you would be able to get an answer within--again, I mean, I am 
more halfway through--this is, like, nearly 18 months into my 
term, and it was one of the first conversations that I had with 
your agency. And it would seem that 18 months would be more 
than sufficient time to meet with your sister agencies and have 
an answer.
    Because when you open temporary facilities, it is not 
unusual to have a temporary facility at some of the points of 
entry, but in Laredo, for example, or in different places, 
Eagle Pass, they are closed, and they are opened a couple of 
months later. This situation has been this way for over 2 
years, and there doesn't seem to be any incentive on the part 
of the agency to move it off center.
    Frankly, I would like to invite you to come to Presidio, 
and I would like to invite you to help me move this issue off 
of dead center. And, Mr. Chairman, I yield back the balance of 
my time.
    The Chairman. The gentleman yields back the balance of his 
time, and the Secretary's word is good, and he will get you an 
answer, I am confident.
    With that, the chair turns to the gentleman from 
Pennsylvania, Mr. Thompson, for 4 minutes.
    Mr. Thompson. Thank you, Chairman. Thank you, Mr. 
Secretary, to you and your staff for your work and 
collaboration putting this farm bill together. I look forward 
to working with you as we serve our oversight function, as you 
work for implementation.
    Just a couple of things to touch on. Obviously, the bill 
contained language to ensure the bio-based market programs 
includes forest products, and just wanted to check on the 
status of that, and how will we be promoting those changes so 
that there is broad inclusion of forest products.
    Secretary Vilsack. We are moving forward on those changes, 
and excited about the opportunity. And we have the lead 
responsibility, as you know, Congressman, so we are going to 
make sure our sister agencies are fully aware. The first step 
in the process for us is to change the regulation, which we are 
in the process of doing, then notifying our sister agencies.
    And then we have established recently some kind of 
reporting system where we can actually look at contracts that 
are being issued by Federal agencies to make sure that they 
have the bio-based, bio-preferred language in the contract. 
Then, from that point, once we get everyone pretty disciplined 
to do that, then it is basically, how much are you actually 
purchasing that is bio-based of all types? And we have, as you 
know, thousands of products that are in that category, and in 
that program. So we are moving on that issue. We know it is 
important to you.
    Mr. Thompson. And I appreciate it. I think it is important 
to our healthy forests too, as you know. And you were very 
encouraging during our hearings when we talked about this in 
the past, and I appreciate your support for what we did. I 
think we have probably one of the strongest forestry titles, 
maybe ever, with the farm bill.
    I wanted to touch some bases, and I always do, whether it 
is with you, or the Forest Supervisor at the Allegheny National 
Forest, so my first question is always timber harvesting, as 
timber harvesting makes sure that we have healthy forests, but 
also healthy rural communities. We did make some changes in the 
farm bill, but I wanted to see, any estimates on how many board 
feet we anticipate producing from the National Forests this 
year, in terms of which ways it is going, and what can we do to 
increase that level of harvest? Which, again, I think you would 
agree, when we are at a sustainable rate of harvest, we have 
healthy forests, and we have healthy rural communities.
    Secretary Vilsack. We would anticipate somewhere in the--I 
want to make sure I answer your question correctly. I think our 
goal this year, in this fiscal year, is 2.8 billion board feet, 
which would be more than last year, and more than the year 
before that. Our goal for Fiscal Year 2015 is 3.1 billion board 
feet. And I get reports on this every month, so I can tell you 
that it is obviously early in the process, but we have already 
treated 300+ million board feet, and we are on our way to 
making sure we meet those goals.
    I would also say that I think this wood conference that we 
recently had may spur additional opportunities for us. This 
cross-laminated timber is a tremendous opportunity for us, and 
I hope folks take advantage of the challenge we have put 
forward on that issue.
    Mr. Thompson. I think that is very exciting, actually. That 
increases the market, so, obviously, that is a big part of it, 
not the only part. And I appreciate what you are doing, pushing 
out to architects and engineers to educate them on the 
opportunities.
    We seem like we are behind. I have some schools and others 
who have National Forests too who haven't really received their 
Secure Rural Schools payments yet. For whatever reason, we are 
a bit behind. Didn't know if you had any kind of update on 
the----
    Secretary Vilsack. Those----
    Mr. Thompson.--status of that?
    Secretary Vilsack. I am pretty sure the Title I and III 
payments went out, Congressman, earlier in March, and I believe 
the Title II payments are going out tomorrow.
    Mr. Thompson. Okay. Tomorrow, that is a pretty quick 
turnaround then, thank you. We will take credit from the 
hearing when I talk----
    Secretary Vilsack. All right. I expect the press release--
--
    Mr. Thompson. I appreciate----
    Secretary Vilsack.--to say nothing less.
    Mr. Thompson. Yes. I appreciate it. Mr. Chairman, I yield 
back.
    The Chairman. The gentleman yields back. The chair 
enthusiastically turns to the good lady from New Hampshire for 
her 4 minutes.
    Ms. Kuster. Thank you very much, Mr. Chairman, and I just 
want to commend my colleague across the aisle for the 
incredibly swift results that he was able to get out of that 
last question, very impressive.
    Thank you, Secretary Vilsack, for your leadership. Just to 
join my colleague, Mr. Nolan, in his effusive praise, I met you 
the first time when you came to New Hampshire for the First of 
the Nation Presidential primary, so my main goal is to invite 
you to come back.
    And I just wanted to say, it has been a tremendous honor 
for me to be a part of this Committee, the first Member in 70 
years from New Hampshire. But I have some great news to report 
to you, and to share with my colleagues. Under USDA's most 
recent Census of Agriculture, New Hampshire has grown by about 
five percent over the past 5 years, with regard to the number 
of young farmers and new farmers joining our community. So our 
agricultural sector may not be the size of the Midwest, but we 
certainly are making up for it in terms of enthusiasm. Robust 
local food networks, an emphasis on a healthy connection 
between fresh food and our lifestyle, as well as Farmers' 
Markets, and organics, and growing in every way.
    I also had an excellent meeting this morning with a group 
of foresters, and I want to join my colleague in terms of 
encouraging the use of our National Forest lands. One of the 
issues that came up this morning had to do with--and this may 
be a local preference, but the foresters are not allowed to 
forest on Saturdays and holidays.
    And we are coming up in New Hampshire on a very special 
fifth season that we have that is called mud season, when the 
frost goes out, and our foresters are not able to work for 
about 6 weeks, so every day during the winter is actually very 
precious, and during the summer, when the roads dry out, it is 
very precious. So I would just ask you to take that back on 
advisement, and we will follow up with the staff.
    But we would love to get you to New Hampshire, and tourism 
and agriculture are our top two industries, and so our working 
landscape is extremely important, and thank you for your 
leadership. I don't know if you had any comment on that.
    Secretary Vilsack. Well, I look forward to going back to 
New Hampshire. It is a great state. It is a beautiful state.
    Ms. Kuster. Thank you very much. Thank you, Mr. Chairman, 
for your patience.
    The Chairman. The gentlelady yields back. The chair 
recognizes the gentleman from Illinois, Mr. Davis, for 4 
minutes.
    Mr. Davis. Thank you, Mr. Chairman. Mr. Secretary, thank 
you. I just want to point out I sent a letter to your office on 
March 6, inviting you to come into my district in central and 
southwestern Illinois to discuss the issue I am going to bring 
up today, which has to do with the school nutrition programs. I 
would love for you to come out and visit some of our school 
professionals and hear directly from them about the impacts of 
the implementation of the 2010 Healthy Hunger Free Kids Act.
    I think we all share a common goal. We want kids to eat 
healthier. We want to address childhood obesity. But the good 
intentions have led to some challenges in our school districts. 
And I have heard from many of our local school districts about 
how they have once taken profitable parts of their school 
district portfolio, and, because of the new rules and 
regulations, and the lack of participation, school districts, 
like in Monticello, Illinois, have now lost $100,000 a year, 
and recently decided to pull out of the school nutrition 
program, which I don't think is a goal of any of ours.
    The School Nutrition Association actually said that there 
are 1.2 million fewer kids that participate in the school 
nutrition program since the enactment of the 2010 Healthy 
Hunger Free Kids Act, and we are seeing up to 70 percent of the 
fruits and vegetables that are being served being thrown away, 
which is costing school districts hundreds of thousands of 
dollars.
    And I just read an article, I thought it was an April 
Fool's Day article, because it was April 1, but it was from the 
Los Angeles Times, talking about the second largest school 
district in the nation, in Los Angeles, that is losing upward 
of $18 million a year because of food waste. And that is only 
at a ten percent estimate. And if you add the 60 percent to 
that, that is $28.8, almost $29 million a year that it is 
costing that one school district.
    This is why I have written to ask for some flexibility, and 
I just want to make sure that you saw the language in the 
Omnibus spending bill, and it directs the USDA to come up with 
some waivers for schools that are having a hard time complying 
with the new rules and regulations. Los Angeles being one, but 
Monticello, and my school district, Hillsboro, Illinois, 
Calhoun County, Illinois.
    And I want to give you some credit too, when we identified 
some problems with the protein and grain requirements, your 
agency did offer some flexibility. Thank you for that, and 
thank you to my colleague, Kristi Noem, for making that issue a 
priority also. But I want to know, have you developed any 
procedures----
    Secretary Vilsack. Yes.
    Mr. Davis.--for the Omnibus language for the school 
districts that ask for flexibility?
    Secretary Vilsack. Congressman, my staff, Todd Batta, 
handed me a copy of the Richard B. Russell National School 
Lunch Act, which talks about our authority, and I will be happy 
to give this to you. It is fairly clear from this that we don't 
have the authority that you would like us to exercise. 
Statutorily, we simply do not have the capacity to waive. And I 
will read from it, ``The Secretary may not grant a waiver under 
this subsection that increases Federal costs, or that relates 
to--(A) the nutritional content of meals served,'' or, ``(J) 
the sale of competitive foods.'' So if you are looking at 
waiver authority, this is something that you may want to take a 
look at.
    Mr. Davis. So basically, beyond the spending language that 
we put forth, you can't offer those waivers?
    Secretary Vilsack. That is correct.
    Mr. Davis. Okay. I have a problem--who, then, is going to 
be able to offer the waivers that we have asked to be----
    Secretary Vilsack. Well, you would have to change the law 
to give me the permission and the capacity to do this. I don't 
have the power to do it.
    Mr. Davis. Well, we did change the law in the Omnibus 
spending bill, and----
    Secretary Vilsack. No, you directed us to grant waivers. 
You didn't give us the authority to do so.
    Mr. Davis. I would like to point out that this 
Administration doesn't have a problem changing and offering--on 
other legislation, but that is another----
    Secretary Vilsack. That is----
    Mr. Davis.--that is a different subject.
    Secretary Vilsack. Yes.
    Mr. Davis. I just would ask you to come visit so that we 
can get your support, and the support of this Administration, 
to offer some flexibility to these school districts that they 
obviously need.
    Secretary Vilsack. Congressman, may I--Mr. Chairman----
    The Chairman. The gentleman may respond.
    Secretary Vilsack. Very quickly, first of all, 92 percent 
of school districts in this country have either already been 
certified, or are in the process of receiving certification 
under these new standards, so there has been acceptance. I am 
not sure that the School Nutrition Association is absolutely 
correct, as it relates to the people that aren't participating, 
because we have seen a dramatic increase in the school 
breakfast program, so I wonder about those numbers.
    And on the issue of food waste, we have to be very careful 
about this issue, and here is why: 30 percent of all food that 
is produced in the United States of America is wasted, 30 
percent. It happens in restaurants, it happens in homes, it 
happens in schools, it happens everywhere. And that is an 
unfortunate circumstance, and it is something, frankly, I would 
be happy to work with you on, trying to figure out how to 
reduce food waste, because it is not only a terrible waste of 
production, but it also is the single largest part of solid 
waste in our landfills, and it is a methane producer. So there 
are many reasons to get focused on that issue.
    Mr. Davis. I would love to work with you on that issue. I 
would love to work with you on addressing some of the concerns 
I brought up, but I don't want you to confuse the 85 to 90 
percent compliance rate with satisfaction from the school 
district. And I would appreciate your ability to work with me 
on addressing some of those concerns too, sir. Thank you.
    The Chairman. The gentleman's time has expired. The chair 
now recognizes the gentlelady from New Mexico for 4 minutes.
    Ms. Lujan Grisham. Thank you, Mr. Chairman. Secretary 
Vilsack, you recently visited my home state, New Mexico, and my 
district, and I really appreciate that, and thank you for your 
efforts to be present, and on the ground. And I would like to 
follow up on an issue that we briefly spoke about, because we 
have such a high proportion of minority farmers and ranchers in 
New Mexico.
    In June of last year the Forest Service conducted a civil 
rights compliance review that included Region 3 in New Mexico, 
and found that they were non-compliant with several civil 
rights requirements. Now, the report detailing these findings, 
and suggested corrective actions to be taken, directs the 
Forest Service to develop a detailed corrective action report, 
within 60 days of the receipt of the report. It states that the 
plan must also include any progress made in these areas since 
the review. Can you provide me with any updated information 
related to both the corrective action plan, and progress to 
date on implementing, and going through those review processes?
    Secretary Vilsack. Congresswoman, I would be happy to have 
our team and our staff provide you with details. So, if you 
don't mind, I am going to answer your question a bit more 
generically and generally.
    [The information referred to is located on p. 65.]
    I receive a monthly report relating to Equal Employment 
Opportunity (EEO) complaints and program complaints for each 
department of the USDA. I can tell you that both are at record 
lows, which is good, in terms of the overall department. When 
we see high numbers of program complaints, or Equal Employment 
Opportunity Commission (EEOC) complaints, we ask our civil 
rights folks to look into it, and to create a collaborative 
effort with the mission area to work out difficulties. I know 
that Joe Leonard in our civil rights office has been working 
very closely with the Forest Service. I know Region 5 has been 
an area that he has spent a lot of time on, but, honestly, at 
this point in time, I will have to check on Region 3, in terms 
of precisely what has happened there.
    Ms. Lujan Grisham. Right.
    Secretary Vilsack. But I would be surprised if we aren't on 
top of this.
    Ms. Lujan Grisham. And, Mr. Chairman, if I might, and just 
to respond to that with the Secretary, you were responsive to 
me when you were in the district. You offered staff to come 
back on the ground. That has not yet come to fruition, and so 
continuing your efforts on our behalf, I would be very 
grateful, make sure that we do have the Department engaged to 
the highest degree possible, and do appreciate that you spend 
time on corrective action plans, and reviewing how the 
Department is doing in a variety of levels. I think that that 
is an encouraging effort that many more departments in the 
Administration should be doing.
    So I look forward to having you back in the district, and 
we are ready to work with you. We are more than ready to work 
with you. Thank you, Mr. Chairman, I yield back.
    The Chairman. The gentlelady yields back the balance of her 
time. We have the gentleman from Louisiana, the gentleman from 
California, and the gentlelady from South Dakota remaining, and 
there is time. The gentleman from Louisiana, Mr. McAllister, is 
recognized for 4 minutes.
    Mr. McAllister. Thank you, sir. It is tough being the low 
man on the totem pole, waiting until the end. First I just want 
to tell you thank you, Mr. Chairman, and thank you, Secretary. 
I appreciate the bipartisan support. You know, I represent one 
of the largest row crop districts in the state, so when this 
farm bill came about--now, obviously I am the new kid on the 
block, and I ain't never had no public office, so I went to the 
people, and I asked them about the farm bill. And over 253 
different constituents, from every part of the industry that I 
asked, not a single one of them said no. They all said, please 
make sure this farm bill passes, please get it in.
    The Chairman. I like your constituents, sir.
    Mr. McAllister. So I just want to commend you, Mr. 
Chairman, and you, Secretary, for that. And, heck, I would 
definitely appreciate it if you want to come down to my 
district and check out these guys. And, remember, crawfish goes 
out about May, so if you want to come, now is the time to come, 
if you want to eat good, and enjoy some corn, potatoes, and 
crawfish.
    But one concern I have, and I was just in the district this 
past week, and, look, I know we have to live in the reality of 
the world that we live in, and I know there are some certain 
things that need to be changed out, but the FSA program is one 
of them. That is a serious concern to me, with the rural 
farmers and all that we have in the rural communities.
    And my main concern is most of these farmers--we live in a 
technologically challenged area for us, one, with the Internet 
capabilities, and even some of these older farmers--and I heard 
the other gentleman talking earlier about trying to get younger 
farmers into the program, which absolutely we need to, but that 
one on one, and filling out those applications, and what the 
FSA program does for my district is very vital.
    So the only thing I just--and it is really not a question, 
per se, to put you on point or ask, it is just, please be 
mindful when it comes to how we do. Try to regroup and 
restructure this, that we make sure that Mr. Bud down the road, 
that don't turn on the computer, and only thing he has is to 
set that appointment and go meet with his FSA officer, and 
still being represented, and still gets programs, and get them 
done.
    And I am all about efficiency, and whatever we can do to 
help, being one of the largest row crop districts in the 
country, I do sincerely wish that, if you get the opportunity 
to come down and visit, and we will get all the farmers 
together, and we will send you back with loads of peaches, and 
sweet potatoes, and everything else we are growing. It would 
mean a lot to them to know that--they feel like they are kind 
of being disenfranchised with this FSA.
    Because, I mean, all they hear is the media, and the hype, 
and people want to point the finger at you, say that you are 
cutting because you are doing other things in the budget. But 
it is the world we live in, and how we have to be more 
efficient about what we do, and how we do it. At the end of the 
day, we are all on the same page, that we want to support the 
farmer, and make sure that we are still producing enough crops 
to feed this country, and export as much as we can to be 
sustainable.
    So I just--whatever your comments might be on that, but I 
definitely appreciate your time coming here today and visiting 
with us.
    Secretary Vilsack. Well, Representative, the reason why we 
learned from the previous experience of taking a look at where 
the work is required, we will take into consideration those 
areas that are technologically isolated, so that it makes it 
more difficult for folks to take advantage of whatever 
technology advances are being made in service. So that is 
something we definitely should take into consideration, and we 
will take into consideration.
    This is not about denying people the help they need. This 
is about ensuring that we give them not just the help they 
need, but even working to maybe give them some ideas that they 
never even thought about to be able to connect farmers to rural 
development programs, to conservation programs more 
effectively, and to deal with the budget realities that we 
face. So we will be sensitive to the concerns you have 
expressed here.
    Mr. McAllister. Well, I appreciate it, and I look forward 
to working with you. I yield back my time.
    The Chairman. The gentleman yields back the balance of his 
time. The chair recognizes the gentleman from California, Mr. 
LaMalfa, for 4 minutes.
    Mr. LaMalfa. Thank you, Mr. Chairman. Thank you, Mr. 
Secretary. 4 minutes, I will hurry. I appreciate the earlier 
commentary. California, I am from there, big drought. Anything 
you can do to help expedite the disaster assistance, especially 
as it affects the Livestock Indemnity Program, we stand to help 
you assist with that as well.
    We have issues going on also with--we were talking about 
the section 404 permits and such, and we have people running 
into problems with the EPA, and those folks, and doing crop 
changes, and that somehow it involved some kind of Clean Water 
Act problem, when they are merely changing crops, and getting 
in trouble with the Federal Government and that. So we might 
come to you, seeking some assistance on getting through that, 
because we think that is a wrong interpretation, as was 
commented earlier.
    Thank you, again--Ms. Negrete McLeod mentioned the WIC 
program in California. We need to see how we can lift that 
moratorium get more vendors out there being able to compete, 
provide more choices, and hopefully better pricing for people 
in the WIC program. To reiterate, do you know when there might 
be a start date for reviewing the applications for----
    Secretary Vilsack. I don't know the specific date, but I 
know that there has been a real focus on trying to get this 
done, and getting it resolved quickly. This was a major 
problem, and we have been working with the state for a long 
time.
    So with the questions that are being asked here, I am more 
than happy to get back to my office and make sure that Kevin 
Concannon and his team get in touch with your office, and some 
of the other folks who have asked this question, to make sure 
that we get you the latest information.
    Mr. LaMalfa. Thank you so much. Jumping to forestry, I 
mean, in California, that old saying, you can't see the forest 
through the trees, got too dang many trees. So we need to get a 
lot more yield out of our forests. One of our units up there in 
the northeast, they had, as an original goal, 32 million board 
feet. I hear now they are only going to come up with 12 million 
board feet in this year. A couple of my colleagues did mention 
board feet, and yield, and all that, and we need a lot more 
help. We need a lot more help on the salvage side of it too, 
where we have frustrated vendors out there, foresters that 
would like to get after salvage.
    We are getting some movement on the Rim fire, but a lot of 
others are very frustrated because, as you know, you have a 
short amount of time to get at the salvage timber before it 
becomes insect infested. And then, instead of a positive to the 
economy, and a positive getting it out of the forest, now it 
becomes a cost to whoever is going to have to remove it later, 
or you have a tinder box.
    Some local constituents visited my office this morning and 
spoke with Forest Service folks, and what they are getting is 
that that is kind of a circular argument. Like, they say, well, 
the local folks have the authorization to push forward on 
salvage, and on the amount of board feet. You talk to them, 
they say, well, it is coming from Washington, D.C. So we could 
really use your help on clarifying who has the authorization to 
push forward on--is it just salvage, or, in general, getting 
these permits out.
    The frustration is that the harvest permits are not moving 
quickly enough, and they actually are part of the solution to 
funding. You know, you hear about funding, there is not enough 
staff to get the harvest plans or other forest activities done. 
We would have a positive income if we are getting those out 
timely, and getting the forests working again.
    So I throw all these things out as--could you help us 
clarify a little bit later too on where the authorization 
really lies to make the decisions on the forest units? Is it in 
California, in Vallejo, or is it in Washington, D.C.?
    Secretary Vilsack. Well, I know that in D.C. we basically 
set a goal, and, as I indicated earlier, I track it on a 
monthly basis. I am under the assumption that these decisions 
are not made in D.C. In terms of specifics, they are made at a 
much more local level, but I want to verify that, and make sure 
that I am giving you correct information.
    The information referred to is located on p. 66.]
    Mr. LaMalfa. Thank you, sir. I yield back.
    The Chairman. The gentleman's time has expired. The chair 
recognizes the gentlelady from South Dakota for 4 minutes.
    Mrs. Noem. Thank you, Mr. Chairman. And, Mr. Secretary, I 
want to thank you for making livestock disaster programs a 
priority, and getting those implemented. You know what South 
Dakota has kind of gone through the last couple of years, with 
the drought in 2012, the devastating blizzard we had in October 
of last year, and tens of thousands of cattle that we lost. 
Western South Dakota has gone through another 2 day blizzard 
here in the middle of calving season, and it is hitting eastern 
South Dakota today. So it has been rough, and the fact that you 
have made it a priority means a lot to the producers at home. 
It means a lot to me.
    I know sign-up starts April 15. How soon do you think some 
payments might reach the individuals?
    Secretary Vilsack. I have been told that our goal is to do 
it relatively quickly. I don't want to pin myself down, or our 
team down, to a specific timeline, but I can tell you everybody 
understands that these folks have waited far too long for 
help----
    Mrs. Noem. Yes.
    Secretary Vilsack.--and everyone understands that every day 
that goes by that they don't get help, somebody who is on the 
bubble may get out of the business, so----
    Mrs. Noem. Typically in the past it has taken how long for 
the payments to go out?
    Secretary Vilsack. I don't anticipate it is going to take 
very long.
    Mrs. Noem. Okay.
    Secretary Vilsack. Folks have been assuring me that they 
are prepared to get this money out as quickly as they possibly 
can. That is the hope, and----
    Mrs. Noem. Yes.
    Secretary Vilsack.--that is the goal.
    Mrs. Noem. I have another problem. And, as far as when it 
comes to FSA closures in the past, what we have seen in South 
Dakota is that an FSA office will be listed for closure, where 
the NRCS office that is right in the same building, located 
next to it, is not. A lot of the producers recognize the FSA 
office has a big workload, and they are wondering why that is 
focused on, rather than NRCS, when they are co-located. I 
believe you talked about this earlier, before I came in the 
room, of wanting to have a one-stop shop that could meet all 
the producers' needs, but I think that is priority.
    Two things I would like you to focus on when you look at 
producing where those potential closures might come is the 
workload, which you have indicated you would. The other one is 
distance.
    Secretary Vilsack. Yes.
    Mrs. Noem. Because I believe in law it says that each 
office cannot be more than 20 miles apart as you drive, on the 
road miles. In South Dakota, some of those that were listed, 
and have been closed, were 50, 60, 70 miles apart. And when we 
called USDA and visited with FSA about it, they were 
interpreting it as the crow flies. I don't believe the law says 
that. I believe that law says driving miles, and I hope that 
that is followed when you look at this list, in trying to 
become more efficient, and better serving the producers.
    Another thing, in northeastern South Dakota, when it comes 
to NRCS, we have some specific issues in some counties where 
producers who are trying to get wetland determinations done 
feel like they are being treated unfairly. And, honestly, they 
tell me they feel like they are being prosecuted. So I need 
some help with that. I think that when you have land in one 
county that is adjacent to another county, and the land in this 
county is treated completely different, and the wetland 
determinations are happening in a timely manner, whether it is 
yes, no, whatever they like, is favorable, doesn't matter, but 
it is timely, and it happens, and the county right next to it 
takes a year, 2 years, sitting on the wetland determinations, 
it is extremely frustrating for those producers to make 
decisions. So I don't think it is a whole South Dakota problem. 
I do think it is a northeastern South Dakota problem.
    Secretary Vilsack. And we have attempted to change the 
method in which these determinations are made to raise it up a 
level----
    Mrs. Noem. Yes.
    Secretary Vilsack.--so that we don't have quite the 
disparity that you have mentioned. Hopefully that will mitigate 
that uncertainty.
    Mrs. Noem. Okay. I might need your help with that. If we 
can focus on northeastern South Dakota, and make sure that that 
district within NRCS is complying with the direction that you 
have given to them, that would be great.
    The last thing is Section 8204 of the farm bill, that looks 
at Forest Service land, and some of the new authorities that we 
have given them, and how to deal with Forest Service land in 
regards to invasive species. We have the pine beetles going on 
in the Black Hills, and I know that you would probably agree 
that this is an important provision. Chief Tidwell has told us 
that he thinks it is an important provision. And it requires 
the government of a state to make a declaration to you to ask 
to use these authorities so that treatment areas can be 
detected. I know that my governor has done that. Have other 
governors asked for that authority in that provision?
    Secretary Vilsack. They have. We had a meeting with the 
Western Governors, and they all expressed a desire to 
participate in this, and we encouraged them to get to us their 
designation so that we can----
    Mrs. Noem. Okay.
    Secretary Vilsack.--determine whether or not it is 
expansive enough, or significant enough. You are correct, the 
Forest Service is anxious to use this authority to streamline 
the process, and hopefully to get a better handle on some of 
the problems that we are confronting.
    Mrs. Noem. Super. Thank you so much. I yield back, Mr. 
Chairman.
    The Chairman. The gentlelady yields back. All time for 
questions has expired. The chair now turns to the Ranking 
Member, before we adjourn, to make any closing remarks that he 
might choose to.
    Mr. Peterson. Well, Mr. Chairman, I just want to thank the 
Secretary for his patience, and his willingness to answer 
questions. And I guess there are some questions that need to be 
answered in writing, so we look forward to that. I look forward 
to working with the Secretary and his people getting this bill 
implemented, and getting the information out to the farmers on 
a timely basis, as timely as we can. Thank you for being here. 
I yield back.
    The Chairman. The gentleman yields back. The chair wishes 
to note also the Secretary's appreciation for the 2 hours and 
45 minutes here, and would note that we are about to adjourn in 
a timely fashion. After 2\1/2\ years of farm bill, I like doing 
things in a timely fashion indeed.
    Secretary Vilsack. Mr. Chairman, if I could, let me close 
by--a number of your colleagues have indicated the 
extraordinary work that you and Congressman Peterson 
individually did on the passage of the farm bill. I would like 
to associate myself with those remarks as well, to acknowledge 
the great work that was done by both of you to get this farm 
bill through, and certainly appreciate the bipartisan nature of 
the work that this Committee is engaged in. It is an example 
not just for this Committee, but it is an example, hopefully, 
for the rest of the Congress, and the country.
    The Chairman. Thank you, Mr. Secretary. Under the rules of 
the Committee, the record of today's hearing will remain open 
for 10 calendar days to receive additional material and 
supplemental written responses from the witness to any question 
posed by a Member. This hearing of the Committee on Agriculture 
is adjourned.
    [Whereupon, at 12:15 p.m., the Committee was adjourned.]
    [Material submitted for inclusion in the record follows:]
 Submitted Letter by Hon. Jim Costa, a Representative in Congress from 
                               California
March 31,2014

    Dear President Obama,

    On this day, marking the birthday of Caesar Chavez, as Bishop of 
the Catholic Diocese of Fresno, I join my brother bishops and other 
Californians of good will to exercise restraint in the use of water as 
an expression of solidarity with those whose livelihood and welfare are 
a risk due to extreme drought conditions. The lack of water is 
impacting everyone: farmers, ranchers, dairymen, their employees, faith 
communities, and the businesses that serve them. The situation is 
quickly deteriorating into a humanitarian crisis.
    Businesses are shutting their doors and others are laying off 
employees. Access for children and families to clean, drinkable water 
is uncertain. Legislators struggle to craft an equitable public policy 
ensuring the state's present and future water needs. Lines at Food 
Banks and Human Service Agencies have doubled due to the issue and in 
fact our Catholic Charities services went from 87,000 units of service 
in 2012 to 137,000 units in 2013. These numbers will double in the next 
year if we don't see a change with the water situation.
    We are reminded in this time of drought of our dependence on the 
Creator. Our human dignity relies on access to water. The creation 
entrusted to us is a common heritage and requires us to work together 
as responsible stewards for the common good, especially mindful of the 
vulnerable. As the economic and health impact of the drought grows, 
those with limited resources will be the first to suffer.
    May I respectfully ask that you read the attached letter * from 
Senator Feinstein and our bipartisan Congressional delegations and take 
action on those recommendations.
---------------------------------------------------------------------------
    * Editor's note: the letter is printed as received.
---------------------------------------------------------------------------
            Sincerely,
            <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
            
Most Reverend Armando X. Ochoa, D.D.
Bishop, Diocese of Fresno.
                                 ______
                                 
Submitted Memo by Hon. James P. McGovern, a Representative in Congress 
                           from Massachusetts
Memo
    To: Republican Members, House Committee on Agriculture
    From: Majority Committee Staff
    Date: March 14, 2014

        Re: Farm Bill Nutrition Savings Estimate

    Committee staff have received questions regarding Section 4006 of 
the Agricultural Act of 2014 (``the Farm Bill'') related to the manner 
in which Low Income Home Energy Assistance Program (LIHEAP) payments 
are treated in the calculation of Supplemental Nutrition Assistance 
Program (SNAP) benefits. Background and explanation on the provision 
can be found in the attached Congressional Research Service (CRS) 
report.\1\
---------------------------------------------------------------------------
    \1\ CRS Report R42591, The 2014 Farm Bill: Changing the Treatment 
of LIHEAP Receipt in the Calculation of SNAP Benefits, by Randy Alison 
Aussenberg and Libby Perl.
---------------------------------------------------------------------------
2014 Farm Bill's Reduction in SNAP Spending
    Section 4006 of the farm bill requires that LIHEAP assistance to a 
SNAP participant must be greater than $20 per year in order to trigger 
the standard utility allowance (SUA) deduction for that household. 
Section 4006 is intended to reduce artificially inflated benefit levels 
in households receiving nominal LIHEAP checks from their respective 
state. The Congressional Budget Office (CBO) estimated that this change 
will reduce SNAP spending by approximately $8.6 billion over the 10 
year budget window of Fiscal Years 2014-2023.\2\
---------------------------------------------------------------------------
    \2\ Congressional Budget Office, Cost Estimate: H.R. 2642: 
Agricultural Act of 2014, January 28, 2014, http://www.cbo.gov/sites/
default/files/cbofiles/attachments/hr2642LucasLtr.pdf.
---------------------------------------------------------------------------
States' Reaction and Effect on Savings
    Seven of the 17 states that currently send nominal LIHEAP checks 
have recently announced that they intend to issue minimum $20 LIHEAP 
checks for this fiscal year to a portion of their SNAP population to 
maintain the artificial benefit levels.
    Various media outlets have reported on the announcements of these 
states. The press reports assume that the change in behavior of these 
states eliminates the savings estimated from the reforms included in 
Section 4006. This is false and fails to recognize CBO considerations 
included in the savings estimate.
    Prior to enactment of the Agricultural Act of 2014, the House 
Committee on Agriculture (``the Committee'') requested that CBO score a 
policy that fully severs the interaction between LIHEAP and SNAP. With 
this policy, a state-sent LIHEAP check of any amount would no longer 
trigger the SUA that allowed for increased SNAP benefits. Instead, 
states would only be allowed to provide an SUA to households incurring 
an actual utility expense. CBO estimated that ending the practice of 
sending households LIHEAP checks of any amount to trigger the SUA would 
save approximately $11.6 billion.\3\
---------------------------------------------------------------------------
    \3\ Congressional Budget Office, Preliminary Cost Estimate, October 
30, 2013.
---------------------------------------------------------------------------
    CBO estimated that the Senate-passed farm bill S. 954 would save 
$4.1 billion with a minimum LIHEAP payment of $10 a year. CBO arrived 
at the $8.6 billion savings estimate by making certain considerations 
about how states would respond to the $20 minimum LIHEAP payment 
required under Section 4006.
    Significantly, the CBO estimate accounted for the following 
considerations:

  <bullet> Raising the minimum LIHEAP payment deters additional states 
        from artificially increasing SNAP benefits.

      The 10 year SNAP baseline assumed that additional states would 
        start issuing nominal LIHEAP checks. By moving the minimum 
        LIHEAP payment to $20, CBO assumed that non-LIHEAP states would 
        maintain the status quo in lieu of shifting scarce LIHEAP 
        resources toward the SNAP interaction.

  <bullet> Some of the 17 states would increase their minimum LIHEAP 
        payment to $20 for some or all of their SNAP beneficiaries. 
        Thus, the decision of these seven states to increase their 
        LIHEAP payment does not affect the CBO estimate.

      As of the date of this memo, seven states have reportedly 
        committed to increasing their LIHEAP payments to $20 for this 
        fiscal year in order to maintain artificially-increased 
        benefits for certain SNAP beneficiaries. While CBO does not 
        provide state level data, CBO's estimate reasons that some 
        states would increase their minimum LIHEAP payment to $20, at 
        least for a portion of their beneficiaries. Thus, the decision 
        of these states to increase their LIHEAP payment does not 
        affect the CBO estimate.

  <bullet> Some states will only continue the increased LIHEAP payment 
        in the near term.

      LIHEAP states have an incentive to meet the $20 minimum in the 
        first few years after passage of the farm bill so that current 
        SNAP recipients will not see a reduced benefit. As current 
        beneficiaries move off of the rolls, states have a reduced 
        incentive to take scarce LIHEAP funding from its intended 
        purpose to increase benefits for a newly certified SNAP 
        participant. Some, or all, LIHEAP states may only continue the 
        $20 minimum LIHEAP payment for a portion of the 10 year 
        baseline.

LIHEAP Funds
    States are using Federal LIHEAP funds to trigger the artificial 
SNAP benefit increase. The CRS reports that ``because of the budgetary 
constraints associated with LIHEAP funds, it seems unlikely that a 
state would give more than $20 to every household that had been 
receiving less than $20, but it is an option that is open to states.'' 
CRS also notes that ``unlike SNAP, LIHEAP is not an open-ended 
entitlement, and funding is not sufficient to assist every household 
that is eligible for the program. In FY 2009, 7.4 million households 
received heating and/or winter crises assistance and 900,000 received 
cooling assistance. The number of households assisted may now be lower. 
FY 2009 was a year in which states received a total of $5.1 billion for 
LIHEAP, compared to about $3.4 billion in FY 2014.'' \4\
---------------------------------------------------------------------------
    \4\ CRS Report R42591, The 2014 Farm Bill: Changing the Treatment 
of LIHEAP Receipt in the Calculation of SNAP Benefits, by Randy Alison 
Aussenberg and Libby Perl, p. 9.
---------------------------------------------------------------------------
    SNAP beneficiaries with an actual utility expense already qualify 
for the SUA and do not benefit from the LIHEAP SNAP interaction. Thus, 
states choosing to provide the $20 minimum LIHEAP payment are diverting 
Federal energy assistance dollars away from citizens with legitimate 
energy needs and the intended use of the program. CRS reports that ``. 
. . the LIHEAP statute provides that states may use LIHEAP funds to 
provide direct assistance to households in several ways: to help meet 
`home energy costs' (defined as heating or cooling), to assist in 
energy crisis situations, for home weatherization, or for services to 
reduce the need for energy assistance such as needs assessment or 
counseling on how to reduce energy consumption. CRS is not aware of the 
way in which states with nominal LIHEAP payments determine whether 
households have need of LIHEAP for the statutory purposes. Payments to 
households that are not provided for one of these purposes could be 
inappropriate.'' \5\
---------------------------------------------------------------------------
    \5\ Ibid, pp. 7-8.
---------------------------------------------------------------------------
                                 ______
                                 
   Supplementary Material Submitted by U.S. Department of Agriculture
Insert 1
          Mr. Neugebauer. Thank you, Mr. Secretary. The other thing is 
        that recently Fish and Wildlife, last week, listed the Prairie 
        Chicken as threatened. I am on the record saying that I don't 
        believe that was necessary. But one of the things I do 
        understand is that supposedly Fish and Wildlife did consult 
        with USDA about this issue. And what I was wondering is did 
        they ask, or did you furnish them any information that would 
        lead them to have information of the economic impact of listing 
        this species, and the hardship or burden that it might place on 
        producers?
          Secretary Vilsack. Congressman, our primary conversations 
        with Fish and Wildlife Service on this particular issue was how 
        we might be able to provide the same kind of regulatory 
        certainty for Lesser Prairie Chicken that we have provided for 
        Sage Grouse. So we have been able to enter into an arrangement 
        with Fish and Wildlife for the benefit of landowners and 
        producers in which we lay out specific conservation practices 
        that, if farmers, pursuant to Natural Resources Conservation 
        Service (NRCS), working with NRCS, adopt these conservation 
        practices, then they don't have to worry about incidental 
        takings, relative to conservation practices, or relative to 
        their operation for a period of 30 years. So our focus has been 
        primarily on trying to figure out ways in which we can mitigate 
        the impact on farming operations.
          I will have to check with my staff as to whether or not 
        economic information was provided, but I know that I did direct 
        the staff to look at ways in which we could create more 
        regulatory certainty for folks who may be impacted by this 
        decision.

    NRCS did not provide data or information related to the economic 
impact of listing of the Lesser Prairie Chicken. The Agency's effort 
was invested in working with FWS to develop a regulatory certainty 
framework for producers who take conservation steps to benefit Lesser 
Prairie Chicken habitat, similar to the approach that has been used 
successfully for Sage Grouse. Under this approach, producers follow the 
suite of conservation practices and then don't have to worry about 
incidental takings related to conservation or operations for a period 
of 30 years.
Insert 2
          The Chairman. . . .
          I want to talk about cotton a little bit, China has, by some 
        reports, a 57 million bale strategic reserve, something on the 
        order of four to five times U.S. production. We are not real 
        sure what they are going to do with it and why, and it has a 
        big overhang on the market that is having some impact. Can you 
        talk to us about what you and the USDA have done to 
        communicate, either directly to the Chinese or to the WTO, our 
        concerns about what they might or might not be doing with 
        respect to their cotton policy, and the high subsidies they are 
        paying?
          Secretary Vilsack. Congressman, I appreciate you bringing 
        this issue to--bringing it up. You know, our conversations with 
        China in the last several years have been focused primarily on 
        their regulatory system and process, and trying to get it 
        better synchronized with ours, in terms of regulatory 
        approvals. If I can ask for your permission, I would be happy 
        to get you a more detailed conversation on what the 
        communications have been relative to cotton in China.
          I can tell you that we have established a China-American 
        business group in China, the purpose of which is to allow us to 
        not only inform the Chinese through official circles, but also 
        to engage Chinese officials and Chinese business leaders in 
        these conversations. But let me get you more information on 
        cotton.

    Over the past year, USDA and the Office of the U.S. Trade 
Representative (USTR) have used the World Trade Organization (WTO) 
Committee on Agriculture (COA) to seek increased transparency on 
China's domestic support policy for cotton and cotton stocks. In 
written questions to China, the United States has pushed for China to 
come up-to-date on its required domestic support notifications. China's 
last notification was for 2008. The United States with the support of 
other WTO members has also asked for information on subsidy measures 
associated with China's price support and management of cotton stocks. 
Most recently, at the WTO COA meeting on March 21, 2014, the United 
States requested that China provide an analysis of the economic impact 
and effects of China's management of cotton stocks. Currently, USDA's 
Foreign Agricultural Service (FAS) and USTR are preparing a response to 
China's submitted analysis provided in late May, which states that 
``China's cotton reserve has limited impact on the world cotton 
market.'' Questions posed by the United States and responded to by 
China are publicly available on the WTO COA website, https://agims-
qna.wto.org/public/Pages/en/Search.aspx. The most recent question and 
response is identified as ID: 73035.
    Recognizing that China's official cotton market information 
collection system lacks reliable data, FAS Agricultural Affairs Office 
in Beijing is following the cotton stock situation closely and has 
reported on changes in policy, starting from the creation of the price 
support program in 2011. Most recently, in April 2014, FAS/Beijing 
published the Cotton and Products Annual Report for China, reporting 
that the government's changes to its cotton production support policy 
for Marketing Year 14/15 narrows eligibility and is expected to lower 
farmer payments and financial incentives for planting. The report is 
available at http://gain.fas.usda.gov/Recent%20GAIN%20Publications/
Cotton%20and%20Products%20Annual_Beijing_
China%20-%20Peoples%20Republic%20of_4-1-2014.pdf.
Insert 3
          The Chairman. . . .
          Let us talk a little bit about the SNAP program, and the able 
        bodied adults of age--under the age of 50 with no dependents. 
        Now that unemployment nationwide has come down to 6.7 percent, 
        can you talk to us a bit about what your plans are to continue 
        granting waivers to states who have asked for those waivers for 
        folks in that category to stay on food stamps beyond the normal 
        3 month category?
          Secretary Vilsack. Mr. Chairman, there is a real opportunity 
        in this area, and, for that matter, the entire SNAP population, 
        to do a better job of connecting work opportunities with folks 
        on SNAP who are interested in working, and who are capable of 
        working. That is why we are excited about the portion of the 
        farm bill that creates the opportunity for us to have up to ten 
        pilots with states to do a better job of connecting. The fact 
        that we have these pilots is going to send a strong message 
        about the important work that states must do a better job of 
        using the education and training money that they have to 
        actually do a better job of getting folks better connected.
          We think there is a disconnect between economic development 
        and workforce development offices at the state level and human 
        services offices. These folks know where the jobs are. These 
        folks know who is looking for a job. For whatever reason, they 
        are not doing a particularly good job of talking. We provide 
        several hundred million dollars to encourage that kind of 
        conversation. We need to do a better job of compelling that 
        conversation.
          We will be happy to take a look at the waiver issue. . . .

    We will communicate with the Committee once we have the results of 
the pilots in 2015.
Insert 4
          Mr. Costa. Thank you very much, Mr. Chairman. I want to thank 
        the Secretary for his good work, and his staff. Speaking of 
        which, I want to acknowledge that one of your staff members who 
        is departing used to work for many of us here in the House 
        Agriculture Committee, and that is Ann MacMillan, and we wish 
        her the very best in her future endeavors, Mr. Secretary.
          Your opening statement talked about the good, and the bad, 
        and the challenges American agriculture faces. On the plus 
        side, you noted that record profits, due in large result to 
        trade activity, has been occurring throughout American 
        agriculture. Have you done any evaluations, the Department, on 
        what the benefits would be if the TTIP, the trade negotiations 
        between ourselves, and the Europeans, and the TPA, were to be 
        successfully negotiated?
          Secretary Vilsack. Well, we are confident that it would 
        substantially increase trade activities, Congressman. I can get 
        you the specific dollar amounts.

    A TTIP agreement that delivers meaningful market access would 
provide a significant boost to U.S. exports and the rural economy. U.S. 
agricultural exports to the European Union are now projected to be $12 
billion for FY 2014, a figure that can and should be much higher, but 
is hindered by EU tariffs and non-tariff barriers.
    The EU imported nearly $135 billion of agricultural products from 
global sources in 2013, up more than 150 percent from 2000. Yet, U.S. 
agricultural exports to the EU grew by only 82 percent during this 
period while our exports to the world grew by 181 percent. The EU's 
average agricultural tariff is 30 percent, while the average U.S. 
agricultural tariff is only 12 percent. The Administration is seeking 
in TTIP to eliminate tariffs on exports. Through the TTIP we are 
seeking commitments from the EU to eliminate or reduce non-tariff 
barriers, such as unwarranted sanitary and phytosanitary (SPS) 
restrictions, unjustified technical barriers to trade (TBT), and other 
``behind-the-border'' barriers, including the restrictive 
administration of tariff-rate quotas and permit and licensing barriers, 
which impose unnecessary costs and limit competitive opportunities for 
U.S. exports. The dollar value of the benefits of a TTIP agreement will 
hinge on how rapidly tariffs fall and non-tariff barriers are 
dismantled, clearing the way for increases in U.S. agricultural 
exports.
Insert 5
          Mr. Crawford. Thank you. And, finally, H.R. 933, Continuing 
        Appropriations Act of 2013, was signed over a year ago. Had 
        some language in it, Section 742, that required USDA to rescind 
        sections of the original GIPSA rule, having to do with the 
        suspension of delivery of birds, and with making the rule 
        applicable to live poultry. The Department was required to 
        rescind those within 60 days, and it is my understanding that 
        hasn't occurred yet. Can you give me an idea when that is going 
        to be completed?
          Secretary Vilsack. I will have to get back to you on that, 
        Congressman. I don't know.

    At the present time, there are no plans to rescind those 
regulations.
Insert 6
          Ms. Lujan Grisham. . . .
          In June of last year the Forest Service conducted a civil 
        rights compliance review that included Region 3 in New Mexico, 
        and found that they were non-compliant with several civil 
        rights requirements. Now, the report detailing these findings, 
        and suggested corrective actions to be taken, directs the 
        Forest Service to develop a detailed corrective action report, 
        within 60 days of the receipt of the report. It states that the 
        plan must also include any progress made in these areas since 
        the review. Can you provide me with any updated information 
        related to both the corrective action plan, and progress to 
        date on implementing, and going through those review processes?
          Secretary Vilsack. Congresswoman, I would be happy to have 
        our team and our staff provide you with details. So, if you 
        don't mind, I am going to answer your question a bit more 
        generically and generally.

    Civil rights compliance reviews are part of USDA's ongoing effort 
to determine how well its programs and activities are being conducted 
and to help ensure that they are available to all communities in a fair 
and even-handed manner pursuant to law. We view the compliance review 
as an opportunity to better serve our constituents.
    The Forest Service has been working in collaboration with in the 
Office of the Assistant Secretary for Civil Rights within USDA to 
implement solutions to the areas of improvement noted in the review. 
Importantly, the Forest Service is engaged in an extensive, long term 
effort to update handbooks and manuals regarding grazing permits, and 
is committed to working with the Hispanic ranching community as well as 
other stakeholders during this process. Regional leadership is engaging 
with local stockman's associations and listening to their concerns. In 
addition, FS has undertaken several intiatives designed to improve 
service such as civil rights training for FS regional staff, technical 
training for customers, and the development of a Forest Service plan to 
address customers with limited English proficiency. FS will continue to 
work with the Office of the Assistant Secretary for Civil Rights to 
ensure better program delivery and equal access to FS programs.
    Other accomplishments to date:
    Program Delivery (Title VI) Training has been conducted to the 
following regional staff areas:

  <bullet> Regional Civil Rights Committee, which are FS employees 
        representing the 11 Forests within the region. (c. May 28, 
        2014)

  <bullet> Special Emphasis Program Mangers and Civil Rights Action 
        Group Members, Coronado National Forest. (c. March 12, 2014)

  <bullet> Recreational Staff, Coronado National Forest, Special Uses 
        Permit, 101 Training (c. April 10, 2014)

    Region 3 (New Mexico and Arizona Forests) leadership is also 
working to develop strategies and action plans as necessary to address 
the issues identified in the CR compliance review. Plans will include 
identifying training needs for program managers, field leaders and the 
public.
Insert 7
          Mr. LaMalfa. Thank you so much. Jumping to forestry, I mean, 
        in California, that old saying, you can't see the forest 
        through the trees, got too dang many trees. So we need to get a 
        lot more yield out of our forests. One of our units up there in 
        the northeast, they had, as an original goal, 32 million board 
        feet. I hear now they are only going to come up with 12 million 
        board feet in this year. A couple of my colleagues did mention 
        board feet, and yield, and all that, and we need a lot more 
        help. We need a lot more help on the salvage side of it too, 
        where we have frustrated vendors out there, foresters that 
        would like to get after salvage. . . .
          So I throw all these things out as--could you help us clarify 
        a little bit later too on where the authorization really lies 
        to make the decisions on the forest units? Is it in California, 
        in Vallejo, or is it in Washington, D.C.?
          Secretary Vilsack. Well, I know that in D.C. we basically set 
        a goal, and, as I indicated earlier, I track it on a monthly 
        basis. I am under the assumption that these decisions are not 
        made in D.C. In terms of specifics, they are made at a much 
        more local level, but I want to verify that, and make sure that 
        I am giving you correct information.

    The national and regional offices provide policy direction and 
targets for a variety of restoration work activities, including timber 
volume sold. The environmental analysis and the decision memos that 
lead to individual timber sales and stewardship contracts are typically 
completed and signed at the National Forest level.
                                 ______
                                 
                          Submitted Questions
Response from Hon. Thomas ``Tom'' J. Vilsack, Secretary, U.S. 
        Department of Agriculture
Submitted Questions by Hon. Frank D. Lucas, a Representative in 
        Congress from Oklahoma
    Question 1. Last week the EPA released its ``waters of the U.S.'' 
proposed rule. Within that rule the EPA has issued an ``interpretive 
rule'' to ``clarify'' that a long list of conservation practices are 
exempt from ``dredge and fill'' permit requirements under the Clean 
Water Act section 404 exemption for ``normal'' farming and ranching 
activities--so long as the practices comply with NRCS standards. So as 
I understand it, a farmer only qualifies for any one of these 
exemptions if the farmer follows NRCS standards. Is that correct?
    Answer. The proposed rule preserves all existing agricultural 
exemptions under the Clean Water Act. The interpretive rule clarifies 
the scope of the existing statutory exemption found in section 
404(f)(1)(A) of the Clean Water Act. Under the interpretive rule, 56 
conservation practices do not require a Clean Water Act Section 404 
permit when occurring in waters of the U.S., if they are implemented in 
accordance with NRCS conservation practice standards. The corresponding 
NRCS conservation practice standards provide guidelines for 
implementation of those practices, which ensures that these 
conservation activities meet the intent of protecting and enhancing 
water quality.

    Question 1a. Will it be NRCS or the EPA who will inspect each 
farming operation who claims this conservation exemption?
    Answer. The conservation practices identified in the interpretative 
rule will be treated the same as all other long-standing agricultural 
exemptions under section 404 of the Clean Water Act; there is no 
requirement for approval, notification, or inspection, prior to 
installing the conservation practice nor is there a requirement for 
verification of the installed practice.
    The EPA and the Army/Corps will not seek out operations that may 
have performed exempt activities; however, they may respond to 
notifications or reports of potentially unauthorized non-exempt 
activities.

    Question 1b. If a farmer does not follow an NRCS standard, is that 
farmer violating the law and subject to a $37,500 per day fine?
    Answer. Under the interpretative rule, the identified conservation 
practices do not require a CWA Section 404 permit when they occur in 
waters of the U.S., if they are implemented following NRCS conservation 
practice standards. Failure to follow the requirements of the CWA 
exemption is a violation of the CWA. The agencies' intent is to work 
with farmers to help them meet applicable standards and to correct any 
problems that may develop--not to seek fines.

    Question 1c. Will farmers be subject to the citizen suit provision 
of the Clean Water Act for alleged failure to comply with NRCS 
standards?
    Answer. The interpretative rule does not modify the scope of rights 
afforded to citizens under Section 505 of the Clean Water Act.

    Question 2. What role will the EPA and Army Corps of Engineers have 
in future revisions of these standards?
    Answer. The development, review, and revision of conservation 
practice standards are the sole responsibility of USDA/NRCS. NRCS 
develops these standards to guide its work with farmers, ranchers, and 
forest landowners in conserving natural resources in balance with a 
productive agriculture. In accordance with the Memorandum of 
Understanding that guides how the three agencies will cooperate in 
implementation of the interpretive rule, NRCS will meet with the EPA 
and the Army/Corps annually to discuss appropriate adjustments to the 
list of practice standards exempt from CWA section 404 permitting.

    Question 3. Is it true that any--or all--of these ``exemptions'' 
can be changed, curtailed or even eliminated by NRCS without notice to 
the public and without public input?
    Answer. NRCS reviews its existing conservation practice standards 
on a rolling schedule and the standards are subject to a public process 
including a public notice and comment period through the Federal 
Register.

    Question 3a. How does that compare to current law? Must a farmer 
currently meet NRCS standards to qualify for `normal' activities that 
are exempt under Sec. 404?
    Answer. Under current law, normal farming activities, such as 
plowing, cultivating, minor drainage, and harvesting for the production 
of food, fiber, and forest products, or upland soil and water 
conservation practices are exempt when they are part of an established, 
on-going farming operation and do not change the use of waters and 
impair the flow or circulation or reduce the reach of waters.. The 
interpretive rule clarifies the scope of the normal farming exemption 
to include conservation activities occurring in waters of the U.S.

    Question 3b. Could you please tell the Committee--or submit for the 
record--the process by which NRCS establishes these standards, what 
input farmers have in their development, and what happens if farmers 
disagree with NRCS?
    Answer. The NRCS conservation practice standards are science-based, 
drawing upon agricultural, academic, and practitioner input. NRCS 
reviews its existing conservation practice standards on a rolling 
schedule. The standards are subject to a public notice and comment 
process through the Federal Register to ensure opportunity for input. 
Final standards reflect public comment and the best science--basic and 
applied--at the time. Following these standards is voluntary; farmers 
may obtain a permit for activities regulated under Section 404 of the 
CWA if they do not want to follow the conservation practice standards.

    Question 3c. What role will the EPA and Army Corps of Engineers 
have in future revisions of these standards?
    Answer. EPA and Army Corps may provide input on NRCS conservation 
practice standards through the public process along with other 
commenters; however, the development, review, and revision of 
conservation practice standards remain the sole responsibility of NRCS.

    Question 4. Exemption No. 382 on the list says simply ``fence.'' Am 
I correct in concluding that a farmer must build a fence on his 
property according to the way NRCS says it must be done, otherwise that 
farmer no longer qualifies for the conservation exemption and is then 
subject to penalties under the Clean Water Act?
    Answer. The agencies believe that in the vast majority of 
circumstances, fencing does not require a CWA permit and therefore the 
404(f) exemption is unnecessary and construction of fences is not 
subject to enforcement. In the unusual case where construction of a 
fence is subject to the statute, no permit is needed if the fence is 
built in accordance with the conservation practice standard.

    Question 5. Section 404(f) states in part that ``the discharge of 
dredged or fill material . . . from normal farming, silviculture, and 
ranching activities such as plowing, seeding, cultivating, minor 
drainage, harvesting for the production of food, fiber, and forest 
products . . . is not prohibited by or otherwise subject to regulation 
under this section.'' Of course, there is also the `recapture' 
provision which takes away those exemptions if there is a change of 
use. But my question is this: How can you read Section 404(f) and 
arrive at the conclusion that the Clean Water Act authorizes EPA to 
fine farmers $37,500 per day if they do not follow Federal fence-
building requirements?
    Answer. In the vast majority of circumstances, fencing is not 
expected to involve a discharge of dredge and fill material and does 
not require a section 404 CWA permit and would not be subject to 
enforcement. In the unusual case where construction of a fence is 
subject to the statute, no permit is needed if the fence is built in 
accordance with the conservation practice standard.

    Question 6. The agreement you have with EPA on NRCS practices only 
impacts 404 permits correct? Producers will still need 402 permits for 
any spray drift that touches any ditch or stock pond because your 
Administration's agencies have made them Federal waters, isn't that 
true?
    Answer. The proposed rule is not expected to alter the scope of 
waters, including ditches and farm/stock ponds, subject to the CWA. As 
a result, the agencies do not expect to see any significant change in 
waters on agricultural lands subject to the 402 program.

    Question 7. What agency will spot check and enforce the NRCS 
Standards on these ``exemptions''? Does NRCS have the staffing and 
budget for this role?
    Answer. This exemption is treated the same as other long-standing 
agricultural exemptions under section 404 of the Clean Water Act. There 
is no requirement for approval, notification, or inspection prior to 
installing the conservation practice, nor is there a requirement for 
verification of the installed practice. NRCS does not have a Clean 
Water Act enforcement role. The EPA and the Army/Corps will not seek 
out such operations which may have performed exempt activities; 
however, they may respond to notifications or reports of potentially 
unauthorized non-exempt activities.

Submitted Questions by Hon. Collin C. Peterson, a Representative in 
        Congress from Minnesota
    Question 1. Do you have a timeline for when the education and web 
tool funds provided in title I of the farm bill will be available to 
extension and land-grant economists and specialists?
    Answer. On May 29, USDA announced the University of Illinois (lead 
for the National Coalition for Producer Education [NCPE]), along with 
the Food and Agricultural Policy Research Institute (FAPRI) at the 
University of Missouri and the Agricultural and Food Policy Center 
(AFPC) at Texas A&M (co-leads for the National Association of 
Agricultural and Food Policy [NAAFP]), will receive a total of $3 
million to develop the new online tools and train state-based extension 
agents who can in turn help educate farmers.
    USDA also announced on May 29 that it will also award $3 million to 
state cooperative extension services--a nationwide network of experts 
based at land-grant universities--for outreach and education on the new 
farm bill programs. Funds will be used to conduct public education 
outreach meetings where producers can speak with local extension agents 
and Farm Service Agency (FSA) staff. Outreach meetings will begin late 
this summer to help farmers and ranchers understand the new programs 
and their options.

    Question 2. Do you have a timeframe yet for when you may start the 
rulemaking on updating the actively-engaged rule in regard to 
management?
    Answer. USDA intends to publish the proposed rule by the end of 
2014.

    Question 3. FSA computers--With passage of the farm bill and 
changes to current programs, it will be vital for FSA county offices to 
be able to handle the workload. With that in mind, could you please 
give me details on the much needed upgrades to FSA's computer system, 
or ``MIDAS'', and the reception of the improvements in field offices? 
Have there been any bumps in the road?
    Answer. The two remaining business applications on the 1980s-era 
AS/400 systems, the Marketing Assistance Loans (MAL) application and 
the Farm Storage Facility Loans (FSFL), are scheduled to be modernized 
to the web by 2015, allowing for the previous hardware to be 
decommissioned.
    MIDAS seeks to modernize the current system, in which our 2,175 
state and county offices and the 9,000+ employees in them utilize 
multiple systems when dealing with producers who come into the county 
offices and move between systems (e.g., on the AS400, the web systems, 
mainframe systems, GIS systems, etc.) to enroll producers into 
programs. Prior to MIDAS going live with its first release last year, 
county office employees used hard copies of farm maps to work with the 
producers on acreage volumes/content, as well as perform a great deal 
of manual processes in these activities. Once MIDAS deployed its first 
release, Farm Records, in April 2013, which established foundational 
data and processes allowing field offices to update farm, producer, and 
Common Land Unit records and prepare for taking acreage reports, it 
provided county office employees a consolidation visualization of the 
farm, eliminating the reliance on paper maps. The deployment also 
included farm records with GIS integration, producer information, and 
common commodity data. FSA has also completed the consolidation of 
geospatial data into a centralized database, eliminating dependency on 
outmoded servers and extending the GIS functionality for FSA's service 
center personnel. Together, GIS modernization and MIDAS enable FSA to 
enhance program delivery and support, allow for timelier implementation 
of programs, and allow for the integration of geospatial data with 
business operations.
    While it is common for a temporary decrease in operational 
performance to occur with the implementation of most new technologies, 
concerns experienced by users with the Farm Records release have 
largely been addressed, and by polling the information technology and 
field office staff, we know they are generally positive about the 
current release and upcoming MIDAS releases.
    Since the deployment of Farm Records last year, we have been 
reworking our vision for MIDAS. While we are still finalizing this 
vision, we anticipate future releases will include functionality for 
acreage and inventory reporting, customer self-service, streamlined 
creation and maintenance of producer information and maintenance of 
historical information and report capabilities. This will provide 
farmers and ranchers with the opportunity to access their records 
online and to manage their farming operation information using the 
Internet anytime and anywhere. MIDAS will also streamline acreage and 
inventory reporting for both customers and staff, and enable data-
sharing across programs, agencies, and offices, greatly simplifying the 
administration of these programs. When completed, our vision is that 
MIDAS will provide a `single view' of producer data, bridging system 
related activities behind the system, so producers' crop and acreage 
reports, farm records and `maps', or the geospatial views of their 
farms are combined with their farm information.

    Question 4. Office of Civil Rights--I continue to hear concerns 
about your Office of Civil Rights. Please provide a picture of the 
status of civil rights claims pending in that office, including an 
accounting of claims pending or that have reached the statute of 
limitations under the Equal Credit Opportunity Act.
    Answer. In 2009 USDA had an inventory of 1,718 employment 
discrimination complaints. Today, the Office of the Assistant for Civil 
Rights (OASCR) has reduced its inventory to 1,119: 681 of these 
complaints are in abeyance pending a decision by the Equal Employment 
Opportunity Commission. USDA has led the Federal government in 
enforcement through administrative findings in each of the last 4 years 
and brought the ratio of complaints per employee below the Federal 
average.
    In 2009, USDA faced a backlog of thousands of complaints of 
discrimination in USDA programs. The inventory had not been organized 
to safeguard complainants' rights to file in court. Many contained 
claims under the Equal Credit Opportunity Act (ECOA), and USDA faced 
the risk that the ECOA statute of limitations would expire before 
complaints could be resolved on a daily basis. Today, OASCR has 
resolved all but 356 program civil rights complaints. USDA carefully 
tracks all open complaints against the statute of limitations to ensure 
that complaints are resolved before it expires. The statute of 
limitations has not expired on any program complaint since 2010.
    OASCR's inventory includes 112 complaints on which the statute of 
limitations expired. OASCR continues to pursue options to provide a 
fair and consistent framework for addressing these complaints.

    Question 5. FSA offices--There is a lot of concern about the 
possibility of FSA county office closures. I have read that you don't 
anticipate any closures this year. Do you have any more details you can 
share on the ``spoke and hub'' concept that we are hearing about?
    Answer. FSA is working to develop a new service delivery concept to 
restructure and modernize how FSA services are provided to farmers and 
ranchers. The concept proposes to classify each of FSA's county offices 
as central, branch, or satellite, based on service needs and available 
resources. FSA will be sharing additional details of this concept as 
they become available.

    Question 6. When will you be able to share your plans for this 
effort with Members of Congress?
    Answer. As required by the 2008 Farm Bill, plans will be shared 
with Members of Congress before announcing a new policy.

    Question 7. Are you going to work with your State Executive 
Directors and county office and credit employees, along farm and 
commodity groups in each state on how best to ``right size'' FSA and 
still provide adequate service in the field?
    Answer. Yes, FSA has created an advisory group of its State 
Executive Directors, and has solicited information from its employee 
association stakeholders on the Model Service Center concept and 
implementation strategies.

    Question 8. USDA field offices--With anticipated office closures, 
either in FSA or in Rural Development offices, what is the 3 year 
picture at USDA for downsizing in both field locations and employee 
numbers?
    Answer. During the last several fiscal years, reductions in 
appropriations for salaries and expenses have led to significant 
reductions in personnel and administrative expenditures for both FSA 
and RD. Through staff attrition, voluntary early retirements and buyout 
programs since 2010, FSA has eliminated more than 3,000 staff, or a 20 
percent reduction and RD has decreased their workforce from over 6,000 
in 2008 to less than 4,800 in 2014. The FY 2015 budget proposes closing 
or consolidating 250 offices. This level assumes continued reductions 
in appropriations for salaries and expenses, as evidenced in previous 
years, and a shift in workload activity. No office closure plan has 
been approved at this time, however, and FSA has not compiled a list of 
specific offices to close.
    Given significant decreases in staffing levels over the past few 
years, RD is also in the process of evaluating whether or not to close 
or consolidate offices. To date no approvals have been granted for 
office closures or consolidations. RD will continue to collaborate with 
state leadership, employee associations, and stakeholders to maintain 
efficient delivery of our programs while taking into account the need 
to modernize and align staffing levels with, program delivery and 
available resources.

    Question 9. NASS Reporting--Given budget constraints, NASS had to 
suspend some reporting that was critical to the livestock industry. 
What is the current status of that reporting? Is NASS doing anything to 
refocus their efforts on critical reports?
    Answer. In an effort to meet stakeholder needs, NASS works 
diligently to identify opportunities to provide data to support the 
agricultural industry. Many programs were suspended during fiscal year 
2013, including many critical to the livestock industry. Of the seven 
programs suspended, five have been restored. Specific program level 
updates are included below.

          NASS Catfish Processing: After a period of stakeholder input, 
        it was decided this report would not be restored.
          Catfish Production: In February 2014, the Annual Catfish 
        Production report was issued, and in July 2014, the July 
        Catfish Production will be issued.
          Catfish Feed Deliveries: After a period of stakeholder input, 
        it was decided this report would not be restored.
          Trout Production: In March 2014, the Annual Trout Production 
        report was issued.
          July Cattle Report: The survey program was restored and July 
        Cattle report will be issued in July 2014.
          Mink Program: The survey program was restored and the annual 
        Mink report will be issued in July 2014.
          Milk Production: The survey program was restored and full 
        Milk Production report was restored in fiscal year 2014.

    Question 10. NASS Reporting--NASS releases preliminary data before 
the final month prices are available, given the volatility in the 
market place, should those reports continue? Would NASS efforts be 
better focused on releasing price information on a timelier basis?
    Answer. In an effort to evaluate the Price Program, NASS embarked 
on a ``Voice of the Customer'' initiative to listen to data users' 
concerns. As part of this initiative, NASS has found that data users do 
not find preliminary prices useful in projecting full month prices. 
This is particularly difficult during times of volatile price movement. 
Preliminary prices represent spot market prices collected around the 
15th of the month for some commodities or sales transactions during the 
first two weeks of the month for others. As a result of this 
initiative, NASS will eliminate preliminary prices beginning with the 
January 2015 monthly Agricultural Prices report. The methodology for 
producing commodity prices will remain unchanged. The indexes will be 
based solely on full month prices and will lag 1 month. The elimination 
of preliminary prices allows the Agricultural Prices report to be 
released a few days earlier in the month, since significant price data 
are not available until later in the following month. The release of 
the January report will remain on the last business day, as mandated by 
law.

    Question 11. NASS Reporting--Are we facing a situation where 
private companies may end up having more and better data regarding 
agricultural production in the U.S. than the Federal Government? Is 
this a concern, and are there discussion underway on how to increase 
the quality of NASS' data?
    Answer. NASS forecasts and estimates have always been subject to 
question by those that use the data. This happens primarily when the 
NASS results do not match what is expected. These expectations can be 
based on many factors, however each individual entity has their own 
biases and motives affecting their opinions. NASS provides the only 
unbiased estimates, based on the most comprehensive data source 
available.
    NASS takes these and all concerns very seriously and evaluates all 
estimating programs on an ongoing basis to ensure that all processes 
and procedures are statistically reliable and utilize the best methods 
possible.
    NASS continues to provide the most comprehensive, unbiased 
estimates available within the agriculture industry. These estimates, 
though sometimes scrutinized, remain the ``gold standard'' against 
which all other estimates are measured. As new technologies emerge and 
various industries evolve, NASS will continue to adjust and adapt as 
necessary to maintain the best data available in service to U.S. 
agriculture.

    Question 12. Office of Advocacy & Outreach--The Office of Advocacy 
and Outreach was created to serve a varied but growing--and 
increasingly important--sector of agriculture. Can you please tell me 
if you feel it is meeting the needs of small, beginning, veteran, and 
minority producers, especially given the increasing budget pressure on 
USDA?
    Answer. The Office of Advocacy and Outreach (OAO) is committed to 
accomplishing its mission of meeting, the needs of small, beginning, 
veteran and minority producers (subject groups) in light of current 
budget challenges. OAO works across all USDA agencies in a coordinated 
approach to provide outreach, training and education to the subject 
groups. OAO has built relationships with numerous community-based and 
agricultural organizations to carry out its mission. OAO participates 
in numerous outreach conferences and meetings throughout the country. 
OAO hosts USDA Partners and Outreach Coordinator Meetings encouraging 
dialogue between the subject groups and partners, stakeholders and USDA 
officials. Below are some specific actions OAO takes to further this 
mission:

  <bullet> Provides oversight and coordination with the Beginning 
        Farmers and Ranchers Advisory Committee, as well as the 
        Minority Farmers Advisory Committee, providing recommendations 
        for the Secretary to improve service to small, beginning, 
        veteran and minority producers.

  <bullet> Manages the Minority Farm Registry in an effort to improve 
        communications with registrants.

  <bullet> Provides oversight and management of the REGStats system to 
        demonstrate transparency on the utilization of farm-related 
        programs by race, ethnicity and gender.

  <bullet> Collaborates with other Federal agencies and non-
        governmental organizations in an effort to provide education 
        and outreach to our constituents through Memoranda of 
        Understanding (MOUs).

  <bullet> Manages USDA's customer service line.

  <bullet> Serves as the lead on the Small and Beginning Farmers 
        Working Group.

  <bullet> Enforces the requirement for completing the USDA Cross 
        Training course to ensure field staff is equipped with 
        knowledge to effectively assist customers in USDA Service 
        Centers.

    In addition, OAO is working to implement two provisions of the 2014 
Farm Bill: Receipt for Service, in coordination with FSA, NRCS, and RM, 
and the Outreach and Assistance for Socially Disadvantaged and Veteran 
Farmers and Ranchers Grant Program under section 2501 of the Food, 
Agriculture, Conservation, and Trade Act of 1990.
    Our fostered partnerships formed with internal and external 
officials serve as the mouthpiece for providing feedback to USDA 
agencies on issues of concern from these groups. This has been an 
effective means of increasing equitable access to all USDA programs and 
services.

    Question 13. ``Rural Corps''--Your FY15 budget talks about a 
``Rural Corps'' to put economic development staff in the field to focus 
on ``high-need'' areas. Can you elaborate on this concept and what you 
consider to be ``high-need'' areas?
    Answer. In total, the budget proposes 250 additional staff years 
for Rural Development in FY15. Of this total, approximately 100 would 
fill portfolio management and other core functions in the national 
office. The remaining 150 staff would be located in the field. Of the 
150 placed in the field, a very small number--no more than 50--would be 
part of the proposed 21st century workforce pilot called Rural Corps.
    This pilot would test ways of

    (1) Serving high-need areas, like the Delta, Appalachia, the 
        Southwest Border, and Indian country.

    (2) Modernizing Rural Development' field structure to suit a 21st 
        Century workforce and to reflect the changing dynamics of rural 
        America, new technology, and the deep challenges in areas of 
        persistent poverty.

    (3) Leveraging federal investments through increased coordination 
        among Federal; state, local, private, and nonprofit partners; 
        and

    (4) Building a modern workforce that is mobile, flexible, 
        responsive, outcome-oriented and accountable.

    This new staff would deliver technical assistance and coordinate 
and leverage resources from all Federal agencies. These 
responsibilities would differ in a few key ways from the 
responsibilities of current Rural Development employees.
    For example, most Rural Development staff who work in State, Area, 
and Field offices are hired for a very specific and relatively narrow 
set of duties. In many offices more than 50-60% of staff work 
specifically and exclusively on Rural Housing Service loans, loan 
guarantees, and Multi-Family housing programs. In a state with 50-60 
employees, this means approximately 30 people are doing housing work 
and ten are running Rural Development's other programs, including 
community facilities, water/wastewater, business, and energy programs.
    To better serve and meet the needs of rural communities and to do 
more to respond and support locally-identified to the economic 
development priorities, staff who are part of Rural Corps would be 
selected for a different and broader skill set. For example, Rural 
Corps staff might be selected for expertise in community planning or 
economic development, and be cross-trained to understand resources and 
opportunities across USDA and across the Federal Government, as well as 
in the state and region where they work.
    As you noted, Rural Development is particularly interested in 
serving areas of high need, so in determining locations for this pilot, 
we would look to areas of low income and persistent poverty.
    Persistent poverty counties are those where 20% or more of the 
county population has had poverty level household incomes for the past 
30 years. Because counties vary so much in size and population, Rural 
Development is also making use of census tract data to identify areas 
of high need.

    Question 14. Microloans--You have announced that a number of 
changes that were made in the farm bill to FSA credit programs are now 
effective. On microloans, is the $50,000 limit included in the statute 
in place? If not, when will it become effective?
    Answer. The limit for microloans remains in place at this time; the 
rulemaking process is required to increase the limit from $35,000 up to 
$50,000, a process that is expected to be completed in the fall of 
2014.

    Question 15. Microloans--When will the microloan relending pilot be 
up and running?
    Answer. Evaluation of the feasibility of this project is 
continuing. Loans made under this authority would be the responsibility 
of the third party lender, who then would be subject to the loan 
eligibility and servicing requirements required by statute. At this 
time, it is not clear whether, given the complex requirements involved, 
a pilot could be effectively utilized, or whether the Agency should 
instead focus efforts on alternative approaches through pilot authority 
to reach urban and other underserved areas and sectors with microloans.

    Question 16. CRP sign-up--Are you planning on a general 
Conservation Reserve Program (CRP) sign-up in Fiscal Year 2014? If not, 
are there plans to do an extension of contracts expiring on September 
30th of this year?
    Answer. USDA has announced plans to offer a 1 year extension for 
expiring contracts in lieu of a general sign up in Fiscal Year 2014.

    Question 17. CRP early out--The farm bill allows the Secretary to 
allow for existing contracts that have been in CRP for 5 years to take 
an early out option in FY15. How soon will landowners be able to 
utilize this option?
    Answer. Section 2006 of the Agricultural Act of 2014 requires the 
Secretary to offer producers the opportunity for early termination of 
CRP contracts in FY 2015 if the contracts have been in effect for at 
least 5 years. The following are excluded by statute from the early out 
provisions: filter strips, windbreaks, and shelterbelts; wetlands; land 
with an erodibility index greater than 15; land devoted to hardwoods 
trees; special habitat acreage; farmable and restored wetlands; land 
that contains diversions and other control structures; land located 
within designated wellhead protection areas; land within an average 
width of perennial streams or permanent water bodies; and, land in 
CREPs. Producers who exit their contracts may continue to keep the land 
in grass or plant crops, subject to conservation compliance 
requirements. USDA plans to provide further information on this option 
later this summer.

    Question 18. CRP early out--I realize the statute directs you to 
allow for the early outs in FY15, but with the other additional 
authority to allow land prep in the last year of a CRP contract, I 
think participants in some northern regions of the country are hoping 
that might allow them to be able to work the land yet this year in 
preparation for planting a 2015 crop. Will this be possible?
    Answer. USDA is aware of this interest among some participants and 
recently announced that producers will have the opportunity to sign-up 
this summer for early outs in FY 2015. Details on this sign-up are 
expected this summer to allow producers to prepare for a 2015 crop.

    Question 19. Compliance + Sodsaver--When should we expect to see 
rulemaking further clarifying conservation compliance relinkage with 
crop insurance as well as the changes to the crop insurance program and 
NAP required under the Sodsaver provision in the farm bill?
    Answer. For conservation compliance, USDA plans to amend crop 
insurance policies effective for the 2015 reinsurance year (July 1, 
2014-June 30, 2015) to inform every policyholder of the new 
conservation compliance requirements, and publish a rule (7 CFR, part 
12) late this summer to provide the details involved with connecting 
conservation compliance with crop insurance. Under Section 2611 of the 
Agricultural Act of 2014, the Secretary shall use existing processes 
and procedures for certifying compliance with the conservation 
compliance provisions for crop insurance purposes. Therefore, RMA plans 
to use the same processes that FSA has used since enactment of the 1985 
Food Security Act. A Fact Sheet and Frequently Asked Questions will be 
published to assist in educating producers.
    For program changes and impacts relating to the tilling and 
production of annual crop on native sod acreage, known as ``Sodsaver,'' 
regulations are expected to be published by June 30 and will be 
applicable to most crops for the 2015 crop year. In addition, program 
procedures and training will follow shortly thereafter.

    Question 20. Cellulosic--There has been a lot of press lately about 
cellulosic ethanol and how there isn't enough production to meet even 
lowered targets. However, it is my understanding that there are several 
projects underway that will start producing cellulosic ethanol this 
year. Are you aware of the status of the POET and DuPont plants in Iowa 
and the Abengoa plant in Kansas?
    Answer. At this time, USDA is not playing a financing role in any 
of the plants listed.

    Question 21. RESPA--The farm bill established separate authority 
for the Rural Utility Service to work with local electric co-ops to use 
on-bill financing to encourage their customers to undertake energy 
efficiency upgrades. Can you tell us when the RESPA authority will be 
available? Does it need new funding?
    Answer. The 2008 Farm Bill added energy efficiency and conservation 
as explicit purposes for which RUS could make and guarantee loans. RUS 
issued a Final Rule implementing this authority in December 2013. The 
RESPA provision in the 2014 Farm Bill is similar in many respects to 
the Energy Efficiency and Conservation Program RUS recently began 
implementing under that new rule. The key difference between the RESPA 
provision and the RUS Energy Efficiency and Conservation Loan Program 
is the RESPA provision's zero interest rate loan feature. This major 
feature would require budget authority to implement and none has been 
appropriated.

    Question 22. There has been some criticism of work being done on 
climate change by the Administration. Can you tell the Committee what 
USDA's role has been in the Administration's efforts on mitigation?
    Answer. USDA continues to support voluntary, incentive driven 
approaches to cutting emissions using the tools available in farm bill 
conservation programs. These programs can help farmers and ranchers 
reduce emissions through actions they are already taking such as 
improved nutrient management, on-farm energy efficiency and other 
conservation measures. Specifically, USDA has been involved in the 
President's Climate Action Plan in the following ways:

  <bullet> USDA has invested in more than 6,600 projects from 2009-2012 
        to help thousands of rural small businesses, farmers, and 
        ranchers improve their bottom line by installing renewable 
        energy systems and energy efficiency solutions that will 
        generate and save enough energy to power 680,000 homes 
        annually. Recently, Secretary Vilsack announced a new $250 
        million loan program aimed at helping rural utilities finance 
        energy efficiency and renewable generation investments for 
        producers and rural communities.

  <bullet> USDA has also entered into a unique partnership with the US 
        Center for Dairy Innovation to voluntarily reduce the 
        industry's methane emissions from dairy cows and to increase 
        the adoption of methane digesters. To date, USDA investments 
        have supported over 80 anaerobic digesters to help farm 
        operations produce electricity from captured methane. While 
        only roughly 200 U.S. farms currently operate digesters, 
        according to EPA estimates, there are approximately 8,200 dairy 
        and hog farms nationwide that could successfully operate a 
        digester. Under the President's Climate Action Plan, USDA and 
        the dairy industry are working to develop a Biogas Roadmap to 
        broaden incentives for greenhouse gas reductions.

  <bullet> In an effort to more effectively mitigate climate-related 
        risks, USDA announced in February 2014 the establishment of 
        seven regional hubs for risk adaptation and mitigation to 
        climate change. These Hubs will deliver science-based knowledge 
        and practical information to farmers, ranchers and forest 
        landowners on a regional basis to support decision-making 
        related to climate change. The Hubs will develop and 
        communicate voluntary, science-based solutions for our nation's 
        farmers, ranchers, and foresters to utilize in solving drought, 
        pest and other problems they are facing on their lands.

  <bullet> Carbon offsets offer additional opportunities. In 2010, NRCS 
        invested $17 million through farm bill programs to help 
        farmers, ranchers and forest landowners develop and implement 
        carbon sequestration and emissions reduction activities. In 
        2013, NRCS, along with partners Ducks Unlimited, The Climate 
        Trust, and the Nature Conservancy, announced a new methodology 
        adopted by the American Carbon Registry for carbon credits 
        generated from grassland conservation in the prairie pothole 
        region. The project is expected to begin sales of voluntary 
        credits later this year. Other NRCS-sponsored offset projects, 
        ranging from methane reductions in rice production to improved 
        nutrient management, are nearing this point as well.

    Question 23. The EPA Administrator was asked at a hearing in 
another Committee about the work done by USDA with the dairy industry 
on methane digesters. Would like to elaborate on your partnership with 
the dairy industry?
    Answer. The Department has teamed with the Innovation Center for 
U.S. Dairy for the purpose of reducing bovine related greenhouse gas 
emissions. In 2009, a goal and Roadmap were established to reduce 
greenhouse gas emissions by 25% by the year 2020 across the entire 
dairy value chain. The team is also committed to accelerating and 
streamlining the process for adopting anaerobic digesters by the United 
States dairy farm operators through various USDA programs including the 
Rural Energy for America Program (REAP). Since 2009, REAP has awarded 
almost $45 million in grants and loan guarantees toward 53 anaerobic 
digester projects.

    Question 24. ``Waters of U.S.''--It sounds as if USDA was involved 
in the proposed rulemaking that EPA and the Army Corps published last 
week on trying to define ``waters of the United States''. Can you give 
us your take on if a farmer or rancher continues to use their land for 
agricultural activities; are they are facing any changes in what's 
needed of them under the Clean Water Act as a result of this proposed 
rule?
    Answer. It is USDA's understanding that the proposed rule preserves 
all existing statutory and regulatory agricultural exemptions under the 
Clean Water Act. As a result, farmers, ranchers and foresters can 
continue to conduct the same normal farming, ranching and forestry 
practices as part of an established ongoing operation without the need 
for a CWA permit.

    Question 25. ``Waters of U.S.''--There are concerns that the 
proposed rulemaking goes beyond the definition of ``navigable waters'' 
found in the Clean Water Act. Did the agencies struggle with how to 
reflect the Supreme Court's decisions via rulemaking? How important do 
you think it is for Congress to further clarify what constitutes 
``navigable waters'' under the Clean Water Act?
    Answer. USDA feels this question would be better posed to EPA and 
the Army Corps because they are the agencies in charge of the proposed 
rule and the rulemaking process.

    Question 26. ``Waters of U.S.''--There was an MOU signed between 
USDA and the EPA and Army Corps. Can you tell us more about this and 
the ``interpretive rule'' that was also a part of the proposed 
rulemaking on defining ``waters of the U.S.''?
    Answer. The interpretive rule addresses the scope of the ``normal 
farming, silviculture, and ranching activities'' exemption found in 
section 404(f)(l)(A) of the Clean Water Act (CWA). The interpretive 
rule clarifies that ``normal farming . . .'' activities is not limited 
to but does include certain conservation practices that may occur in 
waters of the U.S., if the practices are planned/designed/constructed 
in accordance with NRCS practice standards and are part of an 
established, on-going farming operation. Discharges from these 
practices are exempt from CWA section 404 permitting requirements.
    The Memorandum of Understanding (MOU) between USDA, the EPA and the 
Army Corps describes how the three agencies will work together to 
implement the interpretive rule, to protect and enhance water quality 
and ensure consistency and predictability for the public. The MOU also 
identifies how the agencies will coordinate to maintain the list of 
conservation practice standards exempt from section 404 permitting, 
including revisions to the list.

    Question 27. EPA Science Advisory Board--Has the EPA contacted your 
office regarding the establishment of an Agriculture Committee under 
the EPA Science Advisory Board, Section 12307 of the farm bill?
    Answer. Yes, EPA has contacted USDA about this provision.
Submitted Questions by Hon. Bob Goodlatte, a Representative in Congress 
        from Virginia
    Question 1. You have noted that USDA will use farm bill programs to 
promote ethanol exports. How does USDA plan do this?
    Answer. To date, USDA's Foreign Agricultural Service allocations of 
FY 2014 Market Access Program funding to the US Grains Council (USGC) 
for ethanol market research total about $120,000.
    The USGC plans to use the FY 2014 funding to conduct market 
research of export opportunities for U.S ethanol in China, Japan, 
Europe and Mexico.

    Question 2. Are you concerned that such a move could exasperate 
some of the stock-to-use problems we have seen in the past, 
particularly as we enter a year where USDA has warned that there is a 
decline in about 4 million acres of planted corn? What, if anything, 
will USDA do to consider the corn stocks-to-use ratio and the 
availability of corn for both food and fuel demands when pushing 
exports of ethanol?
    Answer. USDA is not concerned at this point in time about ethanol 
promotion given the record corn supply projected for the upcoming year. 
Producers have indicated they would plant 91.7 million acres this 
spring, down 3.7 million from the previous year. However, in its early 
look at the 2014 outlook at the Agricultural Outlook Forum in February, 
USDA projected another record large corn crop of nearly 14 billion 
bushels and record supplies for 2014. This was based on planted area of 
92 million acres, and a return to higher trend yields. The updated 
planting number would result in a decline of 50 million bushels in 
prospective production, but still result in record supply.
    Market promotion for ethanol will help alert foreign buyers to 
market opportunities and help us develop markets. Compared to the 2010-
12 period, when prices averaged over $6.00 per bushel, USDA projects 
that corn prices are expected to remain closer to $4.00 over the next 
few years as growth in domestic demand for ethanol has moderated. 
Facing these lower corn prices, surplus ethanol has recently been 
moving to foreign markets as U.S ethanol is priced competitively. In 
contrast, if the stocks-to-use ratios fell markedly, the resulting 
higher corn prices would reduce ethanol plant margins and the incentive 
to export product.

    Question 3. Mr. Secretary you have been quoted in the media 
expressing the need to ``push back harder on food versus fuel'' and 
have been quoted as calling the alliance of affected organization that 
want to see reform of the ethanol mandate as ``unholy.'' Should we take 
those comments to mean that you do not think the RFS mandate has 
negatively affected some industries, particularly those in the 
agriculture community?
    Answer. The RFS mandates have diverted certain quantities of 
agricultural commodities, namely corn and soybean oil, from the animal 
feed sector to the biofuel sector, and such a diversion has not had 
some small price effects for those commodities. However, it should be 
noted that the ethanol industry returns a significant amount of the 
corn processed back as high value animal feed. Those distillers grains 
are widely fed and exported as livestock producers have realized their 
value in many livestock rations.
    Recently, the loss of pasture due to persistent drought in the 
Southern Plains coupled with high feed prices brought primarily on by 
the 2012 drought further tightened livestock sector margins. Those 
margins have become more favorable now with high meat prices and record 
corn and soybean harvests in 2013 although lingering drought in 
California and the Southern Plains as well as diseases pressures in the 
hog sector continue to pose challenges. Nevertheless, the effect of the 
mandates on livestock returns is expected to be minimal. Even at the 
height of the drought, it was determined that the mandates were likely 
affecting commodity prices by only $0.07 per bushel as the refining 
sector desired a large amount of ethanol even in the absence of a 
mandate to blend with gasoline for E10 purposes.

    Question 4. During the 2012 RFS waiver request, the EPA's analysis 
said that had a waiver been issued it would have provided relief of 
over $80 million to the pork industry in Virginia and North Carolina. I 
am sure other livestock in those states would have felt similar relief, 
as would all livestock throughout the county. Yet during the debate in 
2012 you opposed a waiver citing concern of bringing long-term harm to 
the ethanol industry. Why did you not also balance the needs of all of 
American agriculture in this debate, particularly the livestock sector 
who was immediately affected?
    Answer. EPA's 2012 waiver decision was based on the criteria for a 
waiver established in Section 211(o)(7) of the Clean Air Act-whether 
implementation of the RFS volume requirements would severely harm the 
economy of a state, a region or the United States. EPA determined that 
it was highly unlikely that waiving the RFS volume requirements would 
have a significant impact on ethanol production or use in the relevant 
time frame for a waiver. Thus, it would have little to no impact on 
corn, food, or fuel prices, with an average impact on corn prices of 
$0.07 per bushel. Waiving the mandates in 2012 was estimated to have 
minimal effects on the livestock sectors under a short run waiver as it 
would likely result in little relief from high feed prices brought on 
by the severe drought. Taking into account ethanol and crude oil prices 
at the time of the waiver decision, EPA's analysis indicated that 
refiners would be unlikely to reduce ethanol blending over the relevant 
timeframe for a waiver.

    Question 5. The farm bill that was recently signed into law, made 
changes to the Rural Energy for America Program (REAP) to prevent the 
funding of ethanol blender pumps. This change was made to reflect how 
Congress originally intended the program to be administered. You have 
made recent statements claiming you will use other authorities to fund 
blender pumps. What programs or authorities will you use fund ethanol 
blender pump projects? How do you justify this against the intent of 
Congress to prevent the funding of ethanol blender pumps?
    Answer. We recognize the restriction which Congress imposed on 
retail infrastructure to deliver higher blends of renewable fuel 
through the Rural Energy for America Program. This retail 
infrastructure problem remains as a constriction in the supply-chain 
and we will explore all options available to help alleviate this 
problem and capture the tremendous opportunity for farmer, foresters 
and the nation as a whole to create economic development from renewable 
fuel production, as well as the air quality improvement and national 
security benefits that these products deliver.

    Question 6. Last week the EPA released its ``waters of the U.S.'' 
proposed rule. We understand they worked with USDA to develop the rule. 
Within this rule the EPA issued an ``interpretive rule'' to ``clarify'' 
that a long list of conservation practices are exempt from ``dredge and 
fill'' permit requirements under the Clean Water Act's section 404 
exemption for ``normal'' farming and ranching activities--so long as 
the practices comply with NRCS standards. So as I understand it, a 
farmer only qualifies for any one of these exemptions if the farmer 
follows NRCS standards. Is that correct?
    Answer. The proposed rule preserves all existing agricultural 
exemptions under the Clean Water Act. The interpretive rule clarifies 
the scope of the existing statutory exemption found in section 
404(f)(1)(A) of the Clean Water Act. Under the interpretative rule, 56 
conservation practices do not require a 404 permit when occurring in 
waters of the U.S., if they are implemented following NRCS conservation 
practice standards. The corresponding NRCS conservation practice 
standards provide guidelines for implementation of those practices, 
which ensures that these conservation activities meet the intent of 
protecting and enhancing water quality.

    Question 7. Could you clarify, will it be NRCS or the EPA who will 
inspect each farming operation that claims this conservation exemption?
    Answer. The conservation practices identified in the interpretative 
rule will be treated the same as all other long-standing agricultural 
exemptions under section 404 of the Clean Water Act; there is no 
requirement for approval, notification, or inspection, prior to 
installing the conservation practice nor is there a requirement for 
verification of the installed practice. The EPA and the Army/Corps will 
not seek out operations that may have performed exempt activities; 
however, they may respond to notifications or reports of potentially 
unauthorized non-exempt activities.

    Question 8. Under this rule, if a farmer does not follow an NRCS 
standard, or does not fully implement a NRCS standard is that farmer 
violating the Clean Water Act and subject to a $37,500 per day fine?
    Answer. Under the interpretative rule, the identified conservation 
practices do not require a CWA Section 404 permit when they occur in 
waters of the U.S., if they are implemented following NRCS conservation 
practice standards. Failure to follow the requirements of the CWA 
exemption is a violation of the CWA. The agencies' intent is to work 
with farmers to help them meet applicable standards and to correct any 
problems that may develop--not to seek fines.

    Question 9. Will farmers be subject to the citizen suit provision 
of the Clean Water Act for alleged failure to comply with NRCS 
standards?
    Answer. The interpretative rule does not modify the scope of rights 
afforded to citizens under Section 505 of the Clean Water Act.

    Question 10. My district contains the George Washington National 
Forest which is currently under a management plan from 1993. In 2007, 
the Forest Service began the process of public meetings to begin a new 
Forest plan. I understand that there have been many issues outside of 
the Forest Service's hand that has delayed the completion of this plan. 
However, at this point the delays seem to be political in nature. When 
can we expect to see the GW forest plan completed?
    Answer. USDA expects to release the environmental impact statement 
and record of decision for the GW plan revision within the coming 
weeks. We will notify your office once the plan is complete.

    Question 11. When you testified before the House Appropriations 
Agriculture Subcommittee, you mentioned that the best way to decrease 
the number of individuals enrolled in SNAP is to link the number of 
able bodied individuals to jobs that we know are out there. The farm 
bill is a good opportunity to do that. Does USDA have a timeline for 
rolling out the state work pilots?
    Answer. The farm bill provision for employment and training (E&T) 
pilots requires USDA to publish the request for applications by August 
2014 (180 days from enactment) and to give states 90 days to respond. 
USDA must announce pilots by February 2015 and the first report to 
Congress on the status of pilot projects is due by December 31, 2015. 
USDA is gathering information from interested stakeholders including 
other Federal agencies, state agencies, and organizations that provide 
work services as we move forward to meet this required timeline.

    Question 12. Some states are concerned that this Administration 
will not look favorably on state applications that implement state-wide 
mandatory work requirements. What are you doing to ensure that a wide 
array of projects are selected, include state-wide mandatory 
requirements
    Answer. The farm bill requires that the pilot projects be designed 
to increase the number of work registrants who obtain unsubsidized 
employment, increase their earned income, and reduce their reliance on 
public assistance. The farm bill also requires that USDA select pilots 
that test a range of strategies, including strategies that target 
certain populations such as those with low skills, be in both urban and 
rural areas, emphasize rapid attachment to employment, and test both 
mandatory and voluntary E&T participation. USDA will further clarify 
the criteria for selecting projects through the request for 
applications as a part of the process in awarding these competitive 
grants.

Submitted Question by Hon. Vicky Hartzler, a Representative in Congress 
        from Missouri
    Question. In respect to the implementation of the livestock 
disaster programs, I wanted to highlight some concerns I am hearing 
from Missouri Extension agents in regards to standard stocking rates 
for intensive grazing dairy farmers in Missouri. With stocking rates on 
these intensive grazing operations upwards for 1 to 1.6 cows per acre, 
the traditional FSA guidelines for livestock disaster programs have 
lead to a lengthy and more rigorous reporting requirements for these 
types of farmers. While I commend the USDA for their commitment to 
fraud protection, have the guidelines for the disaster programs been 
updated to compensate for these newer, more intensive grazing 
operations?
    Answer. With respect to each type of grazing land or pastureland in 
a county, normal carrying capacity is the capacity that would be 
expected from the grazing land or pastureland for livestock during the 
normal grazing period in the county, in the absence of a drought or 
fire that diminishes the production of the grazing land or pastureland. 
Livestock producers that are using intensive grazing methods should 
work with their local Extension Service and Natural Resources 
Conservation Service to provide grazing management data to their local 
FSA County Office. FSA county offices will provide this documentation 
to their FSA State Office for review to support a differing carrying 
capacity based on intensive grazing from an already approved carrying 
capacity for the specific type of grazing land or pastureland.

Submitted Questions by Hon. Jeff Denham, a Representative in Congress 
        from California
    Question 1. Many of my constituents, from farmers to anyone who 
shops at the local grocery store, are all preoccupied with the drought 
in California, the worst in recent history. I am convinced that the 
drought will change the agricultural landscape of California, the 
number one ag state in the nation. What is USDA doing, and what means 
are available through the farm bill, to keep our farms, crops, and 
livestock thriving in the midst of the drought?
    Answer. The Department is committed to assisting the State of 
California as well as other drought-impacted States through the use its 
available authorities. As co-chair of the National Drought Resilience 
Partnership along with the Department of Commerce's National Oceanic 
and Atmospheric Administration (NOAA), USDA is working in tandem with 
the White House, other Federal partners, and state agencies to address 
the health and human safety implications of the drought, including 
mitigating the severe economic impacts, as well as assisting with 
preparing communities and regions for future severe weather events. To 
date, the Department has designated 57 of California's 58 counties as 
natural disaster areas due to damages and losses caused by extreme 
drought. Agricultural operators in all counties designated as natural 
disaster areas, as well as those counties contiguous to such designated 
counties, may qualify for low interest emergency loans from USDA's Farm 
Service Agency (FSA) up to a maximum of $500,000. Farmers and ranchers 
have 8 months from the date of the declaration to apply to help cover 
part of their actual losses. Also, upon enactment of the 2014 Farm Bill 
on February 7, 2014, I directed the Department to have our four major 
disaster assistance programs available starting April 15, 2014. 
Eligible farmers and ranchers now may apply to receive payments under 
the Livestock Forage Disaster Program, and the Livestock Indemnity 
Program for grazing losses and livestock deaths due to drought. In 
addition, the Emergency Assistance for Livestock, Honeybees, and Farm-
Raised Fish Program provides emergency assistance to eligible producers 
of livestock (including emergency transportation of water for 
livestock), honeybees and farm-raised fish that have suffered losses 
because of severe weather, disease, or wildfires, and the Tree 
Assistance Program, which provides financial assistance to qualifying 
orchardists and nursery tree growers to replant or rehabilitate trees, 
bushes and vines damaged by natural disasters. California alone could 
potentially receive up to $100 million for 2014 losses and up to $50 
million for previous years. Applications have been received and 
payments have already been issued to many farmers and ranchers in the 
state.
    On February 7, FSA announced a signup for its Emergency 
Conservation Program to provide emergency funding and technical 
assistance to livestock producers with emergency water needs. The FSA 
Noninsured Crop Disaster Assistance Program is available for producers 
who have enrolled in this annual protection program prior to the 
deadline earlier this year. On April 29, the Department's Natural 
Resources Conservation Service launched a $1.5 million chipping 
initiative through the Environmental Quality Incentives Program (EQIP) 
to help orchard and winegrape growers manage fallowed trees and vines. 
Sixty million dollars has been made available to food banks in 
California through the Department's Emergency Food Assistance Program 
to help families that may be economically impacted by the drought, as 
well as an additional $6 million in bonus food purchases, and the 
Department is working with the California Department of Education to 
establish approximately 600 summer meal sites throughout the drought-
stricken region. USDA's Rural Development has made $11 million in 
Emergency Water Assistance Grants available to help rural communities 
experiencing a significant decline in the quality or quantity of 
drinking water due to drought.
    The Department has participated in informational drought meetings 
throughout California that are sponsored by the California Department 
of Food and Agriculture and drought forums assembled by the National 
Integrated Drought Information System (NIDIS) Program. We are 
diligently addressing questions from growers, insurance companies, 
industry groups, the Farm Bureau, and other interested parties on the 
impact of water availability. We have provided explanations of crop 
insurance policy coverage and prevented planting provisions. As a 
result of significant concern over saving perennial crops, the 
Department has provided information that allows producers to consider 
options to mitigate the impacts of drought without jeopardizing their 
insurance coverage.
    In February, USDA announced that $25 million has been made 
available through EQIP to help California farmers and ranchers 
implement conservation practices including irrigation efficiency, cover 
crops, orchard pruning, and the protection of grazing lands, and $5 
million in Emergency Watershed Protection funds to help protect 
vulnerable soils, stabilize stream banks and replant upland sites 
stripped of vegetation. Also in February, the Forest Service and the 
Natural Resources Conservation Service launched a landscape restoration 
partnership to improve the health of forest ecosystems, including the 
Mid-Klamath and San Bernardino-Riverside areas, to mitigate wildfire 
threats, and the Department's National Institute for Food and 
Agriculture announced it will make $6 million in grants available this 
year, and up to $30 million total over the next 5 years, to provide 
solutions to agricultural water challenges.

    Question 2. I appreciate the funding the Administration has set 
aside to mitigate drought disaster. I would like to know, and my 
constituents would like to know--where did the money come from and what 
impact will that have on other programs? Also, when will this funding 
actually produce real water?
    Answer. The primary funding to address the drought disaster came 
from the Environmental Quality Incentives Program (EQIP) and the 
Emergency Watershed Protection Program (EWP). This funding should have 
little impact on other NRCS programs. The funding will enable producers 
to better manage water resources and mitigate the impacts of severe 
drought.

    Question 3. Are you engaged with FDA in crafting their Produce 
Safety rule under the Food Safety Modernization Act? My constituents 
are concerned with the final result, since time is getting short before 
FDA has to publish their rule. How is USDA helping prepare farmers for 
the uncertainty and changes coming down the road in implementation of a 
Produce Safety Rule.
    Answer. Yes. USDA's Agricultural Marketing Service (AMS) has an 
ongoing partnership agreement with FDA, including a Memorandum of 
Understanding that has enabled our staff to work closely with FDA on 
the FSMA rulemaking process, including our participation in listening 
tours around the nation and several webinars, which has provided forums 
for the agencies to share information with hundreds of participants and 
receive input from interested persons. AMS bridges the gap between its 
stakeholders and FDA to address questions about the proposed produce 
safety regulation and other FSMA-related activities.
    When the produce safety regulation is final, AMS will modify its 
Good Agricultural Practices (GAP) and Good Handling Practices (GHP) 
program to reflect metrics embedded within the rule. AMS also is 
developing a Group GAP certification program that will allow groups of 
producers to work collaboratively and pool resources to achieve 
conformance with both the requirements of the Produce Safety Rule and 
the USDA GAP & GHP Program.
    Furthermore, AMS is an active partner in a cooperative agreement 
with Cornell University, funded by AMS and FDA, which has established 
the Produce Safety Alliance (PSA). The PSA broadly engages with other 
land-grant universities and the Cooperative Extension Service offices 
across the nation to develop standardized training curriculum for 
farmers, growers, packers and shippers of fresh produce in GAP. PSA 
currently is developing a curriculum that will educate growers on the 
requirements of the FSMA's Produce Safety Rule. The PSA will certify 
extension personnel and others to deliver the PSA curriculum to growers 
in training sessions across the country.

Submitted Joint Questions by Hon. Gloria Negrete McLeod, Hon. Doug 
        LaMalfa, Hon. Juan Vargas, Hon. Jeff Denham, and Hon. Jim 
        Costa, Representatives in Congress from California
    Question 1. As you know, the Women, Infants and Children (WIC) 
program moratorium is going on its third year. Small businesses in our 
districts are closing due their inability to secure WIC vendor permits 
and families are traveling significant distances to reach stores that 
will accept their WIC vouchers. We hear the uncertainty that this 
moratorium creates to entrepreneurs that want to bring business to our 
districts. What is your view of the current timeline for lifting of the 
California WIC moratorium for new vendor licenses? Is it on track? Is 
it subject to change? What factors may be involved one way or the 
other? Is this timeline published for the public view?
    Answer. FNS continues to work closely with the California 
Department of Health in meetings and conference calls to discuss and 
resolve issues related to the ongoing effort to correct and improve 
California's vendor management policies and procedures in the Special 
Supplemental Nutrition Program for Women, Infants and Children (WIC). 
We are anticipating the release of the California final regulation 
shortly. More recently, beginning on June 1, 2014, USDA permitted the 
state to begin lifting in phases the Federal moratorium on accepting 
applications for new vendor authorizations. The state may make 
additions to current master agreements, provided applicants meet all 
selection criteria including a clean business track record. FNS will 
continue working closely with CDPH to monitor the phased-in lifting of 
the moratorium and will consider an appropriate timeline for subsequent 
phases contingent upon the sState's success in meeting targets 
identified in the approved Plan for Cost Containment and Program 
Effectiveness. Subsequent phases will include additions of new full-
line grocery stores and new above-50-percent and other vendors.

    Question 2. Is it possible for USDA to provide some level of 
certainty to our constituents by publishing the start date for the 
review of applications through a vendor alert?
    Answer. The California WIC State Agency is responsible for 
reviewing applications and authorizing vendors to participate in the 
California WIC program. California WIC will publish the start date for 
the acceptance of applications through its Vendor Alert System, and 
through other media as necessary, once the moratorium is lifted.

    Question 3. How can we meet the demand for WIC with new vendor 
locations in the interim while we work out some of the finer points of 
the new regulation package?
    Answer. On April 10, 2014, the Department issued a policy 
memorandum that explains implementation of the vendor preauthorization 
provision of P.L. 113-76, the Consolidated Appropriations Act, 2014. 
The legislative provision allows WIC state agencies upon the lifting of 
a federally-mandated vendor moratorium to seek a waiver from the 
requirement to conduct an on-site visit prior to or at the time of a 
vendor's initial authorization. This new provision may offer some 
relief to a WIC state agency (such as California) facing a backlog of 
vendor applications to be processed after a federally-imposed 
moratorium is lifted, should it request such a waiver.
    Beginning on June 1, 2014, USDA permitted California to begin 
lifting in phases the Federal moratorium on accepting applications for 
new vendor authorizations. The state may make additions to current 
master agreements, provided applicants meet all selection criteria 
including a clean business track record. FNS will continue working 
closely with CDPH to monitor the phased-in lifting of the moratorium 
and will consider an appropriate timeline for subsequent phases 
contingent upon the state's success in meeting targets identified in 
the approved Plan for Cost Containment and Program Effectiveness. 
Subsequent phases will include additions of new full-line grocery 
stores and new above-50-percent and other vendors.

    Question 4. The criteria for exemptions to the moratorium was 
narrow, there are about 200 site locations in California that fall 
right outside this exemption criteria that are still waiting for the 
moratorium to be lifted and they cannot afford to continue on without 
certainty. Since USDA has adopted price caps on products which address 
the abuse that caused the moratorium, would USDA consider adding 
additional exemption criteria?
    Answer. It is anticipated that California WIC will begin accepting 
new applications this summer. Coupled with the ability to seek a waiver 
of the pre-authorization visit, the Department does not believe there 
is a need to expand the exemption criteria at this time.

    Question 5. These same 200 stores are in limbo because original 
communication from the California Department of Public Health (CDPH) in 
2011 gave the green light to proceed with a Letter of Intent. A year 
later, the Department and CDPH reneged on the original understanding 
that the Letter of Intent would grant these stores exemption. This move 
cost our communities new investments. Moving forward, will USDA honor 
front of the line passes to these stores once the moratorium is lifted?
    Answer. California WIC will establish the procedures for processing 
applications upon the lifting of the moratorium. On April 10, 2014, the 
Department issued a policy memorandum that explains implementation of 
the vendor preauthorization provision of P.L. 113-76, the Consolidated 
Appropriations Act, 2014. The legislative provision allows WIC state 
agencies upon the lifting of a federally-mandated vendor moratorium to 
seek a waiver from the requirement to conduct an on-site visit prior to 
or at the time of a vendor's initial authorization. This new provision 
may offer some relief to a WIC state agency (such as California) facing 
a backlog of vendor applications to be processed after a federally-
imposed moratorium is lifted, should it request such a waiver.

    Question 6. We understand the issue of partial reimbursement may 
create problems among the industry. How do we ensure that ``cost'' of 
reimbursement will not impede on the timeline and if we ignore this 
issue and go live by lifting it, how do we know we aren't creating 
another problem long term?
    Answer. WIC State agencies may submit a request to exclude 
partially-redeemed food instruments from redemption averages to FNS for 
approval at any time. The methodology must be based on empirical data, 
and a process that is able to identify partially redeemed food 
instruments for exclusion. As such, if a state agency identifies an 
improved method for identifying partial redemptions it can submit a 
request to change its current system. As more state agencies implement 
electronic benefit transfer the issue of partial reimbursement will be 
eliminated because reimbursement will be based on prices of individual 
food items instead of food instruments that may combine several food 
items onto one check.

    Question 7. The most concerning question is what WIC participating 
families do without options of stores that accept WIC vouchers. More 
and more families are turning to corner stores to do their family 
shopping. At corner stores, families purchase WIC and non-WIC items 
although these stores do not offer the most competitive prices on non-
WIC items. Since these corner stores do not have price caps on the 
remaining products costumers' purchase, some products can be marked up 
10 to 20 percent more. The lack of store access exist for these 
families, regardless of the exemption criteria that seeks to assure 
that stores are within 5 miles from each other. How are we helping the 
very people this program was designed for by limiting their options?
    Answer. WIC state agencies authorize vendors that have competitive 
pricing for WIC authorized foods, while ensuring adequate access for 
the WIC participants. Unlike WIC authorized foods, WIC state agencies 
do not have the authority to set price caps for non-WIC items; however, 
the nutrition education that is provided to participants is intended to 
help them make wise shopping choices whether shopping with WIC benefits 
or other means.

Submitted Question by Hon. Eric A. ``Rick'' Crawford, a Representative 
        in Congress from Arkansas
    Question. Can you provide the Committee with a detailed explanation 
as to why the Department missed the required 60 day statutory deadline 
to publish a final rule implementing the catfish inspection program? 
How far beyond the 60 days do you expect it to take for the final rule 
to be published in the Federal Register?
    Answer. USDA's Food Safety and Inspection Service has been 
submitting regular status reports to Congress every 30 days on the 
development of the final rule establishing a catfish inspection 
program. On April 30, USDA and FDA signed a Memorandum of Understanding 
intended to improve interagency cooperation on food safety and fraud 
prevention and to maximize the effectiveness of personnel and resources 
related to examination and inspection of catfish. By the end of May, 
USDA will be prepared to send a final rule establishing a catfish 
inspection program to the Office of Management and Budget.
Submitted Questions by Hon. Cheri Bustos, a Representative in Congress 
        from Illinois
    Question 1. Some of our rural areas were the hardest hit and have 
been the slowest to recover from the economic recession. Given the high 
unemployment rates in rural areas, I believe it's important to protect 
existing jobs and work to strengthen the rural economy. National Beef 
Packing announced they would shut the doors of their Brawley, CA plant 
on April 4, 2014 citing diminished herd sizes and new COOL regulations 
as the cause of the closure. Industry leaders continue to highlight the 
negative impact of mCOOL regulations. I have a Tyson plan in Joslin, IL 
which employs roughly 2,200 individuals. I'm curious to know what the 
agency has done to measure the economic impact of mCOOL. Also, what has 
the agency done to ensure consumers have access to valuable information 
about the origin of their food without causing major disruptions within 
the industry?
    Answer. As required under Executive Orders 12866 and 13563, USDA 
assessed the costs and benefits of regulations to implement mandatory 
COOL. Numerous comments on rulemakings confirmed that certain U.S. 
consumers value country of origin information; however USDA has been 
unable to quantify these benefits. USDA estimated the likely range of 
industry adjustment costs to the May 2013 amendments to the mandatory 
COOL regulations at $53.1 to $137.8 million. In addition, as directed 
by the Agricultural Act of 2014, USDA is conducting an economic 
analysis of the final rule published on May 24, 2013 (78 Fed. Reg. 
31367). Since mandatory COOL became law as part of the Farm Security 
and Rural Investment Act of 2002 (Pub. L. 107-171), USDA has sought and 
responded to input and comments from industry and consumers to 
promulgate the least burdensome regulations necessary to meet our 
statutory obligation while ensuring that the United States complies 
with its international trading obligations.

    Question 2. This year the USDA has launched exciting new research 
projects and will soon establish the Agricultural Research Foundation. 
Agricultural research is critical to maintaining a safe and affordable 
food supply and while I commend your efforts to promote new research 
projects, I am concerned by the proposed cuts to the Agricultural 
Research Service (ARS) and in particular the proposed cuts to the 
National Center for Agricultural Utilization Research, commonly 
referred to as the Ag Lab. Under the President's proposed budget, the 
Ag Lab will lose ten percent of its funding. What impact will this cut 
have on the innovative work taking place at the Ag Lab? What is the 
rationale for the ten percent cut? What will the USDA do to mitigate 
the effects of this funding shortfall on the ongoing research currently 
underway at the facility?
    Answer. Much of the research at the National Center for 
Agricultural Utilization Research (NCAUR) in Peoria, IL, and at ARS' 
three other USDA regional laboratories has focused on utilization of 
agricultural commodities and development of new products, which were 
high priorities when these laboratories were established and during 
times when U.S. farmers needed new markets to absorb commodity 
surpluses. Successful growth of the corn ethanol and biodiesel 
industries are prime examples of how utilization research has 
benefitted U.S. agriculture and rural communities.
    Due to reductions in ARS budgets over recent years, ARS is 
challenged to direct increasingly limited resources to the nation's 
most critical, high-priority needs. Today, the most beneficial outcomes 
from agricultural research in the U.S. and globally are those that can 
expand the supply of agricultural commodities to meet increasing 
demands, whereas research intended to increase demand through 
development of new products for commercialization is a lower priority. 
Thus, funding for utilization is being redirected to solving problems 
that limit production.
    ARS is working hard to redirect resources at its utilization 
laboratories, including NCAUR in Peoria, towards higher-priority 
research objectives.

    Question 3. As you know, Porcine Epidemic Diarrhea Virus (PEDv) has 
spread to 27 states in the U.S. and has had a disastrous effect on the 
pork industry. Looking at the USDA's quarterly report, the U.S. pig 
inventory is down five percent from 3 months earlier which is the 
smallest number since 2007. Additionally, market analysts are 
predicting a major increase in consumer prices at the grocery store. 
While industry groups have invested heavily in research and made 
progress, what can and is the USDA doing to assist the pork industry in 
terms of relief funds, research funds or disaster assister?
    Answer. USDA continues to take a number of actions to combat the 
spread of PEDv in the U.S. swine herd. Most recently, on June 5, 2014 
we received approval from the Office of Management and Budget to spend 
$26 million to combat PEDv. This funding will be used to take actions 
such as providing some reimbursement to producers for cleaning and 
disinfection, hiring veterinarians to inspect premises, assisting 
states with program operations, testing samples, and conducting 
research on issues such as pathogenicity and disease transmission. 
Also, on April 18, 2014, we announced that USDA will require reporting 
of PED virus and porcine deltacoronavirus, in addition to monitoring 
disease on affected farms, monitoring movements of pigs, vehicles, and 
other equipment leaving affected premises, all with the aim of slowing 
the spread of this disease across the United States. USDA is working 
with industry and the states to finalize a plan for implementation and 
will be issuing a Federal Order in the coming weeks enforcing the 
reporting requirements. USDA also announced that it is transferring $5 
million immediately for related activities while USDA works to refine 
the program and funding needs. These actions are intended to help 
identify gaps in biosecurity, as well as additional steps that can be 
taken to stop the spread of these diseases and assist producers and 
ultimately consumers.
    Since PEDv was detected in the United States last year, USDA has 
been working closely with the pork industry and our state and Federal 
partners to learn more about the disease, its spread, and how best to 
assist producers. Together with these partners, USDA has established 
testing protocols, sequenced the virus and investigated how the virus 
is transmitted, as well as risk factors to minimize its impact on 
producers and industry.
    USDA is also:

  <bullet> Providing assistance to researchers looking into this 
        disease, with the Agricultural Research Service (ARS) working 
        with the National Animal Disease Center in Ames, Iowa to make 
        models of the disease transmission and testing feedstuffs. This 
        modeling work is contributing to some experimental vaccines to 
        treat animals with the disease. ARS also has a representative 
        serving as a member of the Swine Health Board. USDA also 
        provides competitive grant funding through the Agriculture and 
        Food Research Initiative program and anticipates some 
        applications on PEDv research will be submitted soon. In 
        addition, USDA provides formula funds to states and 
        universities through the Hatch Act and the Animal Health and 
        Disease Research Program, Section 1433 of the National 
        Agricultural Research, Extension, and Teaching Policy Act of 
        1977 (NARETPA) for research activities surrounding this 
        disease.

  <bullet> Working as a key member of a task force with industry 
        stakeholders, including the American Association of Swine 
        Veterinarians (AASV), National Pork Producers Council (NPPC), 
        National Pork Board (NPB), veterinary diagnostic laboratories 
        (VDLs), and State Animal Health Officials (SAHOs). The 
        objectives for the task force are to investigate the virus, 
        identify and trace risk factors in the transmission of the 
        disease, and keep producers informed. The group is voluntarily 
        collecting epidemiological information on PED and 
        deltacoronavirus that will help us identify additional cases; 
        determine how the disease got here and how it spreads; evaluate 
        strategies for PED control and elimination; and evaluate 
        options for a disease monitoring plan.

  <bullet> Working with producers through the Farm Loan Programs to 
        provide credit options, including restructuring loans, similar 
        to how the Farm Service Agency successfully worked with 
        livestock producers affected by the blizzard in South Dakota. 
        In the case of guaranteed loans, USDA is encouraging guaranteed 
        lenders to use all the flexibility available under existing 
        guarantees, and to use new guarantees where appropriate to 
        continue financing their regular customers.

    Through these collaborative efforts with states and industry, we 
hope to further enhance the biosecurity and health of the U.S. swine 
herd while maintaining movement of pigs in the United States.

Submitted Questions by Hon. Steve King, a Representative in Congress 
        from Iowa
    Question 1. The Department released a memo dated March 5, 2014, 
titled ``Supplement Nutrition Assistance Program--Section 4006, 
Agricultural Act of 2014--Implementing Memorandum.'' This memo states, 
``FNS encourages states to move forward with implementation of section 
4006 in a manner that adheres to the original intent and basis for the 
connection between LIHEAP and SNAP.'' In the time since enactment of 
the Agricultural Act of 2014, several states have announced their 
intentions to work around Sec. 4006 by awarding $20 in LIHEAP payments 
to some SNAP beneficiaries in order to increase the maximum SNAP 
benefit. It is clear that practice falls outside the ``original intent 
and basis'' of the law.
    Is the Department taking any action to work with the states to 
reverse this practice?
    What interactions have you had with the Governors of the so called 
``LIHEAP states''?
    Does the Department see this as a sustainable way to administer 
SNAP benefits?
    Is this a proper use of LIHEAP funding?
    In response to this, should Congress choose to completely sever the 
relationship between LIHEAP and SNAP, would it address the concern that 
the Department raised in its memo?
    In response to this, should Congress choose to block grant food 
stamps to the states, and allowed the states to have some interest in 
the administration of the program, would that eliminate the incentive 
for states to ``game the system?''
    What effect does this practice in the states have on LIHEAP 
recipients? How many potential LIHEAP beneficiaries will not receive 
any LIHEAP assistance because the states have chosen to administer it 
in this way?
    Answer. States have the authority to determine how to use their 
LIHEAP funding, in accordance with that program's requirements. LIHEAP 
is not administered or funded by the USDA. USDA is in the process of 
collecting information about how states are implementing the LIHEAP 
provision of the farm bill to ensure statutory compliance. In 
communications with states, we have encouraged them to move forward 
with implementation in a manner that follows the original intent of the 
law and the basis for the connection between LIHEAP and SNAP, as well 
as recent changes made by the Farm Bill.
    SNAP is a critical automatic stabilizer--designed to expand quickly 
to help meet increased need when the economy is weak, and contract as 
the economy recovers, ensuring that food gets to people who need it and 
that SNAP benefits flow to communities that face rising unemployment or 
poverty. One reason that proposals to convert the program to a block 
grant are so troubling is that, unlike SNAP, block grants are simply 
not designed to be as responsive to economic changes.

                                  <all>

</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
